<html>
<title> - EPA'S RISK MANAGEMENT PLAN (RMP) PROGRAM</title>
<body><pre>[Senate Hearing 106-151]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-151


 
                EPA'S RISK MANAGEMENT PLAN (RMP) PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
        CLEAN AIR, WETLANDS, PRIVATE PROPERTY AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 16, 1999

                               __________

  Printed for the use of the Committee on Environment and Public Works


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 59-379cc                     WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            FRANK R. LAUTENBERG, New Jersey
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
MICHAEL D. CRAPO, Idaho              BARBARA BOXER, California
ROBERT F. BENNETT, Utah              RON WYDEN, Oregon
KAY BAILEY HUTCHISON, Texas
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director
                                 ------                                

  Subcommittee on Clean Air, Wetlands, Private Property, and Nuclear 
                                 Safety

               JAMES M. INHOFE, North Carolina, Chairman

GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
ROBERT E. BENNETT, Utah              JOSEPH I. LIEBERMAN, Connecticut
KAY BAILEY HUTCHISON, Texas          BARBARA BOXER, California

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 16, 1999
                           OPENING STATEMENTS

Graham, Hon. Bob, U.S. Senator from the State of Florida.........     9
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
    Letters, RMP worst-case scenarios.........................2, 25, 27
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     3
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......    45
    Letters submitted for the record............................. 45-48

                               WITNESSES

Bertelsmeyer, James E., president, National Propane Gas 
  Association....................................................    28
Letter, from Senator Chafee......................................   100
    Prepared statement...........................................    94
    Responses to additional question from Senator Graham.........    99
Blitzer, Robert, former section chief, Domestic Terrorism/
  Counterterrorism Planning Section, Federal Bureau of 
  Investigation..................................................    34
    Prepared statement...........................................    96
Burnham, Robert M., Chief, Domestic Terrorism Sector, National 
  Security Division, Federal Bureau of Investigations............     7
    Prepared statement...........................................    89
    Responses to additional questions from:
        Senator Graham...........................................    91
        Senator Lautenberg.......................................    90
Fields, Timothy, Acting Assistant Administrator, Office of Solid 
  Waste and Emergency Response, Environmental Protection Agency..     5
    Chart, EPA's Regulatory Duplication..........................    52
    Prepared statement...........................................    48
    Report, Risk Management Program Guidance for Propane Users 
      and Small Retailers........................................ 56-85
    Responses to additional questions from:
        Senator Chafee...........................................    87
        Senator Graham...........................................    88
        Senator Inhofe...........................................    85
Kleckner, Dean, President, American Farm Bureau..................    23
    Letters, RMP regulations..................................... 25-27
    Prepared statement...........................................    91
Langanga, Ben, emergency management coordinator, Office of 
  Emergency Management, Union County, New Jersey.................    40
    Prepared statement...........................................   167
Littles, Paula R., Paper, Allied-Industrial, Chemical and Energy 
  Workers International Union....................................    36
    Prepared statement...........................................   164
Natan, Thomas E., Jr., research director, National Environmental 
  Trust..........................................................    38
    Prepared statement...........................................   165
Susman, Thomas M., Ropes & Gray..................................    34
    Article, Terrorists with Computers..........................134-164
    Prepared statement...........................................   132

                          ADDITIONAL MATERIAL

Article, Flaws of Inclusion of Propane in the EPA RMP Regime, 
  Alliance for Fair Energy Competition..........................124-132
Letters from:
    Boehert, Hon. Sherwood.......................................   102
    California Cotton Ginners and Growers Association............   114
    California Department of Forestry and Fire Protection......107, 122
    Chafee, Hon. John H..........................................   100
    City of Tallahasse, FL.......................................   119
    City of Waynesboro, GA.......................................   118
    Colorado Farm Bureau.........................................   106
    Colyer, Dave.................................................   176
    Farmers' Pride...............................................   112
    Florida Farm Bureau Federation...............................   110
    Florida Public Utilities Co..................................   119
    Gingerich, Tom...............................................   177
    Governor of California Pete Wilson...........................   175
    Hecla Mining Company.........................................   117
    Illinois Pork Producers Association..........................   107
    Intermountain Outdoor Sports.................................   117
    International Association of Fire Fighters...................   170
    Iowa Farm Bureau Federation..................................   110
    Kansas Farm Bureau...........................................   111
    Kentucky Department of Housing, Buildings, and Construction..   123
    Kings County, California, Farm Bureau........................   114
    Mobile Tool International, Inc...............................   118
    National Grange..............................................   109
    National Marine Manufacturers Association....................   168
    National Restaurant Association..............................   169
    Nebraska Farm Bureau Federation..............................   111
    Nevada Board for the Regulation of Liquified Petroleum Gas...   116
    North Carolina Department of Agriculture and Consumer 
      Services...................................................   115
    North Carolina Department of Environment and Natural 
      Resources..................................................   120
    Ohio Grocers Association.....................................   113
    Ohio Meat Industries Association.............................   108
    Ohio Poultry Association.....................................   108
    Olive Road Flea Market, Brookville, OH.......................   122
    Orange County, California, Certified Unified Program Agency..2, 102
    Parsons, Peggy...............................................   106
    Rabun, J.J., Mayor of Wrens, GA..............................   119
    Ross Ranch South, Tallahasse, FL.............................   123
    Scana Propane Services.....................................120, 121
    Several agricultural organizations...........................   109
    Several Members of the House of Representatives..............   101
    Tabor Lumber Cooperative.....................................   123
    Thieman Tailgates, Inc.......................................   117
    Tucker, Mike.................................................   178
    Williamson County, Tennessee, Emergency Management Agency....   174
    Willmar Poultry Group........................................   105
Resolutions:
    California State Assembly..................................103, 105
    Missouri State Legislature...................................   113
    Nevada Board for the Regulation of Liquified Natural Gas.....   115
Statement, National Fire Protection Association..................   170



                EPA'S RISK MANAGEMENT PLAN (RMP) PROGRAM

                              ----------                              


                        TUESDAY, MARCH 16, 1999

                            United States Senate,  
             Subcommittee on Clean Air, Wetlands, Private  
                               Property and Nuclear Safety,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:31 a.m. in 
room 406, Dirksen Senate Building, Hon. James M. Inhofe 
(chairman of the subcommittee) presiding.
    Present: Senators Inhofe, Lautenberg, Bennett and Graham.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The meeting will come to order.
    We would ask the first panel to come up to the table, 
please, Mr. Fields, Mr. Burnham. I will give an opening 
statement. Other members are on their way. We will try to keep 
on schedule for this hearing because I have another meeting 
coinciding at the Senate Armed Services Committee, and I am 
supposed to be in two places at the same time. So we will move 
right along.
    Today's hearing will examine the EPA's risk management plan 
program as required under the Clean Air Act. While I agree with 
the program's intentions, the need to make emergency 
information available to local emergency response personnel, I 
have serious concerns about the manner in which the EPA is 
implementing the program. I believe the EPA is flat out wrong 
in including substances on the list for flammable reasons 
alone. I can understand if you have one that is flammable and 
toxic, but just here we would be referring to those substances 
that are only flammable.
    First, regarding flammable substances, the purpose of the 
provision in the Clean Air Act is to safeguard local 
communities against accidents involving toxic chemicals. The 
Act provided OSHA with the authority to issue regulations to 
protect workers against chemical accidents and to provide EPA 
with the authority to protect the citizens who live around the 
plant from escaping toxic fumes.
    The EPA regulating propane under this provision is 
regulatory overreach in the area that I don't believe they 
should be. I'm concerned that through this regulation, the 
Federal Government is picking favorites between fuels which is 
clearly outside the intent of Congress and the Clean Air Act. 
The result of including propane on the list will be fuel 
switching, potentially driving propane dealers out of business.
    We have already seen a case where fuel switching is being 
encouraged by local governments. We have a letter here that I 
think is self explanatory, a copy of the letter by the Orange 
County, California regulating agency where they recommend that 
propane users either reduce the amount of propane on hand or 
switch to a nonregulated substance in order to avoid the EPA 
rule. When a local government agency sends out letters like 
this because of an EPA rule, then there is a problem with the 
rule. This is unacceptable. The EPA has no business deciding 
which fuels should be used and which should be encouraged.
    I'm interested in hearing from Mr. Bertelsmeyer with the 
Propane Gas Association about this fuel switching issue. I 
believe that will be on the second panel.
    I'm also concerned that as far as fuels are concerned, this 
RMP rule duplicates other regulations by OSHA and by the 
National Fire Protection Association and by various State 
regulations. I have a chart which shows the duplication between 
this rule and others. The chart is over here and I'd like to 
have some of the witnesses address that. I'd like to have Mr. 
Fields explain exactly what is different in the EPA rule 
compared to the other regulations and during the second panel, 
I'd like to hear Mr. Bertelsmeyer respond to those statements.
    A second major concern with this rule is the potential use 
of this information by terrorists. If they have access to the 
worst-case scenario data, they can use this information to 
target potential bombing sites. You can already find 
information on the Internet on how to make a bomb. The last 
thing we need now is to have information on the Internet which 
will show terrorists where they can be most effective. I have a 
particular concern and interest in this since I'm from Oklahoma 
and having gone through the Federal office bombing.
    Last spring, we asked the FBI to take a look at the worst-
case scenario data and the EPA's plans to disseminate the 
information on the Internet. I'm pleased that the FBI convinced 
the EPA that it would be foolhardy to release the information. 
However, that is not the end of the problem. Anyone can request 
and receive the data from EPA through the Freedom of 
Information Act and the EPA would have to comply, I would 
assume. That being the case, someone could make that request 
and then they in turn could put it on the Internet and it would 
get there anyway.
    We need to make sure the local emergency personnel have 
access to the information and not provide a forum for 
terrorists around the world to target and blow up facilities in 
our neighborhoods.
    [The referenced letter follows:]
      
      Orange County, California, Certified Unified Program 
                                                    Agency,
                                                  January 14, 1999.

Mr. Dan Lower,
All Star Gas,
12600 Western Avenue,
Garden Grove, CA 92841.

    Dear Mr. Lower: Your business has been identified as subject to the 
requirements of the California Accidental Release Prevention (Cal-ARP) 
program found in Chapter 6.95, Article 2 Health and Safety Code. The 
Orange County Certified Unified Program Agency is authorized to 
implement this program for the State of California. In addition, your 
business is also subject to the Federal program, found in section 
112(r) of the Clean Air Act implemented by U.S. EPA.
    Your business is requited to develop and implement a risk 
management program to prevent accidental releases of regulated 
substances that can cause serious harm to the public and the 
environment. You are also required to develop and submit a Risk 
Management Plan (RMP), which includes a summary of your risk management 
program. The RMP must be submitted to this agency and an electronic 
version submitted to U.S. EPA by June 21, 1999.
    We are requesting that your business contact this agency to 
schedule RMP compliance meeting during the month of January 1999. These 
meetings are required pursuant to California regulatory requirements 
and to ensure that your business meets the federally mandated timeline.
    Should your business so choose, you may implement one of the 
following options in lieu of developing an RMP:
    1. Eliminate or replace the Regulated Substance with a non-
regulated substance.
    2. Reduce the amount onsite to below the Federal threshold 
quantity. Note: This option may still require the development of an RMP 
pursuant to California law, but will delay the submittal process to a 
date beyond the June 21, 1999 deadline.
    If one of the above options is chosen you will be required to 
verify compliance prior to the June 21, 1999 deadline.
    This agency is dedicated to assisting your business in meeting 
these new regulatory requirements. In the near future we will be 
providing technical/regulatory assistance as well as RMP guidance 
documents. However, failure to develop and submit an RMP as required 
will subject your business to penalties of up to $10,000 per day. In 
addition, failure to contact and work with this Agency during 
development of your RMP could cause costly revisions to be made during 
the agency review and evaluation period.
    Please contact James Hendron at (714) 667-3708 to schedule your 
meeting time and date for questions related to this letter or your 
responsibilities under the Cal-ARP program.
            Sincerely,
   Pearl Hoftiezer, Supervising Hazardous Waste Specialist,
                    Orange County Certified Unified Program Agency.
    Senator Inhofe. We are joined by Senator Lautenberg. I'd 
ask Senator Lautenberg if he has an opening statement to make 
at this time?

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Mr. Chairman.
    I do and I thank you for holding a hearing on this 
important topic. We face, in the issue of public access to 
chemical accident scenarios, one of the fundamental tensions of 
an open, democratic society--how accessible to make information 
whose disclosure may prevent harm, but some may use it to cause 
harm. We often refer to the 1984 tragedy in Bhopal, India when 
a chemical leak took 2,000 lives, as a wakeup call on the issue 
of chemical accidents. In the wake of that tragedy, I 
originated the amendment to the 1986 Superfund bill that 
established the toxics release inventory through which 
companies disclose routine chemical releases and emissions.
    In the 1990 Clean Air Act, Congress took the right-to-know 
concept a step further by creating the risk management program 
under which companies will disclose worse chemical accident 
scenarios and it is the risk management program that we are 
discussing today. Every year, there are dozens of chemical 
incidents in my State of New Jersey, many requiring evacuations 
of the surrounding communities, many causing injury and 
tragically, death. Nationwide, the Chemical Safety and Hazard 
Investigation Board reports an average of 60,000 chemical 
incidents each year and it results in hundreds of evacuations 
and injuries and an average annual death toll of about 250 
people.
    Our goal must be, especially in a State with as strong a 
chemical industry as New Jersey, to make the industry safer, to 
make the environment safer, even as it becomes more productive. 
Toward that end, we have regulatory programs specifying the 
minimum safety practices that should be in place at each firm. 
We have a Chemical Safety Board identifying the root causes of 
most serious accidents and thanks to risk management programs 
created under the Clean Air Act of 1990, we will soon have a 
right-to-know program that applies to chemical accidents just 
as the 1986 right-to-know program applies to routine chemical 
releases. Strong regulatory and enforcement programs will 
always be an essential component of protecting safety, health 
and the environment in this country.
    However, Mr. Chairman, the right-to-know programs have 
promoted risk reduction far beyond what the regulatory programs 
could achieve on their own. The premiere example of this is the 
toxic release inventory which, through public disclosure, has 
encouraged, has led industry to cut toxic chemical releases in 
half in 10 years. This is without the big hand of government 
overlaying it. People responded to the requests, many companies 
actually turned the recaptured emissions into valuable assets, 
part of their inventory, part of the material from which they 
make product.
    The power of public scrutiny manifests itself in several 
ways. Newspapers run articles naming a specific company or 
plant, the top chemical releasor in a town, State or in the 
country. Environmental agency heads publicly call upon the 
biggest firms to voluntarily reduce their releases. Vendors and 
consultants market pollution prevention technologies to 
facilities that are high on the list. All of this is made 
possible by the right to know and it all contributes to an 
atmosphere in which industry, through non-regulatory means, is 
given an incentive to use safer products and processes.
    I take very seriously the FBI's concerns that disclosure of 
some of this information might increase risks due to terrorism. 
All of us agree on the need to take all reasonable measures to 
protect our citizens from terrorists. At the same time, it is 
important to have programs such as right-to-know that help 
reduce public risks from very real and dangerous chemical 
accidents. If there are steps that we can take to reduce 
threats from terrorism at chemical facilities, we should 
certainly try to do that without eliminating the public safety 
benefits that flow from disclosure of information about 
chemical facilities. We might want to propose measures to 
improve site security at these chemical plants or to even ban 
the most hazardous chemical operations from residential areas 
and schools.
    I am going to be very interested to hear, Mr. Chairman, 
what advice our expert witnesses are going to give us to help 
retain the benefits of the right-to-know program, while at the 
same time safeguarding ourselves from the threats of terrorism.
    I thank you very much.
    Senator Inhofe. Thank you, Senator Lautenberg, and I think 
when you said the information is there to prevent harm and 
could be used to inflict harm, I think that is what this is 
really all about.
    We will have three panels. The first panel will be Federal 
Government people and the second will be those with an interest 
in propane and the third on the security issues. All told, we 
have nine witnesses who will be testifying today.
    I would mention to you that while we will have members who 
will be coming and going, we do have their staff here. You will 
be receiving requests for answers to questions asked for the 
record. You each will be given 5 minutes to make an opening 
statement. However, your entire statement will be made a part 
of the record. We're going to use the lights, and after that we 
will ask for questions from the members of the subcommittee.
    We will start off with Mr. Timothy Fields, Acting Assistant 
Administrator, Office of Solid Waste and Emergency Response, 
U.S. EPA, and Robert Burnham, Chief, Domestic Terrorism Sector, 
National Security Division, Federal Bureau of Investigations.
    Mr. Fields, I understand this committee has received your 
nomination and I'll be anxious to hear your responses so that 
we can move ahead with your confirmation.
    Mr. Fields, why don't you begin?

 STATEMENT OF TIMOTHY FIELDS, ACTING ASSISTANT ADMINISTRATOR, 
      OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Fields. Thank you very much, Mr. Chairman.
    I thank the members of the committee for being here today 
to hear the testimony, on a very important topic, risk 
management planning. My office has the EPA's primary 
responsibility for the risk management program as well as the 
agency's anti-terrorism program in terms of coordinating with 
other Federal agencies on how we protect ourselves against 
terrorism at the Federal, State and local levels. I'm pleased 
to have the opportunity to present information about the 
importance of chemical safety, community right-to-know and our 
plan to balance the benefits of community right-to-know with 
legitimate concerns about protection against terrorist threat.
    We did make a decision not to put the off-site consequence 
analysis data on the Internet on November 6, 1998, at the 
advice of the Federal Bureau of Investigation and other 
national security interests in this country. All other RMP, 
risk management information except for confidential business 
information, would be available and disseminated on the 
Internet.
    Since November, we've had concerns about how others might 
post offsite consequence analysis data on the Internet. We've 
been working together with the National Security Council, the 
Federal Bureau of Investigation, the Department of Justice, the 
Office of Management and Budget and the National Institute of 
Standards and Technology to explore ways in which we can 
prevent others from posting OCA data on the Internet as well. 
We will continue to keep this subcommittee and this committee 
informed of those discussions as we go along. Our goal is not 
to post OCA data on the Internet and we don't want others to 
post the data. The National OCA data base should not be posted 
on the Internet and we will take efforts to make sure that does 
not occur.
    We will handle FOIA or Freedom of Information Act requests 
in a way that minimizes the amount of information we have to 
give out but at the same time satisfies the requests of 
requestors. We are working with NIST on technology, for 
example, that would deter copying or posting of OCA data on the 
Internet as well as other mechanisms by which we can minimize 
the amount of information that has to be given out in response 
to FOIA requests.
    Second, we do believe that propane does need to be 
regulated. I'd like to address some of the concerns we have 
there. While we made a decision to list flammable substances, 
including propane, on the list of substances, 140 altogether 
are to be regulated under the risk management program. We 
applied the statutory criteria and as a result of applying 
those criteria, we developed a list of 77 highly toxic and 63 
highly flammable substances that based on their intrinsic 
hazardous characteristics and regardless of their use, they 
pose the greatest risk of harm to the public and the 
environment if they are accidentally released.
    The accident history shows us that accidental releases of 
propane can cause significant public health and environmental 
threats. After the Bhopal, India incident that we all know 
about, the second largest industrial chemical accident in 
history occurred at a propane gas terminal in 1984 in Mexico 
City where 650 people were killed, 6,400 were injured. In this 
country over the last 10 years, we've had 1,000 incidents 
involving propane accidents, 8 major accidents occurred in the 
last year alone, including one on New Year's Eve. We had four 
deaths, 22 injuries that occurred and thousands of people 
evacuated in 1998 alone due to propane accidents in this 
country.
    However, we recognize even though we have significant 
release potential--we have more than 2 million propane 
facilities in this country--only 33,000 are estimated to be 
covered by this risk management program that we're 
implementing. We've labored to lessen the regulatory burden by 
only including a small segment, by giving a reasonable 
threshold of 10,000 pounds, 2,380 gallons that would be 
covered. We've developed model plans for propane users to use 
in preparing risk management plans to minimize the burden. 
We've provided guidance on how those facilities can determine 
the amounts of facilities that could be exempted by putting out 
guidance a couple of weeks ago on distances. If people's tanks 
are separated by certain distances, they may not be covered at 
all.
    At the same time, the agency is working to explore whether 
a higher threshold would appropriately safeguard the public and 
the environment. Should a higher threshold be warranted for 
propane facilities? We will make that decision in the next 30-
60 days and be able to set another threshold prior to June 21. 
The EPA will also work with the National Fire Protection 
Association's Standard Committee on Standard 58 to address how 
that standard might be modified to meet the requirements of the 
risk management plan regulations.
    If we can reach an agreement over time on how NFPA-58 
(National Fire Protection Association Standard) could be 
modified to meet our requirements, we will work with the 
industry to defer to that standard for risk management 
planning.
    In conclusion, I wanted to say that we have tried to 
implement the risk management plan rule in a way that achieves 
the mandate to provide for a community right-to-know but at the 
same time, we're deferring and working with our security 
agencies to make sure that we protect ourselves from terrorist 
threats and at the same time, we also are looking at how we 
regulate propane facilities, particularly in making sure that 
we're only covering those propane facilities that pose the 
greatest threat to personal injury and harm in this country.
    Thank you very much, Mr. Chairman.
    Senator Inhofe. Thank you, Mr. Fields.
    Before Mr. Burnham makes his opening statement, we've been 
joined by Senator Bennett from Utah. Senator Bennett, do you 
have an opening statement you would like to make?
    Senator Bennett. No.
    Senator Inhofe. Mr. Burnham?

   STATEMENT OF ROBERT M. BURNHAM, CHIEF, DOMESTIC TERRORISM 
     SECTOR, NATIONAL SECURITY DIVISION, FEDERAL BUREAU OF 
                         INVESTIGATIONS

    Mr. Burnham. Thank you, Mr. Chairman.
    I do have a prepared statement.
    My name is Robert Burnham, the current Chief of the 
Domestic Terrorism Section of the FBI. My current 
responsibilities include the national oversight management of 
the domestic terrorism operations, weapons of mass destruction 
and special events management programs for the FBI. I'm pleased 
to have this opportunity to discuss the potential effects of 
electronic dissemination of chemical worst-case scenario data 
as detailed in section 112(r) of the Clean Air Act of 1990.
    As the committee is aware, the Clean Air Act mandates that 
chemical facilities provide to EPA a risk management plan 
detailing their risk prevention and mitigation plans. It 
encompasses offsite consequence analysis data which includes 
the worst-case scenario data for both toxic and flammable 
materials. The data requires distance to end point and 
population affected calculations which detail the size of a 
plume from release and the potential population affected by the 
plume.
    The FBI is aware of the need to aggressively pursue 
environmental climes and fully supports the Clean Air Act and 
the spirit of the community right-to-know legislation. We 
understand the competing issues at stake here between providing 
the necessary information to the community which allows them to 
make informed decisions on local planning and preparedness 
issues and limiting the risk associated with the distribution 
of information that can be used against those same communities 
in a criminal manner.
    The FBI has worked with EPA to identify those sections of 
the risk management plans that we believe can be directly 
utilized as a targeting mechanism in a terrorist or criminal 
incident. By way of background, on December 14, 1997, 
representatives of the FBI were invited to a meeting at EPA. It 
was at this time that the FBI first became aware of a plan by 
EPA to post the risk management plans, including the worst-case 
scenarios on the Internet. The FBI contacted other Federal law 
enforcement intelligence agencies as well as the Environmental 
Crimes and Terrorist Violent Crime Sections of the Department 
of Justice to discuss the issues raised by the EPA's Internet 
distribution plans.
    Of great concern to the FBI at that time was the 1977 case 
that highlighted the potential danger associated with the 
criminal attack on a chemical facility. The FBI case, code 
named ``Sour Gas,'' involved four KKK members who plotted to 
place an improvised explosive device on a hydrogen sulfide tank 
at a refinery near Dallas, Texas. The FBI was able to 
infiltrate the group prior to the attack. The surveillance tape 
shows two of the subjects discussing the potential death of 
hundreds of area residents. At one point when the discussion 
turned to the children who might become victims, one subject 
turned to her husband and said, ``If it has to be, it has to 
be.'' This cold-blooded killing was to take place merely as a 
diversion for an armored car robbery the group intended to 
commit on the other side of town.
    Although these individuals did not use the Internet to 
attack this facility, it illustrates a growing concern that 
individuals and groups are willing to utilize unconventional 
methods to achieve their goals and in the process, cause large 
numbers of casualties. This real life incident highlights 
better than any scenario we could create how worldwide, 
unfettered electronic access to this information could be used 
to facilitate a criminal or terrorist attack in the United 
States.
    The FBI applauds the gains made in accident prevention 
since the inception of the Clean Air Act and encourages 
cooperation between industry and the communities that has 
brought about this reduction. We believe that providing this 
information to the communities in the appropriate manner 
contributes to an increase in safety in those neighborhoods. 
Through our discussions over the past year with EPA, other 
Federal agencies and affected parties, the FBI has arrived at 
initial recommendations which we believe balance these concerns 
and give the communities, State and local agencies and academic 
and research communities appropriate access to this 
information. Those recommendations were provided to Congress in 
a report submitted by the FBI in October of last year.
    However, the FBI continues to work with EPA and other 
interested Federal agencies as part of an interagency working 
group on how to achieve the appropriate balance between 
protecting the public from terrorist attacks and making risk 
management plan information available to the public. For 
example, representatives of the National Infrastructure 
Protection Center have met with EPA representatives and 
discussed options for secure transmission of the risk 
management plans to State and local government agencies. There 
is concern, however, that certain groups of individuals will 
acquire this information through lawful means and post it in 
its entirety on private Internet sites. The FBI, as part of the 
interagency group, has met to discuss this particular issue.
    Although this issue is currently under discussion by the 
interagency group, the FBI is concerned that under the FOIA 
laws, the RMP information to include the worst-case scenario 
information would have to be provided in electronic format if 
available. If that is the case, groups of individuals could 
acquire the information in this manner and reproduce it on the 
Internet. The net effect would be that these groups would 
undermine all the efforts of the many agencies who have worked 
to bring a responsible approach to dissemination of this 
information.
    The Internet provides fast and extensive methods for 
disseminating educational information and has the potential to 
be a tremendously positive force in the future. However, from a 
terrorist threat analysis, providing unfettered electronic 
access to this type of information on the Internet could have 
disastrous consequences. The worst-case scenario data alone 
does not contain all the information necessary to carry out a 
terrorist attack. However, in conjunction with the numerous 
sites already available on the Internet containing how-to 
literature on bombmaking, surveillance, counter-surveillance 
and terrorist tactics and devices, it adds to the arsenal of 
potential criminals.
    Mr. Chairman, thank you for the opportunity to appear 
before you today and I'd be happy to answer any questions you 
may have.
    Senator Inhofe. Thank you, Mr. Burnham.
    We've been joined by our Ranking Minority of this 
committee, Senator Graham. Did you have an opening statement to 
present?

             OPENING STATEMENT OF HON. BOB GRAHAM, 
             U.S. SENATOR FROM THE STATE OF FLORIDA

    Senator Graham. Mr. Chairman, thank you. I do have an 
opening statement but in deference to the panelists that we 
have, I will ask it be submitted.
    Senator Inhofe. Without objection, we will do that.
    [The prepared statement of Senator Graham follows:]
  Statement of Hon. Bob Graham, U.S. Senator from the State of Florida
    Mr. Chairman, members of the subcommittee, panelists for today--
thank you for the opportunity to address the subcommittee this morning 
on the topic of risk management. As I will be unable to stay for the 
duration of today's hearing, I will outline several of my key issues of 
concern and ask that the witnesses address these items during your 
testimony.
    Let me begin by stating that the issues we will be addressing today 
are of critical importance to the citizens of Florida. In the last 
several months I have heard from the Florida Propane Gas Association, 
the Florida Farm Bureau, Florida Citrus Mutual, and the Florida Tobacco 
and Candy Association, as well as over 100 farmers, restaurant owners, 
and other small business owners in Florida regarding the adverse impact 
to their businesses that is anticipated as a result of the EPA's 
application of section 112(r) of the Clean Air Act to the propane 
industry.
    I have also heard from many Floridians who are concerned about the 
presence of flammable materials in their local communities. These 
individuals have a right to this information so they can participate in 
developing emergency response strategies.
    The two main questions we will be discussing today mirror the 
concerns raised to me by these Floridians. First, we will be hearing 
differing views on whether Congress intended for section 112(r) to 
include propane as a substance for which an EPA Risk Management Plan is 
required. Of particular interest to me is the process by which the EPA 
decided to list propane as one of those substances requiring a Risk 
Management Plan. There are three factors listed in section 112 of the 
Clean Air Act which the EPA is required to use in listing substances. I 
am interested in learning from the EPA what type of analyses were 
completed with relation to propane and its performance against each of 
these criteria.
    Second, we will be discussing whether or not the publication and 
widespread dissemination of Risk Management Plans and worst case 
scenario data would provide potential terrorists with targets for 
domestic terrorism. As many of you know, Florida has a long-standing 
tradition of full access to information. Our entire State government 
operates under a ``Sunshine Law'' requiring that government actions be 
open to the public.
    It is with this tradition in mind that I offer my support for 
rational, well-organized community-right-to-know policies which provide 
incentives for good management of hazardous materials and ensure that 
local communities can develop adequate risk management strategies.
    Today we will be hearing from several witnesses who will provide 
their views on the potential dangers associated with dissemination of 
risk management data to the general public. I look forward to hearing 
the results of this testimony and working with the members of this 
subcommittee to identify any action that may be necessary.
    Senator Inhofe.
    Mr. Burnham, your testimony did not arrive at the committee 
in the timely fashion that we do have as a policy of this 
committee and of all committees. I was going to ask you why we 
didn't get your testimony?
    Mr. Burnham. I apologize for that, Senator. I will ensure 
that every effort is made in the future to have it on time. My 
statement is part of an interagency approval process. It had to 
be approved by OMB prior to coming down. I was working with OMB 
and the delay was primarily due to that.
    Senator Inhofe. Was it only OMB that caused that delay or 
did you send it to any other agency such as EPA?
    Mr. Burnham. EPA was also involved in that interagency 
approval process.
    Senator Inhofe. So you had your statement ready in the 
appropriate time but because of the approval of those agencies, 
we didn't receive it in time?
    Mr. Burnham. Correct, Senator.
    Senator Inhofe. Mr. Fields, first of all, let me ask you is 
it a policy of the EPA to approve this testimony before it 
reaches this committee or do you know?
    Mr. Fields. The Administration has a process similar to 
what Mr. Burnham just described. All testimony is submitted to 
the White House Office of Management and Budget for review and 
they coordinate that testimony with other appropriate Federal 
agencies. So our testimony is shared with other agencies, but 
the testimony was drafted by me, submitted to OMB, reviewed by 
FBI, DOJ and others to make sure we're all coordinating our 
efforts across the Administration.
    Senator Inhofe. Mr. Fields, when you were testifying before 
the House Commerce Committee, you stated that the EPA was 
opposed to anyone placing the worst-case scenario data on the 
Internet. I think you said you were definitely opposed. Are you 
still opposed to that?
    Mr. Fields. We're still opposed to that, sir, yes.
    Senator Inhofe. Since that hearing, a letter was sent to 
Chairman Tom Bliley from the ACLU and maybe some other public 
access advocates, challenging the policy stating that the read-
only CD-Rom and other Freedom of Information Act safeguards are 
not legal. They say that as requestors, they can choose and 
demand the format in which they receive the information that 
the Freedom of Information Act does not allow, does not provide 
for.
    It sounds to me like they may have a case there. What 
options do we have?
    Mr. Fields. We obviously still face the position that we do 
not want to post the OCA data on the Internet; we do not want 
others to post it either. However, the interagency work group 
that I mentioned earlier composed of EPA, FBI, DOJ, National 
Institute for Standards and Technology, and the National 
Security Council are working on that very issue, looking at 
legal authority, what can we do to provide for protection and 
ensure that OCA data does not get posted on the Internet and 
get into the hands of terrorists.
    That work group that is composed of all those Federal 
agencies, including representatives of me and Mr. Burnham, will 
be making a decision on that issue by May 15, 60 days from now, 
as to what our legal authorities are to provide for protection 
of data and whether or not we can assure it can be posted on 
the Internet.
    We will get back to you, Mr. Chairman, as to our final 
judgment.
    Senator Inhofe. I know you're concerned about that, Mr. 
Fields. Would you put a hold on it until the 15th of May so the 
information would not get on the Internet?
    Mr. Fields. We do not believe we should put a hold on it. 
The facilities have had 3 years to develop risk management 
planning requirements. We will make a decision in plenty of 
time to make adjustments if we need to. We will inform this 
committee as to whether or not any legislative relief is needed 
as well.
    We are not there yet. We think it is premature to make that 
judgment. We're committed to try to make sure we protect 
legitimate national security interests and we will inform this 
committee if we cannot provide such safeguards in implementing 
the risk management plan program.
    Senator Inhofe. Of course this could take legislation and 
obviously that takes time. I think maybe we should ask for your 
response to this, Mr. Burnham, as to how significant you think 
this is in terms of a threat and what options you see that we 
could have to minimize that?
    Mr. Burnham. As I already mentioned in my opening 
statement, the OCA case data, worst-case scenario data, should 
not go out in any format, electronic or otherwise. In the 
report that was furnished last fall to Congress, we highlighted 
that one of our concerns was that the information could 
potentially go out in electronic format pursuant to an FOIA 
request.
    Again, from a threat analysis, we would be opposed to that 
information going out.
    Senator Inhofe. But it could appear on the Internet as the 
result of a third party. It wouldn't necessarily have to be 
from the reports, isn't that correct? Anyone can put it on the 
Internet that had access to the information?
    Mr. Burnham. Yes, anyone could put it on the Internet. We 
would be opposed to the information going out pursuant to an 
FOIA request in electronic format.
    Senator Inhofe. We do want to pursue that and I'm sure some 
of the other members have questions along that line.
    Mr. Fields, you've seen this letter from Orange County. I 
guess have to ask you if it's your understanding that fuel 
switching is an appropriate action to take by the EPA and if 
you switch as a result of letters like this to say natural gas, 
couldn't they also switch from propane to other types of 
heating oil and things that would be more onerous?
    Mr. Fields. We believe that there would be limited amounts 
of fuel switching as a result of this program. In implementing 
EPCRA in 1986, we saw that facilities, for example, that had a 
10,000 pound threshold, there was a limited amount of fuel 
switching that did occur, but we must keep in mind that if 
people decide to go to diesel fuel or fuel oil, for example, 
those sources of fuel are regulated by other EPA regulations. 
For example, they have to prepare a spill, prevention and 
control counter measures plan under section 311 of the Clean 
Water Act. There are other regulatory requirements that also 
apply if you decide not to utilize propane gas as a fuel.
    Based on the last 10 year history with implementing EPCRA, 
we've seen that very limited amounts of fuel switching will 
occur. We think that will be the same situation to prevail here 
as well.
    Senator Inhofe. Thank you, Mr. Fields.
    I do want to get into more detail in the second round of 
questioning as to the number of facilities that would have to 
be reporting on propane so that we can get responses from the 
second panel.
    With that, we will go to our early bird rule and ask 
Senator Lautenberg for his questions.
    Senator Lautenberg. Thank you very much, Mr. Chairman.
    Mr. Burnham, in your testimony, you note that we understand 
the competing issues at stake here between providing necessary 
information to a community which allows them to make informed 
decisions on local planning preparedness issues. So we are 
talking about the need to have some prevention from accidents, 
from injury, death that could result.
    You noted that my comments about balance are important. Can 
you think of any data that's on the Internet that might present 
the same dilemma, that is, good for the community or good law 
on one hand, but potentially could be used as a target for 
terrorist activity? I can think of lots of them--locations of 
facilities, all kinds of things--and I think in a democratic 
society like ours it's important to make sure we do what we can 
do to protect our citizens.
    I was once an Albania where they have 800,000 bomb 
shelters, these little things that look like a half circle all 
over the country in case there was ever an invasion from the 
outside. It reduced the quality of life substantially in the 
country because all they were focused on was protecting 
themselves from an imagined enemy.
    I ask you this. Can you think here, and if this question is 
a little unfair, about a situation where data that is on the 
Internet that might be considered by the FBI as potentially an 
invitation to take advantage of our system, bridges, things of 
that nature, blow them up?
    Mr. Burnham. Senator, I'm sure there probably is a lot. I 
haven't really thought about other information that's on the 
Internet. I'm sure there probably is information on there that 
would fit into the category that you're describing.
    With respect to this information, I think part of what we 
imparted to the EPA was the fact that this particular 
information, we would basically have the Government vouching 
for the accuracy of that particular information as opposed to 
just general information on the Internet.
    The 66,000 chemical companies are required to give the 
worst-case scenario data that would potentially go on the 
Internet. In effect, the Government would be vouching these are 
the chemicals there, and this is the population affected. I 
think that would be the difference between a lot of the general 
stuff that's just out on the Internet. In effect, you would 
have the Government vouching for it.
    Senator Lautenberg. Again, I'm not sure it is fair to ask 
you so I'll ask Mr. Fields. Should we be doing what we can to 
protect our people from the ordinary course of life activities 
that could result in substantial damage, injury, death as a 
Government responsibility?
    Mr. Fields. I agree with you, Senator, I think it is a 
clear Government responsibility. For example, the offsite 
consequence analysis data has to be provided to the local 
populace who live around that facility. We owe it to the 
American people who live around chemical facilities to make 
sure they know about the chemical risk that exists from 
facilities in their communities.
    Even the industry agrees that they would be willing to 
share information with the persons who live around their 
facilities, we will make sure the information is made available 
to the State Emergency Response Commissions, the local 
emergency planning committees. We owe it to the American people 
to make sure they are protected and information about chemical 
risk is a critical part of that equation.
    Senator Lautenberg. So, Mr. Burnham, what is there that 
would be on the Internet that might be an aid to a terrorist 
who planned to do some damage? What could be there? We're 
identifying now our right to know, we identify chemicals stored 
in facilities, chemicals manufactured in facilities. What would 
be particularly significant to someone who had that kind of 
program in mind that would destroy a facility and the 
neighborhood around there?
    Mr. Burnham. With respect to this type of information?
    Senator Lautenberg. Yes.
    Mr. Burnham. You would have potential terrorists looking at 
a target for maximum impact, you would have the population 
affected, you would have where it is, the plume, just the whole 
worst-case scenario. Sections 2, 3 and 4 of the RMP plans are 
toxic, alternate, toxic and flammable and you would have a 
blueprint for the best potential targets for a terrorist as far 
as maximum impact and population affected.
    Senator Lautenberg. You're talking about something that can 
be activated by a terrorist attack that would cause ancillary 
damage as a result of an attack on that particular site?
    Mr. Burnham. From a threat analysis standpoint, yes.
    Senator Lautenberg. Do you routinely, and you may have said 
this and I missed it as I was reading here, pass data to other 
agencies if they have an expertise in a particular area as you 
pursue a review or an investigation?
    Mr. Burnham. Absolutely. We would do that here too. That 
was recommendation No. 2, that we would ensure this information 
gets to State and local agencies in a secure fashion. We've 
been working with EPA on that.
    Senator Lautenberg. Thank you very much, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Lautenberg.
    Senator Bennett, I understand you're going to be presiding 
over the Senate at 10:30 a.m., so if you need to take a little 
bit longer, go ahead and get all your questions in.
    Senator Bennett. Thank you, Mr. Chairman.
    Just a quick comment. If anyone thinks this information is 
going to be disseminated in any form, electronic or read-only 
disks, whatever, and then have it not get on the Internet, he 
or she is tremendously naive. There are groups that are 
determined just to show their defiance of regulations that will 
put it on the Internet if they have to enter it by hand. Yes, 
I've seen samples of that.
    I come from a State where mink ranching is one of the 
industries and those who feel strongly about what they call 
animal rights have put on the Internet the way to build a bomb 
to destroy a mink farm. Mink farms in my State have been 
destroyed, people have attacked them, they've released the 
minks, supposedly into the wild. The wild where the minks end 
up is the freeways and they all get killed, but somehow the 
animal rights people think they're doing the minks a favor by 
having them run over by automobiles instead of having them stay 
in the pens where they're being raised.
    Let's ask the question, Mr. Fields, how vital is this 
information to the people in the neighborhood? Is there any 
example of someone who has suffered a worst-case scenario that 
might have escaped it if the information had been made 
available or is this entire conversation hypothetical?
    Mr. Fields. Senator, this conversation is definitely not 
hypothetical. We think it's critical that risk management 
planning be available to the public and to the communities 
particularly who live around those facilities.
    Senator Bennett. You're not answering my question. I agree 
absolutely that risk management planning should be available to 
the local communities. We are talking about a worst-case 
scenario where someone is sitting down and thinking of every 
possible that could go wrong and putting that down on paper. Is 
there an example of that kind of information being helpful or 
is that just an exercise that somebody wants to go through?
    Mr. Fields. It is very helpful. The local fire departments, 
the local response organizations who have to respond need to 
know if an accident occurred at that facility from the largest 
tank or container at that facility, how big an impact could 
occur, how many people could get injured or killed if an 
accident did occur.
    The response agencies who have to respond, the first 
responders who come on the scene need to know what kind of 
chemicals are there, what the impact of those chemicals could 
be.
    Senator Bennett. I don't argue with you that those people 
need to know. I'm talking about the community as a whole, 
average citizens. Do they need to know the absolute worst-case 
scenario if their fire department is properly informed, if 
their police department is properly informed? Does the suburban 
household need to know the worst-case scenario that could occur 
or can't you take care of public safety by saying, you have a 
plant here that has problems? That's obvious information to 
everybody and detailing how many people could be killed and 
what the exact amount of the thing is to somebody other than 
the emergency people?
    Mr. Fields. I believe that the American people who live 
near a chemical facility or any chemical complex ought to be 
aware of the chemical risks they are buying into when they live 
in that community, when they move into that community, so I 
believe it is appropriate to inform the people there as to what 
risk they're buying into when they move into a community.
    They don't have to have as detailed knowledge as the 
responders who have to respond to a release event, but I 
believe we owe it to the public to let them know what risk they 
are living with and inheriting when they move into a community 
near a chemical plant.
    Senator Bennett. I agree with you that they need to know 
there is a risk and I'm perfectly willing to give them the risk 
but you just said in your comment, they don't need the detail 
and it's the detail that we're talking about.
    I won't beat this one further. Let me get on to another 
subject and that's your decision to list propane as one of the 
items. You said when the chairman asked you about switching to 
alternative fuel, well, the alternative fuels are all regulated 
as well. Do you think propane is not regulated? It's one of the 
most heavily regulated substances we have. It's just not 
regulated by the EPA, so the question arises, is this a turf 
battle? Is EPA trying to reach out and take over regulation 
that is currently being conducted by other agencies?
    Mr. Fields. Definitely not. We only want to make sure that 
propane that should be regulated--we've exempted a lot of 
propane sources, more than 2 million propane sources in this 
country and we're only capturing maybe 33,000 of those. We have 
provided a lot of relief for the small people that are there. 
Distance requirements we put out a couple of weeks ago are 
going to exempt even more of these farmers and small facilities 
from the regulatory requirements.
    We only believe that those propane sources that are the 
most significant that could really cause a big event and really 
injure and kill people, as they've proven over the years, ought 
to be the ones to be regulated under the risk management 
program. We want to make sure we don't impose any new 
regulatory requirements for propane sources above those that 
are absolutely necessary to make sure the American people are 
protected.
    Senator Bennett. You're imposing requirements that will hit 
rural farmers in my State. Rural farmers who have a record of 
safety, a record of compliance with the regulations that are 
currently there, to my knowledge--I'd be happy to be 
contradicted if you could give me some information--there has 
not been a rash of accidents. Indeed, there has not been any 
noticeable series of accidents in my State among farmers who 
have propane tanks.
    You've gone down to a level that would involve a farmer, 
and indeed some residents, and these people are already 
complying with heavy regulations for safety, they already have 
a sterling record of safety, and you're coming along saying, 
no, we've got to do something in addition.
    I want to know why in addition? I want you to show me a 
record of failure of the present regulatory scheme that 
justifies putting in an additional regulatory scheme? If you 
can show me that, then I'll be with you because I don't want to 
endanger anybody else.
    Mr. Fields. I think, Senator, that most farmers in your 
State are going to be exempted. We've exempted all the tanks 
that are less than 10,000 pounds or 2,380 gallons. Most farmers 
have a 500 or 1,000 gallon tank. We've told people that if you 
separate those tanks by certain distances, they are not covered 
by the RMP regulation.
    Senator Bennett. You're not answering my question.
    Mr. Fields. I'm going to get there. The two points I made 
before you came in were this. We are going to work with the 
National Fire Protection Association, we're going to work with 
industry and make sure that we try to modify NFPA-58 because 
NFPA-58 right now does not include any requirement for hazard 
evaluation, for example, or offsite consequence analysis and 
make sure that those requirements that are in NFPA-58 would 
then apply. We would defer to NFPA-58 if we can get NFPA-58 to 
be consistent with RMP.
    Further, I think I said this before you came in, we're 
exploring, because of the concerns that have been raised, 
whether or not we want to give a high threshold for the propane 
sources like small farms, small businesses that goes above the 
10,000 pound threshold that is there now.
    If we conclude that, we intend to make that decision within 
the next 30-60 days and we would immediately implement a stay 
of the regulation as it applies to those propane sources that 
would be covered by that new threshold. Then we would propose 
an amendment to the RMP rule that would be applicable 
specifically to those propane sources that we decide to further 
exclude from regulation under the RMP rule.
    So we're carefully looking at only capturing those propane 
sources that could cause a significant impact to people 
offsite, off the property where that facility is located. We 
are reevaluating the universe of people currently captured and 
looking at whether we can provide further regulatory relief for 
propane facilities.
    Senator Bennett. I'm delighted to know that you're 
reevaluating but you still haven't answered my question.
    Mr. Fields. All right. Go ahead. I'm sorry.
    Senator Bennett. Do you have evidence of failure of the 
current regulations that would require additional regulations 
to be put on?
    Mr. Fields. We believe that the accident history that we 
have, Senator, more than 1,000 accidents in the last 10 years 
involving propane sources, 43 major accidents in the last 9 
years, 8 major accidents in 1998, an accident that occurred 2 
weeks ago where two people were killed involving propane. We 
have an accident history and characteristics of high 
flammability, NFPA-58 standard of 4. Propane is one of the most 
flammable hazardous substances around. So yes, we believe we 
have a basis for regulating propane. We want to make sure we 
only regulate those propane sources that are the most 
appropriate and that pose the greatest danger to the American 
public.
    Senator Lautenberg. Don't we have a point of order here? 
The clock has been running for some time.
    Senator Bennett. I apologize. I'll pursue this with you.
    Senator Inhofe. I would inform the Senator from New Jersey 
that since Senator Bennett has to preside over the Senate, I 
was allowing him to have two rounds at once, but if you object 
to that, we'll excuse him at this time.
    I would say, Senator Bennett, that I plan to pursue this in 
the second round of questioning because we have on the second 
panel the President of the American Farm Bureau and I'm going 
to ask Mr. Fields to stay here during his presentation because 
I think we need to more thoroughly evaluate the effect on the 
American farmer. That's what we intend to do.
    Mr. Fields. I will definitely do that, Senator.
    Senator Inhofe. Senator Graham?
    Senator Graham. Mr. Chairman, I'm going to pick up this 
same line of questioning, so maybe we'll carry it a bit 
further.
    The statute states that ``In listing substances, the 
Administrator shall consider each of the following three 
criteria: (a) the severity of any acute adverse health effects 
associated with the accidental release of a substance; (b) the 
likelihood of accidental releases of a substance; and (c) the 
potential magnitude of human exposure to accidental releases of 
the substance.'' I assume that analysis was done as it relates 
to propane?
    Mr. Fields. Yes, Senator, we did. Let me briefly summarize 
how we addressed each of those criteria in developing a basis 
for regulating propane.
    We evaluated the criteria. First of all, we looked at the 
acute adverse health effects the propane may cause. The 
accident history is what proved to us that criteria was 
satisfied with the major accidents that have occurred in this 
country involving propane. We believe it is very clear it has 
acute, adverse health effects that need to be looked at as well 
as accidents that have occurred in other countries as well.
    Second, in looking at the likelihood of accident releases, 
we evaluated propane and saw that it is one of the most 
flammable of all substances, meeting the NFPA rating of 4. So 
it is something that definitely has the likelihood of an 
accidental release.
    Last, the potential magnitude of human exposure, we noted 
that propane is among the most ubiquitous of all chemicals on 
the list of chemicals we're regulating.
    So in making a judgment as to whether or not propane 
satisfied the statutory criteria, we did and we looked at this 
irrespective of fuel use, of how that chemical was utilized. We 
believe strongly the statutory criteria are satisfied for 
propane.
    Senator Graham. On this first criteria, which is the 
severity of any acute, adverse health effects associated with 
the accidental release, what were the acute, adverse health 
effects that you found associated with the accidental release 
of propane?
    Mr. Fields. We found that propane, looking at the 1,000 
accidents that have occurred, numerous instances where people 
died, we found situations where people were injured by propane 
releases, other situations where we had to evacuate nearby 
communities from around propane facilities that had exploded, 
caught on fire. That body of data is what we looked at in 
making a judgment that there was the possibility of severe, 
acute, adverse health effects caused by propane.
    We looked primarily at the accident history over the last 
10 years involving propane. Even there, we think there is 
underreporting. Propane is not required to be reported under 
the 1980 Superfund law or the 1986 Emergency Planning Community 
Right-to-Know Act. This data we have is just provided to us 
anecdotally, not because anyone is required to report it to the 
Federal Government. We became aware of it through State and 
local government sources, newspaper reports, et cetera.
    We believe there are probably more releases of propane than 
we are even aware of in this country.
    Senator Graham. I think the purpose of this statute, as I 
read it, was to deal with public health type issues as opposed 
to events that would be associated with fires and those types 
of consequences, and accidental release which are normally the 
responsibility of State and local agencies to regulate, monitor 
and contain. Do you define acute, adverse health effects as 
subjecting persons to the possibility of fires?
    Mr. Fields. The possibility of injury or death due to 
sudden explosion, fire, flammable situations, yes, we believe 
that is included. We believe, for example, in Congress' 
direction to us in 112(r), Congress succinctly said they wanted 
vinyl chloride to be included, which is a flammable substances; 
Congress specifically said they wanted ethylene oxide to be 
included, which is a flammable substance on the initial list. 
So congressional direction alone made clear that Congress 
intended for flammable substances to be included on the list of 
substances we regulated under our risk management plan rule.
    We looked at congressional direction on this as well. 
Congress directed us to include certain things that were 
definitely flammable substances on the initial list of 
hazardous substances regulated pursuant to the risk management 
plan rule.
    Senator Graham. I'm looking at the Federal Register of June 
20, 1996, page 31669 where there is a statement to the effect 
that ``The Environmental Protection Agency has proposed to 
delist explosives from Section 68.130,'' which I assume is the 
section that contains substances under this hazardous substance 
legislation. ``Consequently, explosives are not addressed in 
this rule.'' Is that the current policy, not to list 
explosives?
    Mr. Fields. Explosives are not includes at the current time 
in the list. We included, when we developed this regulation, 
the most flammable substances by the National Fire Protection 
Association, those that have the greatest accident potential, 
and there are 77 acutely toxic substances and 63 flammable 
substances on the list of 140 we regulated.
    This is David Spites on my staff and I'll let him talk 
about the explosives.
    Mr. Spites. Senator, we originally listed the high 
explosives. They were included in the original list. We 
subsequently delisted them for various reasons, which I think 
we explained in the Federal Register you're referring to or a 
subsequent one. One of those was that another Federal agency 
basically did cover high explosives in detail except for a 
couple of things. Some of those were notifying the community 
and making a public report of what chemicals they and 
satisfying the right-to-know requirements.
    As part of a lawsuit, we settled the case by delisting high 
explosives with the proviso that the Bureau of Alcohol, Tobacco 
and Firearms regulations covered all the other aspects that 
were necessary under RMP except for public disclosure. The 
explosives industry voluntarily agreed to make that public 
disclosure that would make it equivalent to the RMP.
    We don't have quite the same thing with the flammable 
substances, with another comparable Federal agency requirement 
and indeed State requirements.
    Senator Graham. So it's your statement that the reason that 
propane is listed is because you do not consider it to be 
adequately regulated by other agencies at the Federal, State or 
local level?
    Mr. Fields. We don't believe that the propane requirements 
that apply at the Federal, State and local level as well as the 
industry standard contain all the statutory requirements that 
Congress mandated be included in the regulation of substances 
regulated by the RMP rule. For example, the risk management 
plan requires that there be a hazard evaluation in the statute 
which includes an offsite consequence analysis and accident 
history. That is required by statute. These other Federal 
requirements do not include such an animal, for example.
    Adding to the situation on explosives, as we said at the 
beginning, if we can work with the industry, for example, and 
get NFPA-58 modified to include those elements like all the 
requirements Congress mandated in the risk management plan 
rule, we'd be willing to defer in the future to NFPA-58, for 
example, and say we will defer to that standard in regulating 
propane or regulating these sources rather than our regulation, 
but we've got to make sure the NFPA standard satisfies the 
statutory requirements for what a risk management plan 
requirement should contain. We're willing to work with industry 
on that point.
    Senator Inhofe. Thank you, Mr. Fields.
    We'll have another round of questions in just a moment.
    I want to pursue this a little bit, what was brought up by 
Senator Bennett and then also by Senator Graham. You said a 
minute ago that you're estimating that 33,000 facilities would 
be reporting on propane, is that your estimate now? That's 
grown by 5,000 in the last 2 days, so your trend line is 
starting to work in that direction.
    How do you account for the fact that you're saying 33,000 
when the study that the industry had--and I know the American 
Farm Bureau, which is on the next panel, will want to comment 
about that--said that it would affect 330,000 farmers, 350,000 
industrial sites and over 300 commercial facilities. That's 
over a 1 million reports. How do you respond to that?
    Before you respond, let me tell you why because I'm going 
to get into the cost of it too. I can remember when this 
subcommittee was dealing with the proposed rule change on 
ambient air on particulate matter and on ozone. The cost that 
the EPA at that time said to comply with it would be $6 
billion. The President's Economic Council then said it was 
going to be $30 billion. Then the Reason Foundation in 
California said it would be $120 billion. I think we're kind of 
starting that same trend here.
    My concern is for the American farmer, particularly in my 
State of Oklahoma, where it's a crisis out there. One more 
regulation is just what they don't need, so I'd like to have 
you respond as to how you come up with only 33,000 facilities 
having to report when it's estimated some 330,000 farmers alone 
would have to report?
    Mr. Fields. We agree with the overall estimate of 350,000 
industrial sites being out there, hundreds of thousands of 
farms, 1,000 commercial facilities that have propane. I have no 
issue with that type of data. The fact is I think there is a 
lack of communication. People don't fully understand that we've 
exempted the overwhelming majority of those facilities from our 
requirements. The threshold level, a lot of farms have 500 
gallon tanks. The threshold alone is exempting most of those 
tanks.
    We then have gone forward and put forward a distance 
requirement that further exempts many more tanks. So we believe 
that 33,000 is a good number.
    The reason it's grown by 5,000 very briefly is that we have 
discovered information over the last couple of years after we 
put out the rule where we identified those people we believe 
are legitimately covered and we came up with 33,000, 33,000 of 
the 69,000 facilities now that are regulated under RMP.
    We believe the average small farmer can fill out an RMP, a 
five page form.
    Senator Inhofe. I don't want to interrupt, Mr. Fields, but 
we're using up the clock and we're not getting anywhere. It's 
my understanding that when the industry had its estimate or its 
committee going into this, they took into consideration all 
these things you're talking about and they still said it would 
be 330,000 farmers involved in this.
    You're saying you're exempting and it's kind of like the 
EPA during the ambient air debate which kept saying we're 
exempting this group, we're exempting the farmers, we're 
exempting others, and they weren't. Aren't we kind of following 
that same line here?
    Mr. Fields. All I can tell you, Senator, is we don't agree 
with those data. There are 350,000 industrial sites, that's 
correct. The overwhelming majority of those industrial sites 
are not covered by regulations.
    Senator Inhofe. I think I already asked that you will stay 
here for the second panel when we hear from the president of 
the American Farm Bureau.
    Mr. Fields. Yes, sir.
    Senator Inhofe. I think it might be interesting because I 
would rather stop this train here than wait until we got into 
the mess that we got into on ambient air.
    On the cost thing, what is the cost you're anticipating or 
have you done an analysis of that, the cost for the compliance 
and the reporting?
    Mr. Fields. We've developed an estimate for what the cost 
of the RMP overall would be. We're estimating that the cost of 
the RMP for the last 3 years is $118 million per year. Now the 
regulations will become effective in June. We estimate the cost 
will be $75 million per year for the next 30 years as compared 
with the benefits of $174 million per year for the next 30 
years, which makes this a net benefit regulation. Those are our 
latest estimates of the cost of the RMP rule.
    Senator Inhofe. What about the cost to each farmer or are 
you going to say they are exempt?
    Mr. Fields. For a farmer who is covered, for a few thousand 
of the 33,000 sources out there that we believe are regulated, 
we're talking a few hundred dollars per RMP up to $2,000. That 
would be the cost for an average farmer filling out and 
complying with an RMP rule.
    Senator Inhofe. The cost of 11 of the 13 engineering firms 
that went through this said the cost would be somewhere between 
$2,000 and $20,000.
    Mr. Fields. We totally disagree. We see on the low end, the 
cost being a few hundred up to $2,000 max in terms of what the 
cost would be.
    Senator Inhofe. Mr. Fields, can you look at this chart over 
here and can you tell me what parts of risk management plan 
regulation are not covered under other laws on the chart?
    By the way, I want to make a comment. In justifying the 
propane, you talked about vinyl chloride. It's true that is an 
explosive, but that's also toxic, isn't it?
    Mr. Fields. Also toxic, that's correct.
    Senator Inhofe. Is propane toxic?
    Mr. Fields. Is not toxic.
    Senator Inhofe. Will you look at this chart over here and 
tell us what is not covered by other laws on this chart?
    Mr. Fields. Looking at that chart, the NFPA-58 column, for 
example, is not correct. I think I said in my testimony, the 
NFPA-58 does not have requirements that cover hazard assessment 
which is not correct. It does not include a requirement for 
worst-case analysis or a 5-year accident history, which is 
required by the statute that Congress gave us to implement. So 
that's not correct.
    The NFPA-58 does not satisfy all the risk management 
planning requirements for training.
    Senator Inhofe. I think the bottom line, before I'm 
reminded by Senator Lautenberg that my time has expired, I 
would just say the bottom line is that you think we need more 
regulation then?
    Mr. Fields. We think we need to regulations that are out 
there now, the risk management planning regulations. We believe 
those are appropriate and necessary regulations for the 
facilities being regulated by those regs, yes.
    Senator Inhofe. Mr. Burnham, I didn't mean to leave you 
out. I'm going to go to Senator Lautenberg, but I have one last 
question I'd like to ask you about the security.
    Senator Lautenberg. Mr. Chairman, I promise you I'll not 
take the fully allotted time but I did have a couple of 
questions that arose as I listened to some of the questioning 
that was taking place.
    One of the questions put out by our colleague from Utah, 
and I'm sorry he's not here and I hope staff will be here 
because I think it's important, Mr. Fields, that we establish 
the fact that EPA doesn't take its staff, assemble them and say 
now, let's see how we can harass people. Let's see how we can 
screw up the works for those who work for a living, farmers, et 
cetera. Let's see how much of a nuisance we can be. We want to 
talk about things that are successful, that have helped protect 
our air, helped protect our water, helped protect our people, 
then that I think is a legitimate exercise.
    I urge you, don't be bullied into anything else. You're now 
sitting as an acting and I hope what I say will not in any way 
deteriorate from your outstanding credentials for this job or 
your right to have it.
    I don't approve of any case, aspersions aside, that say big 
farms have been destroyed, or that people burned down buildings 
in a ski area because they are pro environment, that's 
horrible, it's criminal and I wouldn't tolerate it no matter 
what, and I love a clean environment. That's my legacy to my 
children and my grandchildren. That's why I'm on this 
committee.
    But we don't have many farms in New Jersey. We have people, 
we have the most densely populated State in the country. When 
the question is asked, why do they have a right to know, why 
should they be asking these questions, why should they be told 
the answers? I'll tell you why, because places like the Exxon 
refinery in New Jersey have put out warnings that if there is 
this kind of an event or that kind of an event, take your 
children down the cellar, open your windows, don't open your 
windows, close your doors, cover their faces with wet clothes. 
Why shouldn't they know? Why should they be prevented from 
protecting a child or an elderly parent in a household?
    It's outrageous the insinuation that, well, let minks go 
out on the highway and get killed. I don't like that activity a 
bit. I'm in Utah a lot and I happen to love the State and I 
love the environment out there.
    But I would tell you this, if you ask someone whether or 
not a mother or father working in a mill, like we had in New 
Jersey a few years ago, when the plant exploded and the people 
who ran the plant didn't know what to do and the people in the 
neighborhood didn't know what to do, as flames consumed 
building after building and chased people from their homes or 
the Edison Gas explosion that just took place and was recently 
resolved.
    The one thing I think is critical to have here is an 
understanding that you, your colleagues, and I don't care what 
department of Government, is not out there to harass the 
citizens. If we disagree, let us disagree but the insinuation 
or the aspersion that all you're doing is sitting there 
twiddling your thumbs while you think of ways to make life 
difficult.
    I want my children and my grandchildren protected as much 
as I can. I don't want them to go to the water tap and possibly 
injure their health as insinuated in Tom's River, New Jersey, 
and if one read the book, ``A Civil Action''--I just had a 
meeting with the attorney on that case up in Woburn, where a 
child we had at this very table, Mr. Chairman, before your 
membership, a man who talked about the poisoning of his child 
and the boy died and the father said, but the other child in 
the house, the other brother said, why is it that in our house 
we never laugh. In our house all we do is cry. What's the 
matter with us?
    Jimmy, the boy who was sick, was dying and that's why the 
family couldn't gin up some grins and smiles and be happy. He 
pulled out a stack of bills, the man was making $35,000 a year 
and he had $150,000 worth of doctor's bills.
    I'm sorry but I just had to respond, Mr. Chairman. I know 
you too well and I know that you're a serious man and I know 
that you don't think that mischief is being made and I respect 
your willingness and desire to challenge anything that's put 
out there that you don't agree with.
    Senator Inhofe. That's what this is all about and that's 
what we intend to do.
    Senator Lautenberg. Thank you very much.
    Senator Inhofe. I would have to say also that I have a 
whole bunch of kids and grandkids and I'm concerned about them 
and their future of living under overburdensome regulations and 
bureaucracies and I plan to conduct myself accordingly, Senator 
Lautenberg.
    Senator Inhofe. I'll submit my question to you, Mr. 
Burnham, for the record since we're running a bit late on this 
panel.
    At this time, we'd ask the second panel come forth. It 
consists of Mr. James Bertelsmeyer, President, National Propane 
Gas Association, and Mr. Dean Kleckner, President, American 
Farm Bureau.
    Thank you, gentlemen, for being here. I guess we'll start 
with Mr. Kleckner from the Farm Bureau standpoint. We want your 
whole statement. We're going to try to comply with our time 
requirement, so in the event your statement is too long, the 
entire statement will be made a part of the record. The same 
with you, Mr. Bertelsmeyer.
    If you will go ahead with your opening statement, we will 
proceed with the questions.

  STATEMENT OF DEAN KLECKNER, PRESIDENT, AMERICAN FARM BUREAU

    Mr. Kleckner. Thank you, Mr. Chairman.
    I'm Dean Kleckner. I'm a corn, soy bean, hog farmer from 
northern Iowa. I'm the elected President of the Farm Bureau 
Federation which is the Nation's largest farm organization.
    As you know, propane is an important commodity in rural 
America, found on 660,000 farms, widely used in various ag 
applications, including crop drying, feeding livestock 
facilities, heating homes, and that's on my farm. I'm a 350 
acre farmer and I use it for those three things on my farm.
    Approximately 1.5 billion gallons of propane are used for 
ag purposes. We strongly oppose the inclusion of propane as a 
covered substance subject to the Environmental Protection 
Agency's Risk Management Program. We believe EPA failed to 
consider the significant adverse effects which these 
regulations will have on hundreds of thousands of farmers 
nationwide.
    Going back just a bit, by adopting section 112 of the Clean 
Air Act amendments of 1990, Congress specifically sought to 
reduce the risks associated with accidental and catastrophic 
release of toxic chemicals. Commendable. We're for that.
    It is our firm belief that the original intent of Congress 
was to address substances used in manufacturing or other 
chemical applications rather than those used as a fuel source. 
Unfortunately, EPA's decision to include propane coupled with 
its decision not to grant a fuel use exemption has the effect 
of extending these regulations to consumers who use small 
amounts.
    The RMP rules require farmers and other propane users of 
more than 2,358 gallons--that's the 10,000 pound area--2,359 
gallons of propane storage to complete and file risk management 
plans by June 21, 3 months from now. A typical installation on 
a small farm will likely consist of anywhere from 2,000 to 
5,000 gallon propane tanks, often hooked together, piped 
together for corn drying, for example, as on my farm.
    Having only three such tanks would bring the farmer under 
the requirements of the RMP program. It's understandable that a 
significant percentage of users will try to lawfully avoid the 
burden of compliance by limiting the volume of onsite storage. 
I'm going to look at it on my farm if this thing goes through. 
This will result in an increase in the number of propane 
deliveries and shift the emphasis from low risk, stationary 
storage, to the higher risk transportation.
    We believe the agency has failed to consider the vast 
extent to which propane is already regulated. That was brought 
out in the testimony. It failed to take into account the fact 
that propane installations are designed, constructed, 
maintained in accordance with the standard for the safe storage 
and handling of propane established by the National Fire 
Protection Association.
    It just appears to me that EPA thinks the industry is 
unregulated unless they are regulating it. Congress understood 
the importance of avoiding duplication and ensuring cross-
agency conformity when it passed the Clean Air Act amendments 
in 1990 by instructing EPA to coordinate requirements with OSHA 
and DOT.
    In 1992, OSHA established its onsite program known as the 
Process Safety Management Program. In doing so, it granted a 
fuel use exemption. When faced with the same option on its RPM, 
EPA decided to oppose such an exemption. We believe this action 
in direct violation of the clear language of the statute.
    The risk management program is complicated and highly 
technical. Risk management plans which must be filed by June 21 
are based on complex, chemical release models. The final rule 
published by the EPA in June 1996 is 62 pages in length. EPA's 
guidance document for propane users is 24 pages. The general 
guidance document for risk management plans is two inches 
thick.
    We are aware of EPA's contention that in the final 
analysis, risk management plans will only be a few pages in 
length. However, it will take dozens of hours to collect and 
organize the appropriate data. Farmers are just going to throw 
up their hands, probably after they finish throwing up when 
they look at it in the beginning. They won't be able to 
understand it.
    Because of the highly technical nature of the program, we 
believe that most farmers will find it necessary to contract 
with an RMP service provider at an average cost of several 
thousand dollars per site. If only 10 percent of the 660,000 
farm users of propane are required to file a plan, and we've 
already heard it may be 330,000, but if only 10 percent are 
required to do it, the total cost to the farm economy could 
exceed $100 million.
    Times are tough on the farm. Now is not the time to place 
another $100 million compliance burden on farmers. While it 
likely that many rural propane users will fall into the least 
rigorous compliance category, Program I, the economic impact 
will remain high since a significant up-front cost will be 
incurred to determine the appropriate program level.
    I heard them say this morning, that we would be exempted. 
Maybe in the end we will, after we spend $1,000 or $2,000 to 
find out we're exempted. I'm not going to risk it. I'll tell 
you if you ask me what I'm going to do if this thing goes 
through. EPA estimates 66,000 sites are covered under the RMP 
nationwide, that 28,000 involve propane. In short contrast to 
EPA's calculations, North Carolina's Department of 
Environmental Resources estimates there are 11,000 farm sites 
in that State alone. So I would agree with EPA their first 
estimate is wrong.
    We understand in recent weeks EPA has recognized its 
estimate of the number of affected farms was low. We appreciate 
and welcome their overtures and believe that may suggest a 
willingness to reduce the burden which RMP will place on 
farmers but we are concerned that the proposal floated to date 
does not sufficiently address the issues presented in our 
testimony.
    I would ask your indulgence, Mr. Chairman, to include in 
the record a letter from eight ag organizations whose views 
support the testimony given here today.
    Senator Inhofe. Without objection, that will be made a part 
of the record. Also, as a part of the record, without 
objection, since there is no one here to object, I would want 
to include the letter from the ACLU to Congressman Bliley.
    [The information referred to follows:]
                                                     March 5, 1999.

The Honorable Thomas Bliley,
Chairman, House Commerce Committee,
United States House of Representatives,
Washington, DC 20515,

    Dear Chairman Bliley: Thank you for the February 24, 1999 response 
to our letter outlining our concerns with proposals to limit public 
access to information concerning accidents at chemical plants (EPA's 
unclassified Worst Case Scenarios data). We are pleased to learn from 
your letter that you do not intend to amend the Freedom of Information 
Act (FOIA) and that you have not ``advocated denying public access to'' 
Worst Case Scenario (WCS) data. However, we remain troubled by the 
possibility of limiting or denying access to publicly available 
information in certain forms or formats and we urge you to hold public 
hearings on any specific proposals to do so.
    In your letter, you specifically asked us to respond to EPA's 
suggestion that a CD-ROM that ``could not be copied, duplicated, or 
posted on the Internet'' may be a legally and technically feasible way 
of providing the WCS information to FOIA requesters. Although the 
technology to create a CD-ROM whose contents cannot be copied is not 
currently in the commercial marketplace and would need to be 
investigated in order to make a final judgment, it is our belief that 
such a CD-ROM would not satisfy all FOIA requests for the following 
three distinct reasons:
1. FOIA allows the requester to choose the format
    The Electronic Freedom of Information Act (EFOIA) amendments, 
passed overwhelmingly by Congress in 1996, state that when responding 
to a FOIA request, ``an agency shall provide the record in any form or 
format requested by the person if the record is readily reproducible by 
the agency in that form or format. Each agency shall make reasonable 
efforts to maintain records in forms or formats that are reproducible 
for purposes of this section.'' 5 U.S.C. 552(a)(3)(B).
    The courts have held that the only exception to this clause is when 
an agency can prove that the existing record could not readily be 
reproduced. Chamberlain v. U.S. Department of Justice, 957 F.Supp. 292, 
296 (D.D.C.) (certain ``viscorder charts'' could be made available for 
review at FBI HQ due to exceptional fact that they might be damaged if 
photocopied), aff'd 124 F.3d 1309 (D.C. Cir. 1997) (unpublished table 
decisions) (summary affirmance).
    The EPA will be receiving the WCS data in an electronic format and 
store it in a central data base. Therefore, the information will be 
available in readily reproducible forms and formats other than the CD-
ROM and must be made available to FOIA requesters.
2. FOIA does not permit conditioned disclosure
    FOIA ``speaks in terms of disclosure and nondisclosure. It 
ordinarily does not recognize degrees of disclosure, such as permitting 
viewing, but not copying, of documents.'' Julian v. U.S. Department of 
Justice, 806 F.2d 1411, 1419 n.7 (9th Cir. 1986), aff'd, 486 U.S. 1 
(1988); Berry v. Department of Justice, 733 F.2d 1343, 1355 n. 19 (9th 
Cir. 1984). Similarly, providing exempt information to a requester 
while limiting his ability to further disclose it through a protective 
order is ``not authorized by FOIA.'' Schiffer v. FBI, 78 F.3d 1405, 
1410 (9th Cir. 1996) (reversing conditional disclosure order of 
district court).
    Part of the reasoning is that FOIA mandates disclosure to ``any 
person.'' If records or information are not exempt and must be 
disclosed, any person is entitled to them. The main exceptions to this 
principle are for Privacy Act records and confidential business 
information, neither of which applies in this case.
    It should also be noted that copying, duplicating, or posting 
restrictions on the WCS data would also raise significant copyright 
issues. Current law does not allow the government to hold copyright or 
place copyright-like restrictions on public information. Copyright law 
clearly prohibits protections for ``any work of the United States 
Government'' 17 U.S.C. 105. Yet perhaps more applicable to this case, 
the Paperwork Reduction Act prevents agencies from restricting or 
regulating ``the use, resale, or redissemination of public information 
by the public'' 44 U.S.C. 3506(d)(4)(B). Putting aside the 
technological questions for the moment, dissemination of WCS 
information in non-duplicable format such as a secure CD-ROM would be a 
clear restriction on the public's ability to use and redisseminate this 
public information. Such restrictions would violate existing law.
3. The national security exemption of FOIA does not apply to this 
        unclassified information
    FOIA does allow for exemptions when the data is ``in the interest 
of the national defense or foreign policy'' 5 U.S.C. 552(b)(1). By 
passing the Clean Air Act of 1990, Congress sought to promote the 
reduction of the risks of deaths and injuries from accidents at 
chemical plants, determining that the benefits of WCS information would 
outweigh harm to national security.
    Section 112(r)(7)(B)(iii) of the Clean Air Act states that WCS 
information ``shall also be submitted to the Chemical Safety and Hazard 
Investigation Board, to the State in which the stationary source is 
located, and to any local agency or entity having responsibility for 
planning for or responding to accidental releases which may occur at 
such source and shall be available to the public under section 114(c). 
Section 114(c) requires ``any records, reports or information . . . be 
available to the public'' except for information (other than emissions 
data) that is considered a trade secret.
    Given that the Clean Air Act is clear that WCS information is not 
classified for national security purposes, a FOIA exemption would not 
apply. Moreover, there are compelling reasons to make such information 
available. In the wake of the recent chemical disaster in Allentown, 
PA, where citizens were killed and communities evacuated, there can be 
no doubt that such health hazards are posed by the threat of chemical 
accidents and are more real than the potential threat of terrorist 
attack. WCS data give communities and workers the ability to plan, 
compare and push for measures to avert such accidental disasters. In 
fact, in passing the EFOIA amendments, Congress pointed to FOIA's 
ability to contribute to efforts to reduce ``serious health hazards'' 
like these.
    Lastly, there is no data to suggest that disclosure of WCS 
information might lead to a terrorist attack on a plant. In fact, the 
only in depth study pointing out potential, but unproven, risks has 
been called into question a contractor that oversaw the study (see 
attached) and is under review by the General Accounting Office. 
Limiting the availability and utility of WCS would be contrary to the 
intent of FOIA and the Clean Air Act.
    As we mentioned in our February 9, 1999 letter, any proposal to 
limit the forms or formats in which WCS information would be available 
to the public would set a terrible precedent. Such a precedent could 
undermine the intent and success of FOIA in ensuring public health an 
safety, by encouraging Members of Congress to carve out exceptions to 
the right of the public to use FOIA for vital public information. 
Therefore, we urge you once again not to put forward any such proposal. 
If, however, legislation is introduced regarding the availability of 
WCS information, we ask you to ensure that there is a full hearing with 
input from all the affected communities, including public interest 
groups, journalists, and other frequent FOIA requesters.
            Sincerely,
       Robert L. Oakley, Washington Affairs Representative,
                             American Association of Law Libraries.

                 Laura Murphy, Director, Washington Office,
                                    American Civil Liberties Union.

                          Jerry Berman, Executive Director,
                               Center for Democracy and Technology.

                      Stanton McCandlish, Program Director,
                                    Electronic Frontier Foundation.

                             Gary Bass, Executive Director,
                                                         OMB Watch.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Inhofe. If you could conclude your remarks as 
quickly as possibly, Mr. Kleckner, I'd appreciate it.
    Mr. Kleckner. I have two sentences left.
    In summary, EPA's risk management program, as it pertains 
to propane, is unsafe, contrary to the environmental goals 
established by the Clean Air Act and will adversely affect 
hundreds of thousands of farmers nationwide.
    We urge this committee to act quickly to avoid these 
consequences before the June 21 deadline. The bottom line is, 
Mr. Chairman, we're just running out of time.
    Thank you.
    Senator Inhofe. Thank you, Mr. Kleckner.
    I do have a question to ask you at the appropriate time.
    Mr. Bertelsmeyer?

STATEMENT OF JAMES E. BERTELSMEYER, PRESIDENT, NATIONAL PROPANE 
                        GAS ASSOCIATION

    Mr. Bertelsmeyer. Thank you, Mr. Chairman.
    Before I get started, I'd like to request permission to 
submit a number of documents that support my testimony and ask 
that be included in the record.
    Senator Inhofe. Without objection, they will be included, 
Mr. Bertelsmeyer.
    Mr. Bertelsmeyer. My name is Jim Bertelsmeyer and I'm 
chairman of Heritage Propane, headquartered in Tulsa, Oklahoma. 
In my real life, I run a propane marketing company but I appear 
before you today as President of the National Propane Gas 
Association.
    NPGA represents 3,700 companies of all sizes that market 
gas and equipment in every congressional district. Of those 
3,700, less than 100 are multiplant, multistate operators. The 
balance of 3,600 are mostly small mom and pop operators. These 
aren't the typical sized companies that come to mind when you 
think about the oil and gas industry.
    As President of NPGA, I've spent the last 7 months 
traveling this country attending State and local propane 
meetings and conventions where I've heard about the many calls 
companies are getting from customers to come pick up our tanks 
before the RMP ruling deadline. This is the primary issue for 
my industry and our customers and the reason that I'm here 
today.
    I want to lave you with three thoughts. The RMP rules 
duplicate and extensive, incredible safety infrastructure that 
already exists in all 50 States.
    Two, the RMP rules will decrease safety in the propane 
industry because customers will demand more and smaller 
deliveries as they attempt to downsize their storage to get 
under the threshold limits of the regulation. This action also 
hampers our delivery efforts in critical months because of the 
many more deliveries that will be required.
    Third, the RMP rules harm the environment because customers 
will switch to less environmentally sound alternatives rather 
than comply with the RMP rules. This will harm the air quality 
in this Nation and the economic growth of the industry that I 
represent.
    All propane facilities are subject to regulation in all 50 
States through building and fire codes. These codes, without 
exception, adopt or incorporate the substance of the National 
Fire Protection Association Safety Standard 58, NFPA.
    State agencies, code inspectors and fire marshals require 
propane storage facilities to be designed, constructed and 
operated safely. The propane industry also complies with 
numerous other Federal requirements including DOT's hazardous 
materials regulations, OSHA's workplace safety rules and EPA's 
community right to know laws.
    We take our safety responsibilities very seriously because 
safety is the major factor in a customer's decision to use our 
product. From our vantage point, when the rubber meets the 
road, we believe that EPA's RMP rules will have unintended 
consequences that reduce safety and actually harm the 
environment.
    Many propane customers will seek to reduce the amount of 
propane they store at the levels below the threshold for 
coverage. This will not, however, reduce their demand for 
timely deliveries. What you will see is trucks making many more 
small deliveries rather than a safer alternative of making 
fewer large deliveries.
    Complicating this situation would be the bad weather that 
often accompanies the industry's busiest time with the winter 
heating season. In fact, when I heard I was going to be given 
the opportunity to speak before this subcommittee, so as not to 
relate from an ivory tower perspective, I asked my employees to 
let me know of the actual instances where customers have 
already called and asked us to either downsize or remove their 
tanks as a result of the regulations which are more than 3 
months away.
    Understand, my company sells only about 1.6 percent of the 
propane sold in this country. I fully concede that this was not 
a scientific study but it will give you an order of magnitude 
feel for the problem I'm trying to relate.
    My employees reported 316 customers who have requested 
their storage be removed or downsized or threaten to switch to 
another fuel. This represents about 14 million gallons of 
annual usage or about 10 percent of our annual sales. There are 
many more who are not even yet aware of the full impact so I 
feel that number to be very conservative.
    Fuel switching makes air quality worse because customers 
switch to less environmentally desirable fuels. Companies are 
switching fuels because the RMP rules are very complex and 
burdensome and because they come with a high public relations 
price tag because of the worst-case impact zone implications 
the regs require to be defined. These are the real world 
impacts of these RMP rules.
    Reduction in air quality may be the most ironic aspect of 
the RMP rules. Propane is a federally approved alternative fuel 
under both the Clean Air Act and the Energy Policy Act of 1992. 
My industry actively worked to enact both of these laws. Now it 
appears that support seems to be coming back to bite us.
    The RMP rules are an expensive and duplicative paperwork 
exercise that will not improve safety. In fact, in our 
judgment, RMP will actually compromise safety and will drain, 
we believe, approximately $1 billion out of the pockets of my 
customers and my industry. Keep in mind we're talking about a 
$10 billion industry, so 10 percent.
    In conclusion, Mr. Chairman, EPA's RMP rules should not 
cover propane. It is our view that Congress never intended 
flammable fuels to be covered. This is not an exotic chemical. 
Everyone who has ever lived in a rural area knows about 
propane. Most all, even in fact, have a tank in their yard.
    These same regulations exempt dynamite. So figure that out.
    Thank you for this opportunity to testify and I'd be happy 
to answer any questions.
    Senator Inhofe. Thank you, Mr. Bertelsmeyer. I appreciate 
your coming in from Tulsa and joining us.
    Mr. Kleckner, you made the comment if you want to ask me 
what I'm going to do if this thing goes through, I'll tell you, 
well, I'm asking you.
    Mr. Kleckner. I'm going to do just what Mr. Bertelsmeyer 
said some of his customers have been doing. I'm going to call 
him up, tell him to come out and get a couple of tanks. I'm 
going to comply by having fewer tanks.
    I'm a small farmer, 350 acres. To some of you that may 
sound big but that's really a small farm in much of the corn 
belt in northern Iowa. We do use it for animal heating, for our 
home and for corn drying. I'm going to take out a couple of 
tanks, get under the limit and simply call the truck more often 
for the danger is really in the truck on the road, crossing 
railroad tracks. The tragedy in Illinois last night was not a 
propane truck, but it could have been because there have been 
those. The danger is also in the switching when you transfer.
    So we're going to do more of the dangerous stuff because I 
have less storage and that's how I am going to get around it. 
If I were a big farmer, I probably couldn't ask to take out 
enough tanks to comply and then I don't know what I would do.
    I think it is ridiculous the way they're suggesting we go. 
It's going the wrong way completely.
    Senator Inhofe. Of course Mr. Bertelsmeyer is very familiar 
with the crisis facing Oklahoma farmers right now. I think 
you're probably a bit conservative when you used the figure of 
$100 million. My math says if you have 330,000 farmers and if 
it's 2,000, you'd be $600 million or so.
    I happen to have been born in Iowa so most of the Inhofes 
come from around the Cumberland area and that's considered to 
be the hog capital but with recent corporate farming and that's 
expanded, and we're really into the hog business big time in 
Oklahoma. Because of the pricing right now, many of the hog 
farmers are killing piglets because the price is just too low 
to justify raising them. That's part of the crisis we're under.
    It looks like we're going to have in Oklahoma a pretty good 
wheat year but our elevators are full. I guess I'm sensitive to 
this because of the crisis that we're facing in Oklahoma and 
I'm sure that same thing is happening to other States too.
    I would like to have both of you comment on what the 
farmers can endure in terms of more regulation? Mr. Kleckner, 
you represent farmers from all over America, so you would be a 
good one to lead off.
    Mr. Kleckner. Senator, as I go around the country giving 
speeches, and that's kind of what I do now with my life more 
than on the farm, that's probably what I hear more than 
anything else, is regulation, overregulation.
    I realize regulations are the price we pay to live in a 
civilized society, but they ought to make sense at least most 
of the time; if not all of the time, at least most of the time. 
Most of us farmers don't think the regulations we live under 
make sense, not just economic sense but just don't make sense 
sense.
    Here is one. As I said, it appears to me here that EPA 
thinks unless they're doing the regulating, they are not 
regulating.
    Senator Inhofe. So you would look at this charge and come 
to the conclusion that the current regulation is probably more 
than adequate or would you say that?
    Mr. Kleckner. I hadn't looked at the chart. I was sitting 
in the back, along the side. I didn't see it before I came up.
    Senator Inhofe. It just shows the current regulations, what 
they're addressing. You made the comment that the EPA doesn't 
think that you're regulated unless they're regulating you. I 
think there is some justification for a comment like that.
    How about you, Mr. Bertelsmeyer, have you had a chance to 
look at the current regulation and what do you think would be 
accomplished by further regulation?
    Mr. Bertelsmeyer. I think as far as we're concerned, 
there's nobody that's more interested in safety than our 
industry because it's our livelihood. If we can't conduct our 
operations and our customer's operations in a safe manner, then 
we haven't got an industry. So we have a very, very strong 
interest in safety.
    As I look at all of the things that we're currently being 
regulated by, I can't think of any meaningful addition and 
certainly not this paperwork exercise that the EPA is 
attempting to put us through here as having any beneficial 
effect whatsoever, as a matter of fact, a detrimental effect on 
the safety in our industry.
    Senator Inhofe. Explain why it's a detrimental effect on 
safety.
    Mr. Bertelsmeyer. Because of just what Mr. Kleckner said. 
It's going to force people to try to try to get under the 
limitations and we'll have to make more deliveries. A delivery 
operation is the highest risk of all of the operations we do in 
our business. This is going to create more of those deliveries.
    Senator Inhofe. If you had a chance through your industry 
to try to quantify what you just said, that if this regulation 
were to go through, how would you quantify more deliveries so 
that we would be able to analyze the additional exposure that 
resulted from additional deliveries?
    Mr. Bertelsmeyer. Again, at the end, it depends on how many 
people actually do that, so in order to quantify it right now, 
it would be difficult, although we certainly would be willing 
to do that as a followup item.
    Senator Inhofe. That would be interesting for us to know. 
It's a little more in-depth as to why this could actually have 
the effect of increasing risk.
    Mr. Bertelsmeyer. Senator, I do know that my own, 
unscientific study, these are the responses back from my plant. 
Again, I haven't got a complete breakdown between the ones who 
want smaller tanks and ones who have told us to come out and 
take the tanks out completely, but some number of these 316, 
just in our company, some percentage of those, are certainly 
the ones that are going to have their tanks downsized.
    Senator Inhofe. On the issue of fuel switching, you were 
here when Mr. Fields was giving his testimony and responding to 
questions. I asked the question about fuel switching, wouldn't 
it be just as logical as switching to natural gas, to switch 
the other way to something that would be more onerous such as 
heating oil?
    Mr. Bertelsmeyer. Yes, and when you look at what's 
exempted, the heating oil, diesel fuel, electricity, natural 
gas and gasoline, all of these are all exempted. I guess we can 
get into a debate as to which one is or isn't more 
environmentally friendly but certainly there isn't anything 
more environmentally friendly than propane. It's been 
designated by two congressional acts as an alternative fuel.
    Senator Inhofe. Mr. Kleckner, you were here when we talked 
to Mr. Fields and his estimate in the written testimony, I 
think was 28,000, then he stated 33,000 in terms of estimating 
the facilities that would be reporting on propane.
    Are the two of your or either of you aware of the study 
done by industry, the accounting firm who came up with the 
estimates that add up to over a million?
    Mr. Bertelsmeyer. Yes, sir. Our association commissioned 
that study and it's been some number of years ago, I want to 
say like four or five. I wasn't actively involved in the 
association at that time, but I want to say four or 5 years ago 
and we can clarify that for the record.
    We commissioned the study and did a survey. It was a market 
survey just to determine exactly where propane was used 
throughout this country. That's where we determined the 660,000 
farms and the 350,000 industrial sites, and another million or 
so commercial sites. Then in order to arrive at the number that 
would be affected by this regulation, we assumed that 100 
percent of the industrial sites would be covered, that 
approximately one-half of the forms would be covered, and 
approximately 30 percent of the commercial sites. That totals 
up to the 1 millionsites that would be covered, and we put in a 
very conservative number of $1,000 on the cost which I know 
personally from my own company, that is probably just a faction 
of what our costs are going to be to comply with this thing. 
That's where we came up with the billion dollar number, sir.
    Senator Inhofe. I think you inadvertently said 660,000 
farmers and said 330,000.
    Mr. Bertelsmeyer. Well, 660,000 but only 50 percent would 
be covered. That's where the 330,000 came from.
    Senator Inhofe. The figures that came from this study, 11 
of the 13 engineering firms estimated the compliance to be 
between $2,000 and $20,000 per facility. Do you have any 
thoughts about that and the accuracy of that, Mr. Kleckner as 
it pertains to farms?
    Mr. Kleckner. No. I'm guessing that the 20,000 would be 
high for a farm that more likely the $2,000 area would be more 
applicable to farmers. I'm just sitting here listening to Mr. 
Bertelsmeyer. The 660,000 farmers or close to that, most of us 
don't know whether it will apply to us or not, so we have to go 
through the cost, the time which is cost also, determining in 
the end maybe it doesn't apply to us but it's been a whole 
bunch of money and probably even hiring, in many cases, an 
outside consultant to sort through those 60-some pages or 30-
some pages to get to the final two, three or four-page document 
we have to fill out. Then the cost of complying after that, 
$1,000, $2,000 or more at that point, the $100 million I said 
is almost so conservative it is laughable. I would think half a 
billion to $1 billion, half a billion for farmers if not more, 
and even more for industry because of what you have.
    Senator Inhofe. From your two perspectives here, you heard 
him talking about the relief that would be provided with 
connecting tanks. How much help would that be?
    Mr. Bertelsmeyer. That absolutely goes in the wrong 
direction because it takes a manifolded installation that is 
filled with one delivery to multiple tanks and by separating 
those tanks, now we've got to go to three or four different 
locations on the same farm. So again, we're back to the problem 
that the high risk portion of this business is the delivery 
operation. This not only doesn't help, it hurts it.
    Mr. Kleckner. Mr. Chairman, also with corn drying, corn 
bins are grouped together, so you don't put a tank a quarter 
mile away. I don't know what their distance requirements will 
be. It's likely to be minimal to begin with and increase with 
time, the way the regulatory creep usually happens. I'm not 
saying EPA creeps, but there is a regulatory creep that's out 
there in this country. It starts way out here and it comes 
together.
    I simply can't put my tanks for my grain drying bins too 
far away. I put them by the grain bins and they may or may not 
be connected but still the distance requirements, I can't put 
it 80 rods away, a quarter mile away.
    Senator Inhofe. I appreciate your comments very much and 
your testimony. You are going to receive questions in writing. 
I know you are from Senator Bennett and probably other members 
of this committee also.
    I would like to share with you that the majority of the 
people on this committee are concerned about two major things 
as we address all regulations that come out, whether they 
pertain to clean air, endangered species, Superfund, and that 
is that we depend on sound science and not hysteria, and that 
we actually have a cost benefit analysis so that people will 
know what the costs are actually going to be.
    I have been critical of the EPA because their estimates of 
cost have consistently been much lower than I believe. I think 
in this case they are too.
    With that, we'll go on to our third panel because we're 
getting behind in our schedule right now. I appreciate very 
much both of you coming.
    If the third panel will come to the witness table? The 
third panel consists of Mr. Robert Blitzer, Former Section 
Chief, Domestic Terrorism, FBI; Mr. Thomas M. Susman, Ropes & 
Grapy; Paula Littles, Paper, Allied-Industrial, Chemical and 
Energy Workers International Union; Thomas E. Natan, Research 
Director, National Environmental Trust; and Ben Laganga, 
Emergency Management Coordinator, Union County Office of 
Emergency Management.
    We will start with Mr. Blitzer, please.

  STATEMENT OF ROBERT BLITZER, FORMER SECTION CHIEF, DOMESTIC 
TERRORISM/COUNTERTERRORISM PLANNING SECTION, FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Blitzer. From January 1996 until I retired from the 
FBI, I was Bob Burnham's predecessor, so it was during my 
tenure that a lot of this worst-case scenario discussion arose 
to the point it is today.
    As I was listening to the testimony, most of what Bob 
discussed and Tim was contained in my statement, so I'm going 
to just briefly give you a sense of the kind of atmosphere in 
which we were discussing these kinds of problems. I'm just 
looking at worst-case scenario types of situations.
    At the time this was going on, we had been through a series 
of major cases, and I had been through those personally, 
everything from the World Trade Center to Oklahoma City, the 
Nairobi bombings and other cases. There was great concern in 
the Administration and I think it remains today about the use 
of weapons of mass destruction with in the United States 
including the detonation of a device.
    Bob mentioned the sour gas case. We managed that case 
during my tenure and we were very concerned that thing could 
occur. We'd had another incident prior to that, a threat, at 
Texas City, Texas, a big oil refinery situation. So we had had 
a couple of cases and we had this atmosphere of mass casualty 
cases. The thought of a terrorist, either domestic or 
international terrorist, sitting someplace in the world or in 
the United States with the kind of detailed access to 
facilities that the worst-case scenario would allow was of 
concern to us. That is why we at the Bureau opposed it.
    I guess the only thing that wasn't discussed this morning 
was, although I think you touched on it, the discussion of 
release of information under the Freedom of Information Act. 
That could occur today. Although I'm out of the FBI at this 
point, I would say to you I'm worried about that because again, 
as we were thinking about the possibilities, looking in a 
crystal ball, I guess threat assessment is certainly not a 
science, it's an art. In trying to assess future threats, this 
is what we were thinking about.
    I just wanted to paint that picture for you as to some of 
the behind-the-scenes activities that are going on during those 
discussions. I thank you for your attention.
    Senator Inhofe. Thank you, Mr. Blitzer.
    I would admonish all of you that your entire statement will 
be made a part of the record, so we will try to adhere to our 
time line here.
    Mr. Susman?

          STATEMENT OF THOMAS M. SUSMAN, ROPES & GRAY

    Mr. Susman. Thank you, Mr. Chairman.
    I'm pleased to be here this morning to address application 
of the Freedom of Information Act to the chemical reporting 
data that are required to be provided to EPA under the Clean 
Air Act.
    I've personally been involved with Government information 
law for over 30 years and as my biographical summary reflects, 
I've been an unwavering advocate of public access throughout 
that time.
    Today, I appear on my own behalf at the request of the 
subcommittee. Although I have provided the subcommittee with a 
paper that was prepared in part through support of the Chemical 
Manufacturers Association, it's analyses and conclusions are my 
own and I ask permission that the paper be included as part of 
the record.
    Senator Inhofe. Without objection.
    Mr. Susman. I'm here today because I have great respect for 
the FBI and its antiterrorist expertise, and also for the 
important benefits of open access to government information. So 
when the FBI says these worst-case scenarios or offsite 
consequence analyses should not be posted on the Internet 
because that will significantly increase prospects for 
terrorist attack, I readily conclude that such posting is a bad 
idea.
    When EPA, local governments and community leaders say 
access to these data will encourage accident prevention and 
facilitate community preparation and rapid response to 
potential chemical accidents, I'm comfortable with the 
conclusion that public access locally by the community, by 
firefighters, by emergency preparedness offices, is a good 
idea. Plainly a balance needs to be struck between these two 
conflicting interests.
    Where I find myself in disagreement is with the Environment 
Protection Agency's notion that under current law, it, the 
agency, can strike a balance by collecting those OCAs in 
electronic format and compiling them in electronic media and 
then can refuse to release those data in electronic form to the 
public. That is simply not permitted by the Freedom of 
Information Act, and the agency doesn't need another 60 days to 
reach that conclusion.
    The Clean Air Act states unequivocally that OCAs must, 
except for trade secrets, be made available to the public. That 
Act doesn't impose any requirements regarding the form in which 
information must be disclosed, but the Freedom of Information 
Act does. It says if the Government has disclosable 
information, it has no discretion to withhold or manipulate or 
create speed bumps to access to that information, unless one of 
the Freedom of Information Act's exemptions apply. In my paper 
that is included for the record, I discuss each of the 
exemptions and demonstrate that they not apply in this 
instance.
    The Freedom of Information Act, by virtue of the electronic 
amendments enacted in 1996, requires disclosure of requested 
data in electronic format when that form of the information is 
requested and without any additional manipulation by the agency 
if it's reasonably possible for the agency to make that 
information available.
    The conclusion is that EPA must disclose these worst-case 
scenarios, offsite consequence analyses, in the electronic 
format in which they're submitted, in a searchable data base if 
one exists. The EPA has no discretion to act otherwise.
    EPA has proposed to reformat the data to make it less 
accessible, to make searching difficult, to create speed bumps 
to disclosure, and it seems to me that is not the role of the 
agency. No agency should be allowed, much less encouraged, to 
state publicly that it intends to solve a serious problem 
identified by the FBI and concurred in by EPA by violating a 
mandate of the Congress in the Freedom of Information Act. The 
law doesn't provide for it, the Justice Department shouldn't 
condone it and Congress shouldn't tolerate it.
    For those who agree that unrestricted electronic access to 
OCA data on the Internet is a threat to security of 
manufacturing facilities and the communities in which they are 
located, there's only one legal solution to this problem--new 
legislation.
    I'm not proposing that Congress amend the Freedom of 
Information Act or for that matter, reduce the reporting 
requirements under the Clean Air Act. Nor do I propose that 
OCAs become unavailable to local governments or community 
residents entirely. It does seem to me that a balanced scheme 
is needed that will allow community access and even release of 
paper copies on a request-by-request basis but which will 
clearly and specifically prohibit their dissemination in 
electronic format.
    The development of that scheme should be up to Congress 
through legislation and not to EPA through violating the 
Freedom of Information Act.
    I look forward to answering your questions.
    Senator Inhofe. Thank you, Mr. Susman.
    Ms. Little?

   STATEMENT OF PAULA R. LITTLES, PAPER, ALLIED-INDUSTRIAL, 
        CHEMICAL AND ENERGY WORKERS INTERNATIONAL UNION

    Ms. Littles. We very much appreciate the opportunity to 
appear before you today. Our organization represents 320,000 
workers employed nationwide and a number of them are in the 
chemical and oil refining and nuclear industries.
    The question of full disclosure of risk management plans is 
of vital importance to our organization, our members and the 
communities in which they live. We feel if we are ever to have 
effective, ongoing hazard reduction, these plans must be fully 
disclosed to encourage safer technologies, honor the public's 
right to know, and to overcome the complacency that has allowed 
for a no serious plan or timetable to reduce hazards.
    The Clean Air requires EPA to implement a program to assist 
in the prevention of chemical accidents. EPA developed the risk 
management program rule. This rule requires some 66,000 
facilities that manage sufficient amounts of hazardous 
materials to develop a RMP and file it with EPA. These 
facilities include chemical manufacturers, refineries, water 
treatment facilities, ammonia, refrigeration, propane storage 
and semi-conductor fabrications.
    A projected 65 million people live within a five mile 
radius of an RMP facility. The Clean Air Act also requires that 
EPA make this information available to the public. Our 
organization became very concerned in November when we 
discovered that EPA had made the decision on November 6, 1998 
not to allow full access to RMP information.
    Our main concern surrounding full disclosure is our 
members, their families and the communities in which they live. 
Our members are the first respondents to a site of a 
manufacturing accident, at their work site, they also may work 
at a site near an incident, next door, across the street or 
five miles away but near enough to be affected.
    Currently, not enough effort has been placed on hazardous 
reduction for our organization to readily accept limited 
disclosure on hazardous materials that our members work or live 
near. There is also the issue of manufacturing security. It is 
to our advantage as an organization that represents workers in 
this arena that we can say to workers, their families and the 
community, these facilities have nothing to hide. We can tell 
workers that these facilities are working toward reducing 
hazards, their RMPs are available in any form they need, 
electronic or other, to provide the information needed to show 
that they are really working toward hazard reduction.
    We believe that it is not the knowledge that is harmful but 
the lack of knowledge that has at times created mass hysteria 
and rushed us to judgment. Although numbers vary depending on 
the source of statistics and period of time examined, there is 
no doubt about the effects of chemical accidents on human 
lives. Year after year, large numbers of people are killed or 
injured. In addition, the numbers of those suffering the long-
term consequences of exposure must also be counted.
    Currently the Chemical Safety Board is reviewing or 
investigating 27 incidents in 20 States. In the last 3 months 
of 1998, the Chemical Safety Board began four incident 
investigations, 20 workers were killed in the last 3 months of 
1998 on the job that the Board is investigating now.
    These numbers are clear and the message they send should be 
even clearer. We need to work harder at reducing hazards and it 
is our belief that full disclosure is the beginning step. We 
believe there are many valid and important uses for RMP 
information by people who live, work and conduct business well 
beyond the immediate community where a facility is located. RMP 
information can be used in a number of ways.
    One way that we as an organization representing feel this 
would be beneficial to us is it would help us develop and 
conduct effective education and training programs, it would 
help us to link other worker safety and public health data 
bases. It would also determine which facilities might pose year 
2000 risks.
    Just as we believe strongly that our members and their 
families and the communities in which they reside will be made 
safer by full disclosure, we do not believe that we're placing 
them in danger of sabotage or terrorism. Communities can only 
be protected when companies use safer chemicals, reduce 
dangerous storage, widen buffer zones and provide full 
information. Chemical accidents have no respect for geographic 
boundaries; we must have the freedom to communicate concerning 
chemical hazards if we are to real hazard education.
    Only with full information, disclosure and opportunities to 
act can facilities, employees and communities reduce chemical 
hazards.
    Thank you for allowing me the opportunity to speak.
    Senator Inhofe. Thank you, Ms. Littles.
    Mr. Natan?

STATEMENT OF THOMAS E. NATAN, JR., RESEARCH DIRECTOR, NATIONAL 
                      ENVIRONMENTAL TRUST

    Mr. Natan. Thank you for the opportunity to testify as a 
member of the environmental community. I'm a chemical engineer 
and I've visited scores of industrial facilities, examining 
ways in which they can operate more efficiently and safely, as 
well as helping to interpret their environmental data for 
residents and surrounding communities.
    As the committee is aware and as Senator Lautenberg 
mentioned in his opening statement, Congress enacted the 
Emergency Planning and Community Right to Know Act in 1986. A 
principal feature of this legislation was the toxic releases 
inventory program, TRI. TRI has been credited by both 
environmentalists and industry alike for generating the climate 
that has resulted in dramatic decreases in toxic chemical 
emissions without the traditional constraints and costs of the 
command and control regulatory framework.
    The experience with complete and unimpeded public 
dissemination of TRI data in generating significant reductions 
in releases of toxic chemicals to the environment is relevant 
to the issue of public availability of worst-case scenario 
data.
    Like the 112-R program, TRI merely requires reporting of 
information that companies already generate in the course of 
doing business. Public awareness, generated both from local 
citizens and data analysis by environmental groups, has led to 
a reduction in toxic chemical releases of 50 percent over the 
past 10 years. No further regulation was necessary to bring 
about these reductions.
    The enduring lesson of public access to information 
regarding toxic chemical risks facing communities is that real 
risk reduction can occur without the imposition of new and 
significant costs to the manufacturing sector. Another 
important lesson we can glean from TRI is that public access to 
toxic chemical release information alone can generate enormous 
risk reduction benefits.
    Also, for many workers at industrial facilities, TRI is 
their first opportunity to learn about chemicals used on the 
job, another unexpected benefit of complete access to 
information. All of these benefits can be further enhanced 
through public access to 112(r) data.
    The intelligence community has raised concerns about the 
availability of worst-case scenario data on the Internet. 
However, even in the absence of Internet access to data, there 
are many ways in which EPA, the intelligence community and the 
chemical industry must work both separately and together to 
reduce hazards and potential risks to the American public from 
the use of toxic chemicals in industrial facilities.
    The read-only CD ROM that has been proposed is interesting 
but we've not been provided enough details to determine if this 
will meet the needs of the diverse public. To name a few, this 
public includes citizens who want to compare their local 
facilities to others across the country in the same industry, 
workers at the facility for whom these data may be the best 
vehicle to learn about risks and hazards on the job, emergency 
responders who will want to be sure a particular plant meets 
the industry standard for safety, educators who will want to 
teach students about best practices and investors who will want 
to track the performance of all the facilities of a particular 
company.
    Whether or not the worst-case scenario data are available 
on the Internet, EPA should establish many specific public 
access services to mechanisms. I've included those in my 
written statement and I won't repeat them here.
    EPA also needs to take an active role in providing 
comparative analyses of data from facilities within particular 
industries to determine the best practices as they currently 
exist. EPA should also provide analyses of uses of specific 
chemicals across industries for some of the most hazardous 
substances.
    From the time the agency receives the first 112(r) data, it 
should be creating guidance documents for locally impacted 
citizens and the general public on what the data mean and don't 
mean as well as list an explanation of supporting documentation 
that facilities should have on hand. As more years of data 
become available, the agency can also publicize success stories 
of facilities that have significantly reduced their 
vulnerability zones.
    To my knowledge, the review of worst-case scenario data by 
the FBI is the first time the FBI has reviewed chemical 
accident data reported by industrial facilities to determine 
the potential threat that onsite use of toxic chemicals pose to 
local communities. This is true despite more than 10 years of 
data being widely available.
    In my opinion, the most significant finding made by the FBI 
during its review was that the use of toxic chemicals at 
facilities poses an inherent risk to workers, neighboring 
properties and surrounding communities. The FBI found 
additionally that making the public aware of chemical use risks 
over the Internet would amplify this inherent preexisting risk.
    In light of these findings, it is important to emphasize 
that the risks emanate from toxic chemical use, not public 
awareness of those risks.
    We believe the FBI can play a tremendous role in furthering 
society's goal of risk reduction. A comprehensive review by the 
FBI of security measures at facilities using or producing large 
volumes of toxic chemicals would be a good start at reducing 
risks to citizens. Further reviews could include risk generated 
by transporting chemicals to and from those facilities.
    The chemical industry has begun presenting worst-case 
scenario data for individual facilities to local citizens in 
Louisiana and Texas. Companies should go further and produce 
reports on their worst-case scenario data for all facilities 
they own enabling the public to see that they operate uniformly 
with regard to risk minimization. These reports should also 
publicize plans and goals for risk reduction if they exist.
    Finally, the chemical industry, EPA, and the intelligence 
community should collaborate on a voluntary initiative to 
reduce risks with reasonable targets and dates. Although 
reducing hazards by using less toxic chemicals would be most 
desirable as a way to accomplish risk reduction, a voluntary 
initiative could explore other common sense risk reduction 
measures as well.
    Where reduction in use isn't practical, such common sense 
measures could include safer transportation, storage and 
handling of toxic chemicals. The worst-case scenario data 
provide an ideal vehicle for measuring progress for risk 
reduction efforts. However, denying or severely limiting public 
access to worst-case scenario data does not relieve the EPA and 
the intelligence community or the chemical industry of their 
shared obligatio to reduce risk.
    Thank you for the opportunity to address the committee and 
I'd be happy to answer any questions.
    Senator Inhofe. Thank you, Ms. Littles.
    Mr. Laganga?

  STATEMENT OF BEN LAGANGA, EMERGENCY MANAGEMENT COORDINATOR, 
          UNION COUNTY OFFICE OF EMERGENCY MANAGEMENT

    Mr. Laganga. I am the emergency management coordinator for 
Union County, New Jersey. Union County is an important county 
in New Jersey. It is highly industrialized, 102 square miles 
with a population of 494,000. Within the county borders lies 
Newark International Airport, New Jersey Turnpike and the 
Garden State Parkway as well as the Elizabeth Seaport. There 
are many other highly traveled highways. We are also home to 
several petrochemical and pharmaceutical facilities who are 
required to file risk management plans in 1999.
    As a representative of the county and chairman of the local 
emergency planning committee, I am pleased that you are hearing 
testimony on this highly controversial issue today. From the 
outset of this rules development, it has been my belief that 
the availability of worst-case and more likely case scenario 
information on the Internet could lead to an increase in 
terrorist acts in our State and throughout the country.
    In New Jersey today through right to know and New Jersey's 
Toxic Catastrophe Prevention Act, all companies that use 
hazardous materials on their site must provide that information 
to their OEPC and the New Jersey Department of Environmental 
Protection. The information is available to the public, 
however, it must be requested and is not available through the 
Internet.
    In my opinion, that is a better way to monitor those 
individuals requesting the information. If the information is 
available on the Internet, there is no possible way to know who 
is accessing that information and quite frankly, how they are 
using it.
    There is another side to this issue, the misunderstanding 
and the misinterpretation of this information. Without proper 
explanation, the general public could misinterpret the 
information they are accessing and could cause undue harm 
amongst the public at large.
    In Union County, we do not want to see companies go out of 
business, however, we do want to maintain the lines of 
communication between these facilities and our emergency 
response teams.
    I hope that you recognize the use of this information is 
valuable to emergency responders. However, if it is put in the 
wrong hands, it could cause more harm than good.
    I know that the regulatory intent for the development of 
the risk management plans was to put valuable information into 
the hands of the public, not to jeopardize public safety by 
placing this information in an accessible format where it can 
be used by those looking to cause harm. However, I am concerned 
that is exactly where this valuable information will end up.
    Thank you again for this opportunity and I would be happy 
to answer any questions you may have.
    Senator Inhofe. That's interesting, Mr. Laganga. In your 
testimony, you say you already collect the emergency data and 
make it available to local citizens and environmentalist groups 
now?
    Mr. Laganga. Yes. There are two ways we do that. The New 
Jersey Department of Environmental Protection passes that 
information down to the local emergency responders, police, 
fire and the LEPC. We're very active in Union County through an 
HMAC Advisory Council who puts on educational programs and any 
type of training for emergency responders in conjunction with 
those industries.
    Senator Inhofe. Do you do this individually or by what 
means do you respond to these requests? I'm trying to figure 
out how many requests you might have to respond to?
    Mr. Laganga. At the county level, we receive maybe 20 a 
year. At the local level, they receive more from their 
community activists. We also promote public education through 
the facilities. Senator Lautenberg earlier mentioned the Exxon 
refinery. I sit on that community action panel which enpanels 
emergency responders, local political people and citizens who 
get to know about the facility and how emergency response 
activities take place.
    Senator Inhofe. So you not only share the information, but 
you also interpret it for them. Has interpretation ever been as 
significant as just having access to the information?
    Mr. Laganga. We don't interpret it. We leave the 
interpretation up to the facility. The information they supply 
us with are the chemicals and how much they have in their 
inventory. We do encourage dialog between the facility and the 
citizens.
    Senator Inhofe. We were listening to Mr. Susman say that he 
came to the conclusion there is only one solution and that is 
through legislation. Are you suggesting another could be that 
you could do this through the local entities and avoid the EPA 
and the Freedom of Information Act altogether?
    Mr. Laganga. Yes. Again, public information that is 
supplied from the facilities to the DEP, to the towns as well 
as to the facilities can really promote that.
    Senator Inhofe. How would you react to that, Mr. Susman?
    Mr. Susman. That's quite interesting because New Jersey has 
a unique statute enacted just a few years ago that says that 
when the government maintains information, even if it's 
maintained in electronic form, a State Freedom of Information 
Act request can be responded to by providing paper records. So 
even if the State agencies maintained these data in electronic 
format in New Jersey and a member of an environmental group 
desiring to put this on the Internet makes a request under 
State law, that person can get the record only in paper format 
under a specific State statute.
    I'm not suggesting that is a good idea for all government.
    Senator Inhofe. How many other States have a statute?
    Mr. Susman. It varies. There are 50 different States with 
50 statutes. Unfortunately, the Federal Government sets the 
stage for what most States do and the Federal Government has 
established the principle if you have it electronically, you 
have to release it electronically. I haven't done a State-by-
State review, but I do believe New Jersey may be unique.
    Senator Inhofe. Mr. Natan and Ms. Littles, I come from 
Oklahoma and you're all familiar with the Federal office 
bombing which was the most devastating terrorist attack on our 
soil in history, so we're very sensitive to this type of thing 
happening. I would like to have you both talk about the 
tradeoff here. We're concerned about peoples' right to know. 
When you ask the man on the street would you rather have this 
right to know for yourself and for terrorists or would you 
rather have no one have the right to know? I think I know what 
their answer would be. How would you respond to that?
    Ms. Littles. I came from a place close to Oklahoma. I 
actually came from Texas and I worked in a petrochemical field. 
Because of that and because of having been at petrochemical 
facilities when there have been releases and people were not 
aware what was being released, when peoples' children were at 
school, it has instilled in me a feeling that people in the 
community have a right to know what's going on in these 
facilities and that we, as an organization, have a 
responsibility to our members in those facilities as well as in 
the facilities around the country and facilities with which we 
have good relationships as well as the ones where we don't. 
Where we have good relationships, we're given data so that we 
can actually look and see our members are being in the best 
possible hands. In places where we don't, we're not given that 
same information.
    We know there are some facilities that will be giving their 
RMPs that we can compare information and we can actually maybe 
sit down and talk to people about what we actually view as an 
in our own world company terrorism because when you have people 
working in facilities and companies and not providing the 
proper respect and response to them for their own livelihood 
and how they are going to leave that job, we have a very large 
problem with that also.
    I'm definitely not trying to play down what happened in 
Oklahoma because that was very serious but I don't think what 
happened in Oklahoma--what happened in Oklahoma, that building 
was not on the Internet.
    Senator Inhofe. I'm not suggesting it was. I said I am 
sensitive to the results of terrorist activity which that was. 
I recognize that was not information that was on the Internet.
    Ms. Littles. Also from what I've seen of RMPs and having 
worked in a petrochemical facility, I have never seen anything 
on one yet that actually would identify for a terrorist what 
they could actually bomb.
    Senator Inhofe. I'm going to ask you, Mr. Blitzer, to 
respond to that last comment she made in just a minute but I 
want to hear from Mr. Natan first.
    Mr. Natan. I've had experience with citizens who have 
received environmental data from their local facilities that is 
not equivalent to the same data they've submitted to the 
Federal Government. For that reason, I think even from a 
verification standpoint, it would be nice for citizens to be 
able to verify that what facilities are giving them is indeed 
the correct thing.
    I've also found instances where the data are incomplete and 
relying even on facilities to provide the interpretation for 
the communities has posed a problem. I'm also sensitive to the 
idea that you certainly don't want to foster anymore terrorist 
activities of any kind.
    I do believe that there is a role for disseminating 
information in ways that it will make sense for people to use 
it. The problem is that I think the public who needs this 
information goes well beyond the local level. I am not sure how 
to resolve that.
    Senator Inhofe. It is a problem because you've repeated 
several times, all of you have, that people have a right to 
know but terrorists are people.
    Mr. Natan. Terrorists are people, not the right people but 
they are people. I find it difficult as someone who likes to 
examine data and who would like to know, for example, which 
paper plant that uses chlorine or releases chloroform is 
operating in the safest possible manner so I can go to other 
paper plants and ask them why they are not doing the same 
thing. I think this is a legitimate use of this kind of data.
    Honestly, without greater access to the data than I've seen 
proposed, I don't know how I would do that.
    Senator Inhofe. Mr. Blitzer, would you like to respond to 
her last statement?
    Mr. Blitzer. Again, I think I would just harken back to 
some of my initial comments. That focuses more on the worst-
case scenario on the Internet with someone either in a foreign 
country or here being able to zero in on key corporations, key 
facilities where a lot of stuff is and have a pretty good sense 
of what's there, what the facility looks like, and being able 
to target a facility for an operation.
    Senator Inhofe. Why don't you give us a hypothetical, 
specific example?
    Mr. Blitzer. I'll try to do that. Let's say you have a 
foreign terrorist who is active on the Internet, and they are, 
and he starts searching facilities, chemical facilities, in the 
United States on the Internet. There's 60,000 and some 
facilities but let's say he's looking at the State of New 
Jersey and he can pull up significant data on chemical 
facilities in the State of New Jersey.
    Again, hypothetical, he has a cell in the New York City 
area that he can activate and he can provide information to 
them, this is the target, this is what I want you to do. That's 
the scenario that might occur and could occur. That's the kind 
of thing we, as we are considering this, are worried about, 
that kind of accessibility, making it easy for them to target 
facilities, easier than it is right now.
    Senator Inhofe. Have you come to the same conclusion that 
Mr. Susman has, that probably even though it may not be a good 
solution, that the only solution would be legislative?
    Mr. Blitzer. I personally have and it's troubling and I 
listened to the other panelists. I must tell you after 27 years 
in the Bureau, I'm just as concerned about peoples' right to 
know as anyone else. I think they do have a right to know but I 
think Mr. Natan is right, where is the balance? I don't know 
where that balance is. There's a lot of legitimate researchers 
like Mr. Natan and others that need access to worst-case 
scenarios and I don't think we were trying to prevent that. 
We're trying to prevent worst-case scenarios from being posted 
on the Internet and being so accessible to so many individuals 
that may want to do us harm.
    Senator Inhofe. Mr. Susman, you've come to this conclusion 
so I would assume that there are no technologies in your mind 
that the EPA could use to safeguard this information under 
current law?
    Mr. Susman. Under current law, if the EPA possesses it in a 
searchable electronic data base, which is the way in which the 
information will be submitted on June 21, then that's the 
format that it has to disclose it. EPA does have the facility 
to provide paper copies. All you need is a photocopy machine. 
The law just doesn't require that alternative.
    I might say, Mr. Chairman, that it does seem that we've 
talked about the need for balance, and at least 80 percent or 
more of the valuable uses to which these reports can be put, it 
seems to me, can be accomplished through paper copies provided 
locally.
    If someone wants to key in 66,000 reports and put them on 
the Internet, I think that's something we can't guard against 
legislatively.
    Senator Inhofe. A third party could do that.
    Mr. Susman. That's correct, but that again is part of the 
balance, the price we pay. We want the local community, we want 
the firefighters, the emergency preparedness offices, the 
police department and workers to have some access to these 
reports. It's a far cry from saying therefore, it needs to be 
electronically available whether in a CD-ROM, nonsearchable, 
non-read only. All that sort of stuff is very problematic at 
least under present technology.
    Senator Inhofe. Mr. Blitzer, a minute ago, I think I heard 
you say that terrorists are very sophisticated and they do use 
the Internet?
    Mr. Blitzer. Both domestic and international terrorists use 
the Internet, they communicate by computer. I saw it firsthand.
    Senator Inhofe. When did you leave the FBI?
    Mr. Blitzer. I left in November of last year. Many of the 
domestic groups in particular are extremely active on the 
Internet where they communicate and have their own web sites. 
They have encrypted web sites, so it's there.
    Senator Inhofe. I would assume they are much more 
sophisticated now than even they were last November.
    Mr. Blitzer. As fast as the technology grows, they will 
take advantage of it.
    Senator Inhofe. I've been reminded we have gone 5 minutes 
over our time but if any one of the five of you has any gnawing 
need to add something else, this is your chance to do it.
    [No response.]
    Senator Inhofe. Thank you very much for taking the time to 
come and that goes to all three panels. I appreciate it very 
much. You will be receiving questions from members who were not 
in attendance to answer on the record in the next few days.
    Thank you very much.
    [Whereupon, at 11:51 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
 Statement of Hon. Craig Thomas, U.S. Senator from the State of Wyoming
    I am genuinely concerned about the environment, that is not what 
this is all about. That is why I am so puzzled by the letters I have 
been receiving from many of my constituents in the propane industry 
concerning the Environmental Protection Agency's (EPA) risk management 
regulations. EPA, in compliance with the Clean Air Act is attempting to 
collect risk management plans (RPMs) from facilities handling 
substances listed under section 112(r) (3).
    I applaud EPA's efforts of wanting to improve the safety of 
industrial chemical processes but I do not think it is necessary to 
include fuels when the legislation was aimed specifically at chemical 
releases. Why would the Administration want to discourage folks from 
using propane--a fuel the Administration itself deemed a clean fuel.
    With respect to propane, the EPA's risk management program is 
duplicative in nature. The industry already operates under strict 
regulations on the State, Federal and local level. Propane companies 
already comply with a comprehensive safety standards set by the 
National Fire Protection Association and also abide by worker safety 
standards set by OSHA.
    These risk-management regulations cover all facilities with more 
than 10,000 pounds of propane onsite. This is not a lot of propane, so 
these rules not only apply to bulk storage facilities but also to many 
residential and commercial customers as well. As a result, many propane 
users are thinking of switching to a less environmentally friendly 
substance such as heating oil, natural gas, or electricity. And I 
mentioned previously, propane is listed as a clean fuel.
    Another negative impact concerning the proposed rule is that it 
could actually decrease safety. Many commercial customers will attempt 
to remain under the program threshold and thus avoid the burden of 
compliance. They will do so by reducing their storage capacity and 
arranging for more deliveries as a way to reduce onsite storage. This 
means the propane industry will be forced to make more deliveries, 
which increase the possibility of vehicular accidents and fuel 
handling.
    For all these reasons, I do not believe that propane should be 
included on this list of hazardous substances. This is not about the 
environment. This is about costly, unnecessary and duplicative 
regulations. Finally, Mr. Chairman, I have several letters from my 
constituents that I would like to be included in the hearing record.
                               __________
                                                AmeriGas,  
                                 America's Propane Company,
                                                 February 25, 1999.

The Honorable Craig Thomas,
United States Senate,
Washington, DC 20510.

    Dear Senator Thomas: I am a propane industry employee that is 
concerned about a regulation being placed on my industry by the U.S. 
Environmental Protection Agency (EPA).
    I work as a serviceman for AmeriGas Propane in Laramie, WY. We 
deliver propane to customers who use it in a variety of ways in their 
homes, businesses, and farms. I am very concerned about the EPA's rule 
implementing section 112(r) of the Clean Air Act. This rule requires 
propane marketers and their customers who have storage tanks containing 
more than 10,000 pounds (about 2,380 gallons) of propane to prepare 
detailed facility information, including a hypothetical worst-case 
scenario. The rules also duplicate safety rules on the State level.
    My co-workers and I are taught and trained in the safe handling of 
hazardous materials and do all we can to protect ourselves, our work 
place and our community in every aspect of our job. We work under 
strict regulations at the Federal, State, and local level, such as the 
NFPA Standard 58, the Liquefied Petroleum Gas Code, published by the 
National Fire Protection Association and many other regulations by OSHA 
and DOT.
    I do not believe that adding another paperwork requirement will 
increase the level of safety that I work to provide to our customers 
and community each and every day. Please support legislation that 
recognizes compliance with NPGA 58 as an alternative means of complying 
with EPA's section 112(r) rules.
    Thank you for considering my views as an employee that has to help 
carry out all of the regulations and rules that Washington creates.
            Sincerely,
                                                   Ty Blake
                               __________
                                         V-1 Oil Company,  
                                               P.O. Box 51,
                                 Douglas, WY, 82633, March 2, 1999.

The Honorable Craig Thomas,
United States Senate,
Washington, DC 20510.

    Dear Senator Thomas: I am writing you on behalf of over 300 
employees of V-1 Oil Company in urgently requesting your help in 
informing the EPA that to include propane in it's flammable substances 
on the Risk Management Program is a huge mistake for not only this 
company, but most all other propane marketers. Our company delivers 
propane in Wyoming and 5 other western and I can assure you that the 
EPA's Risk Management Program would not and will not cover any incident 
which V-1 Oil Company may or could have.
    The EPA's deadline of June 21, 1999 for the completion of the Risk 
Management Plan in its detailed form of a ``worst case scenario'' is 
very misguided due to the costly imposition to the industry and it's 
doubtful benefit. Rather, the EPA's mandate essentially encourages an 
anti-safety process due to the resultant reduced threshold level while 
increasing delivery rates and risks.
    It is my understanding that the Risk Management Plan will cost the 
industry in excess of $1 billion. Frankly, this measure could result in 
numerous customers switching from clean burning propane to other forms 
of energy, thus costing the industry and customers billions of dollars 
additionally.
    The Risk Management Plan does not have a potential to increase 
safety, nor does it promote a cleaner environment or promote the use of 
alternative fuels such as propane. In an industry which is already so 
heavily regulated, the Risk Management Plan will surely cripple the 
industry without any notable benefit to safety or communities.
    I urge you to please give your support to the removal of the 
flammable fuels from the list of the Risk Management Plans covered 
substances and look forward to hearing from your office on any help you 
can render this important issue.
            Sincerely,
                                         Thomas L. Christy,
                                                  Regional Manager.
                               __________
                                                AmeriGas,  
                                 America's Propane Company,
                                                 February 24, 1999.

The Honorable Craig Thomas,
United States Senate,
Washington, DC 20510.

    Dear Senator Thomas: I am a propane industry employee that is 
concerned about a regulation being placed on my industry by the U.S. 
Environmental Protection Agency.
    I work for the AmeriGas Propane Company in Casper, Wyoming We 
deliver propane to customers who use it in a variety of ways in their 
homes, businesses, and farms. I am very concerned about the EPA's rule 
implementing section 112(r) of the Clean Air Act This rule requires 
propane marketers and their customers who have storage tanks containing 
more than 10,000 pounds (about 2,380 gallons) of propane to prepare 
detailed facility information, including a hypothetical worst-case 
scenario. The rules also duplicate safety rules on the State level.
    My co-workers and I are taught and trained in the safe handling of 
hazardous materials and do all we can to protect ourselves, our work 
place and our community in every aspect of our job. We work under 
strict regulations at the Federal, State, and local level, such as the 
NFPA Standard 58, the Liquefied Petroleum Gas Code, published by the 
National Fire Protection Association and many other regulations by OSHA 
and DOT.
    I do not believe that adding another paperwork requirement will 
increase the level of safety that I work to provide to our customers 
and community each and every day. Please support legislation that 
recognizes compliance with NPGA 58 as an alternative means of complying 
with EPA's section 112(r) rules.
    Thank you for considering my view as an employee that has to help 
carry oul all of the regulations and rules that Washlngton creates,
            Sincerely,
                                             Pam Barretson.
                               __________
                                                AmeriGas,  
                                 America's Propane Company,
                                                 February 24, 1999.

The Honorable Craig Thomas,
United States Senate,
Washington, DC 20515.

    Dear Senator Thomas: A short while ago I contacted your district 
office regarding a recent EPA regulation. Since a June 21 compliance 
deadline is fast approaching, I felt it necessary to contact you again.
    I am extremely proud of my company and its employees The EPA is 
attempting to impose a regulation on me and many of my customers that 
will may actually decrease safety in and will definitely increase cost.
    The UPS's burdensome risk management regulations cover all 
facilities with more than 10,000 pounds of propane onsite. This is not 
a whole lot Of propose, So these roles not only apply to my bulk 
storage facilities but also north of my residential customers as well. 
I am now starting to get calls from many of my customers who are 
reconsidering their usage of propane in light of having to comply with 
these regulations.
    I find it ironic that EPA's proposed rules will actually compromise 
safety. Many commercial customers will attempt to remain under the 
program threshold and thus avoid the burden on compliance They will do 
this by arranging; more deliveries as a means to reduce onsite storage. 
The propane industry as a whole continues to maintain an extremely good 
safety record and the new regulations will not increase it any more, 
but ensure that this safety record Will be compromised.
    My company is not looking to escape regulations that truly enhance 
the safety of propane installations. Indeed, that is why States have 
incorporated NFPA 58 into their safety regulations. I therefore urge 
you to enact legislation that recognizes compliance with NFPA 58 as an 
alternative means of compliance with EPA's section 112(r) rules before 
the pending summer deadline.
    Will you please advise me if the Federal Government will exempt 
themselves from complying to the RMP rules? I have a number of Federal 
facilities we service which will fall under the specifications of RMP. 
If the Federal Government does not exempt themselves, this will surely 
be a large expense to the budget.
    My customers and I are relying; on you for help. Thank you for your 
time and if you have any questions, please feel free to contact me.
            Sincerely,
                    Richard F. Bell, Sales/Service Manager,
                                                   Casper, WY 82604
                               __________
Senator Craig Thomas,
United States Senate,
Washington, DC 20515.

    Dear Senator Thomas: I would like to share with you some of my 
concerns over the EPA's regulations. As you already know my company has 
been in the propane business in the State of Wyoming for over 25 years. 
We have never had an incident that would be covered under the EPA Risk 
Management Program. We are a small business that delivers propane to 
customers who use it in a variety of ways, home, business and farms. 
I'm greatly concerned the EPA's rules require propane user to submit 
detailed Risk Management Plan will ultimately lead to more accidental 
releases not fewer.
    Flammable substances like propane burn cleanly, so they're good for 
the environment, and they're handled safely because of industry 
standards like National Fire Protection Association safety standard 58 
and strict State regulation. I should know, because I have to answer to 
my State regulators enforcing State regulations. My industry works 
closely with firefighter organizations to ensure the safety of our 
communities. I also comply with many local, State and Federal laws 
including SARA title III, which is required by the EPA. Propane 
regulation and safety practices are so effective that you have only one 
chance in 33 million of being killed in a propane tank snuck highway 
accident. By contrast, you have one chance in 15 million of being 
struck by lightning, and only one chance in 2500 of being in a car 
wreck that kills someone. Of course, no one is talking about setting up 
a Federal risk management program for cars!
    I urge you to enact changes to the Clear Air Act that makes EPA 
accept compliance with National Fires Protection Association standard 
58 as an alternative to Risk Management Plan compliance.
    Thank you for your attention on the matter.
            Sincerely,
                                          Larry N. Germann,
                                                      Ron's LP Gas.
                               __________
 Statement of Timothy Fields, Jr., Acting Assistant Administrator for 
  Solid Waste and Emergency Response, Environmental Protection Agency
    Mr. Chairman, and members of the subcommittee, I am Tim Fields, 
Acting Assistant Administrator in the Office of Solid Waste and 
Emergency Response at the U.S. Environmental Protection Agency. My 
office has primary responsibility for the Risk Management Program under 
section 112(r) of the Clean Air Act (CAA) and Federal implementation of 
several sections of the Emergency Planning and Community Right-to-Know 
Act (EPCRA). I also am responsible for the Agency's anti-terrorism 
program and the associated coordination with other Federal partners, 
State and local governments, and the private sector.
    I am pleased to have this opportunity to present information about 
the importance of chemical safety, community right to know, and our 
plan to balance these benefits with the continuing challenge of 
protecting national security.
    Following the world's largest chemical accident in Bhopal, India, 
Congress passed the Emergency Planning and Community Right-To-Know Act 
in 1986. The law enhanced community planning and provided significant 
new information on chemical handling and releases to the public. 
Because of the public availability of chemical information, awareness 
of the potential danger from chemical use and production has grown. We 
have seen many facilities take steps to implement safety practices that 
prevent accidents. But much work remains to be done.
    According to EPA's Emergency Response Notification System (ERNS), 
more than 402,000 accidents involving hazardous chemicals were reported 
in the United States in the 12 years from 1987 to 1998. These accidents 
resulted in nearly 4,000 deaths, 25,300 injuries, and 1,400 evacuations 
affecting 147,000 individuals. Eighty percent of these accidents 
occurred at industrial and commercial facilities. Propane releases are 
not required to be reported to our ERNS system; however, we received 
reports on more than 1,000 propane accidents from 1987 to 1998. The 
largest amount released was 450,000 pounds and the average amount 
released was more than 5,000 pounds. These reported accidents resulted 
in 32 deaths, 259 injuries, and evacuations in 32 communities.
    The core elements of process safety management required by the Risk 
Management Program rule directly address such accidents. Therefore, EPA 
expects that this regulation will ultimately reduce the number of 
accidents, injuries, and fatalities.
Risk Management Program
    Through passage of section 112(r) of the CAA in 1990, Congress 
recognized the need for facilities to develop or improve their planning 
and accident prevention programs to reduce the risk of accidents and 
allow local communities to enhance emergency preparedness. The law also 
recognized that citizens should have access to information about the 
hazards these facilities present.
    Under the chemical accident provisions of 112(r), facilities must 
conduct hazard assessments, establish accident prevention programs, and 
bolster emergency response planning. These requirements are implemented 
by EPA's Risk Management Program regulations and are aimed at reducing 
the likelihood and severity of chemical releases. Facilities that are 
covered under these regulations must submit a Risk Management Plan or 
RMP. Under the law, these plans, except for Confidential Business 
Information, must be available to the public, the Federal Chemical 
Safety Board, and State and local officials involved in planning for 
and responding to chemical emergencies.
    Under EPA's regulatory requirements, by June 21, 1999, facilities 
that handle large quantities of very hazardous chemicals will submit 
Risk Management Plans to EPA for the first time. In these plans, 
facilities will describe how they will prevent or minimize chemical 
accidents and how they will promptly respond to accidents that do 
occur.
Listing Criteria
    Congress told EPA to regulate at least 100 substances ``which, in 
the case of an accidental release, are known to cause or may reasonably 
be anticipated to cause death, injury or serious adverse effects to 
human health or the environment.'' The law said EPA should use, but was 
not limited to, the list of extremely hazardous substances regulated 
under EPCRA. Furthermore, the law said EPA could modify the list of 
covered substances when the Agency thought it was appropriate to do so.
    The law specified the criteria EPA must consider in deciding 
whether to list a substance under section 112(r). Those criteria are:
    The severity of any acute adverse health effects associated with 
    accidental releases of the substance;
    The likelihood of accidental releases of the substance; and
    The potential magnitude of human exposure to accidental releases of 
    the substance.
    Concerns have been raised about EPA's decision to list flammable 
substances including propane, and other highly flammable substances 
used as fuel. EPA applied the statutory criteria and developed a list 
of 77 highly toxic and 63 highly flammable substances, that, based on 
their intrinsic hazard and regardless of their use, pose the greatest 
risk of harm to the public and the environment if they were 
accidentally released. In fact, accident history shows that accidental 
releases of several of the listed toxic or flammable substances have 
had a devastating impact on the public and the environment. Further, 
legislative history suggests that flammable substances, as well as 
toxic chemicals and other substances, that meet the statutory criteria 
for listing should be regulated under section 112(r) (see, e.g., report 
of the Committee on Environment and Public Works, U.S. Senate, 
accompanying S. 1630, Dec. 20, 1989, p.211, 219-20). Consequently, EPA 
believes that facilities that handle these highly toxic or flammable 
substances must take action to prevent accidental releases that could 
harm the public or the environment.
    At the same time this list was published, EPA issued a supplemental 
notice asking for comment on whether EPA should exempt flammable 
substances when used as a fuel. In particular, the Agency requested 
submission of any data showing that flammable substances when used as a 
fuel are less hazardous than flammable substances when used for other 
purposes. In response to that notice, no accident data were submitted 
to support such a finding, and EPA found accident data indicating that 
fuels were responsible for many accidents including several that 
resulted in deaths, injuries, and large scale evacuations and property 
damage. Propane is propane, regardless of whether it is used as a fuel 
or whether it is a process feedstock. Therefore, in the final Risk 
Management Program rule issued on June 20, 1996, EPA did not provide a 
fuel use exemption. That rule was submitted to Congress for review 
under the Congressional Review Act (subtitle E of the Small Business 
Regulatory Enforcement Fairness Act), and Congress did not act in 
response to that submission.
Major Accidents
    After Bhopal, the second largest industrial chemical accident in 
history occurred at a propane gas terminal in 1984 in Mexico City. 
Ruptures in several propane storage tanks caused an accident that 
killed 650 individuals and left 6,400 injured. The ruptures produced a 
fire ball estimated to be 1,200 feet in diameter. The heat from the 
rupturing tanks and the damage from flying tank debris allowed the 
release of more propane from other tanks. Some tanks weighing 20 tons 
skyrocketed, landing nearly 4,000 feet away.
    The United States also has experienced devastating accidents 
related to propane. On New Year's Eve 1998, an accidental propane 
release and fire at a facility near Des Moines, Iowa, resulted in the 
evacuation of 10,000 nearby residents and the closure of a major 
interstate transportation route. At least seven other major accidents 
occurred at propane facilities in 1998. In total, these accidents 
involved at least 4 deaths, 22 injuries, many thousands of dollars of 
property damage, community evacuations, and other offsite impacts.
    The hazard associated with propane and other highly flammable 
substances is not abstract or hypothetical. Accidents at propane 
facilities happen every year, and they often involve causes that are 
directly related to poor hazard control. The core elements of process 
safety management required by the Risk Management Program rule directly 
address such causes and prevent accidents. Risk Management Programs 
implemented by facilities, such as the one in Des Moines, will improve 
chemical safety in two ways. First, they will ensure that such 
facilities identify and address the hazards posed by their handling of 
flammable substances. Second, and equally important, they will provide 
information to the public about the risk of accidental releases and 
facilities' efforts to prevent and mitigate any releases. The 
availability of these plans is expected to stimulate communication 
among industry, local governments, and the public to improve accident 
prevention and emergency response practices.
    Consistent with the purpose of section 112(r), EPA provides 
national leadership and assistance to communities so that they will 
have the tools and expertise they need to receive, assimilate, and 
analyze all chemical accident prevention data, and to take appropriate 
measures to reduce chemical accidents.
Compliance Assistance
    EPA has labored to lessen the regulatory burden on industry and in 
particular small businesses. At the same time, EPA has been mindful of 
the fact that even a small business if it handles more than a threshold 
quantity of a hazardous chemical can have an accident that harms the 
public and the environment if the chemical is not used safely.
    To ease the regulatory burden on these facilities, EPA has prepared 
model plans for propane users and other industry sectors, which should 
make compliance with the Risk Management Program rule relatively easy. 
That guidance recognizes the safety practices embodied in existing 
industry standards, such as the National Fire Protection Association 
Standard 58, and encourages propane facilities to take credit for those 
practices when implementing their risk management program and preparing 
their risk management plan. EPA also distributes free software that 
makes preparation and submission of Risk Management Plans easy. And, 
EPA Regional offices hold workshops to help facilities answer 
compliance concerns.
    EPA has also provided guidance to help small propane users 
determine if they are subject to the RMP rule. Facilities with small 
tanks need to know when the amounts in their tanks must be added 
together to determine if the facility is subject to the rule. Tanks 
located close together can cause a domino effect if an accident were to 
occur. The guidance provides facilities with information about safe 
distances. According to EPA's information, most small users' tanks are 
likely to be far enough apart that they will not be subject to the 
rule. This guidance in combination with the 10,000 pound threshold will 
result in the exclusion of most of these small users.
Issues Raised
    Concern has been expressed that the Agency has reached beyond the 
intended scope of the Clean Air Act to regulate small businesses such 
as farms, restaurants, hotels, and other small-quantity commercial 
propane users that use relatively small amounts of propane. As 
mentioned previously, EPA believes the majority of these small-quantity 
users will not be covered.
    The principal intent of regulations issued under section 112(r) is 
to prevent and mitigate accidents at industrial facilities that present 
the most risk to the public. While accidental releases involving as 
little as 10,000 pounds of propane can easily affect workers, EPA is 
reexamining whether such releases generally constitute a serious risk 
to the public beyond the fence line. However, EPA believes facilities 
storing large quantities of propane, such as propane distributors and 
other industrial facilities, should submit Risk Management Plans. 
Accidents at these types of facilities have ranked among the most 
severe industrial accidents on record.
    And, while EPA encourages use of clean burning fuels such as 
propane, it is a highly flammable hazardous material and must be 
handled safely. Additionally, alternative fuels are likely to be 
regulated under other laws. EPA expects some inventory reduction to 
take place, but we believe that most businesses are unlikely to switch 
fuels in response to the relatively modest cost of implementing the RMP 
rule. We expect a small user to spend approximately $500 to comply with 
the rule.
Electronic Submission/Access
    Next, I want to address concerns about the availability of worst-
case chemical accident information on the Internet. To make RMP 
information more useful, EPA was urged by our stakeholders to collect 
and distribute that information electronically. Our experience with 
Emergency Planning and Community Right-To-Know Act implementation 
taught us that electronic data collection and distribution not only 
would be more efficient than collecting information on paper, but also 
that it would improve data quality and allow State and local 
governments to apply their limited program resources to use the 
information to reduce chemical risks rather than to manage the data.
    On November 6, 1998, following a lengthy debate, EPA announced that 
on the advice of security experts at the Federal Bureau of 
Investigation, the Central Intelligence Agency, the Department of 
Defense, the Department of Justice and others, we would not post the 
offsite consequence analysis data on the Internet. All other RMP 
information, except for confidential business information, will be 
available on the Web.
    Since November, some Members of Congress and others have expressed 
concern about what is being done to prevent someone other than EPA from 
posting the OCA data on the Internet. On February 10, I testified 
before the House of Representatives Committees on Commerce, 
Subcommittee on Health and Environment, and Subcommittee on Oversight 
and Investigations about the issue of public disclosure of OCA data. As 
I testified, the challenge before us is to determine how to provide 
citizens with the data they need to make informed decisions about 
reducing risk, while not providing an easy targeting tool. Therefore, 
the goal is to strike the proper balance between chemical risk 
reduction and national security.
    EPA is now engaged in an interagency process involving the Federal 
Bureau of Investigation, the National Security Council, the Department 
of Justice, the Office of Management and Budget and the National 
Institute of Standards and Technology to explore potential ways of 
striking that balance. We will keep you informed as those discussions 
progress.
    EPA also continues to work with an advisory committee of 
stakeholders to identify potential local sources of RMP data. This 
committee is considering using the facilities themselves, the State 
Emergency Response Commission, the Local Emergency Planning Committee 
(LEPC), or other State and local government sources. We also have met 
with the Library Programs Service of the U.S. Government Printing 
Office to discuss their providing access to all RMP data at 1,300 
Federal Depository Libraries nationwide.
    In addition, we are developing procedures for EPA's response to 
FOIA requests, such as:


    Contacting each requestor to inquire whether the individual is 
    seeking the entire data base and describing what information 
    already is publicly available on the Internet, which is all RMP 
    data except OCA;
    Asking whether the RMP data base without facility identification 
    information would suffice;
    Explaining the rationale behind EPA's decision not to post OCA data 
    on the Internet; and
    Asking whether providing the data in a format that would deter 
    copying or posting on the Internet would suffice.


    EPA understands that concern over information access and the risk 
of terrorism is not limited to RMPs. This, and other similar challenges 
will continue to present themselves as we move further into the 
Information Age. EPA is positioning itself to meet these challenges, in 
part, by creating a new, high-level office focused solely on 
information--information technology, information management and 
information policy.
    Even as we complete the design of this new office, EPA is 
committing to better understanding the broader issue of balancing the 
two important goals of encouraging health and environmental protection 
through public access to information and protecting national security. 
EPA's new information office will engage a broad range of stakeholders 
in a dialog on this and other information issues.
Conclusion
    EPA is committed to providing citizens with RMP information that 
will help them work with government and industry to protect themselves, 
their families, and their communities from chemical accidents and to 
make other informed decisions about their lives. The Agency also is 
committed to providing this information in a way that is responsible, 
and takes into account of the security concerns raised by the FBI and 
others. We will continue to work with all interested parties to meet 
this challenge.
    Furthermore, EPA continues to examine concerns raised to us about 
the regulatory burden of this rule. As I described earlier, we have 
responded to stakeholder concerns by producing tailored and detailed 
guidance, model plans, and free RMP software. We believe that these 
efforts will considerably ease the reporting burden and expense 
associated with the regulation. Our goal remains to protect human 
health and the environment, but we are ever vigilant that we must 
accomplish this goal in the most efficient and least burdensome way.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Responses of Timothy Fields to Additional Questions from Senator Inhofe
    Question 1. In a letter to 31 members of the House of 
Representatives Mr. Jim Makris in your Office stated, ``A business 
decision not to use such a chemical or to reduce its inventory to a 
level below that which poses a risk to the public would be in keeping 
with the purpose of the regulation itself--to reduce risk to the 
public.'' This implies that the EPA has intended all along to promote 
fuel switching.
    Response. EPA's intention in the risk management program is to 
reduce risk to the public posed by the potential accidental release of 
hazardous chemicals. EPA does not intend to promote fuel switching. EPA 
believes that owners and operators of regulated fuel facilities would 
consider a number of variables before considering the option of fuel 
switching. These variables should include the costs of replacing their 
current systems with a new fuel system; the regulatory requirements 
associated with other fuels; the impact of the other fuel on their 
business; and the cost and effort associated with compliance with EPA's 
risk management program.
    EPA does not believe that many propane fuel users will switch fuels 
when they have considered these variables. In order to ease the cost 
and effort associated with filing of risk management plans, EPA has 
several products designed to help propane fuel users comply with this 
regulation. EPA has made available two guidance documents and model 
risk management plans specifically written for the propane industry to 
explain the requirements of the RMP. Finally, for those who want to 
file their risk management plans electronically, EPA has posted free 
filing software on the EPA website.
    EPA also recently announced plans to raise the regulatory reporting 
threshold for hydrocarbon fuels (including propane) from the current 
threshold of 10,000 pounds to 67,000 pounds. The Agency believes that 
this new threshold would remove most propane fuel users from having to 
file risk management plans. EPA intends to issue a proposed rule 
raising the threshold by late May of this year.
    Question a. Please provide copies of any correspondence between 
your Of floe and the Of flee of Air and Radiation regarding the air 
quality effects of fuel switching.
    Response. For the reasons explained in response to the previous 
question, EPA does not believe that significant fuel switching will 
occur as a result of this rule. There is no correspondence on this 
issue between the Of lice of Solid Waste and Emergency Response and the 
Of floe of Air and Radiation.
    Question b. Please explain the Agency's position of encouraging 
fuel switching in reference to the above remarks.
    Response. As stated above, EPA neither intends nor believes that 
the risk management plan rule encourages fuel switching.
    Question 2. During the hearing, we had testimony from the 
President's of the American Farm Bureau and the National Propane Gas 
Association contradicting the EPA estimates of the number of facilities 
which will be required to report on propane. Apparently the North 
Carolina Department of Environmental Resources has estimated that 
11,000 farm facilities in North Carolina alone will be required to 
report. Please provide an updated EPA estimate of the number of propane 
facilities (all types of facilities) and an explanation for the 
discrepancies in the estimates.
    Response. The American Farm Bureau (AFB) and the National Propane 
Gas Association (NPGA) estimates not only contradicted EPA's estimates, 
they contradicted each other. NPGA indicated that 333,000 farms (50 
percent of all propane users ) were covered by the RMP rule while AFB 
suggested that 66,000 farms (10 percent of all propane users) were 
covered. No analytical basis for the percentages used to derive either 
estimate was provided.
    The North Carolina letter did not say that 11,000 farm facilities 
in NC would be required to report. It said that 11,000 tobacco farms in 
NC use propane. The letter did not consider EPA's original reporting 
threshold of 10,000 pounds, and was written before EPA's announced 
intention to raise the threshold to 67,000 pounds (the approximate 
storage capacity of an 18,000 gallon propane tank). The letter also 
acknowledged that most tobacco farms are not inspected by the North 
Carolina Department of Agriculture because they do not store propane in 
excess of the amounts which trigger an inspection in North Carolina. 
The only hard data available on propane use in North Carolina indicates 
that 155 farms have propane in either single tanks of 2,000 gallons or 
larger or multiple smaller tanks adding up to 4,000 gallons or more. If 
NPGA's 11,000 estimate is to be believed, then 10,845 facilities in NC 
must have multiple propane tanks of less than 2,000 gallons 
individually, and between 2,380 and 4,000 gallons aggregate capacity. 
EPA believes that it is extremely unlikely that there are such a large 
number of facilities in this very narrow range of configurations, and 
that the 155 farms stated above is probably much closer to the actual 
number of covered farms in North Carolina.
    Furthermore, American Petroleum Institute (API) data on nationwide 
annual sales of LPG states that North Carolina consumes more propane 
for farm use than any other State except Iowa. Therefore, North 
Carolina is not representative of average State propane use by farms.
    EPA's estimate is based on various States which represent a greater 
cross-section of propane use. EPA estimated that the total number of 
propane users in the U.S. covered by the RMP rule to be approximately 
21,400 and the number of distributors to be about 12,500 for a total of 
33,900 facilities. These estimates are partly an extrapolation from 
data obtained from North Carolina, New Jersey and Texas and are 
consistent with additional information received regarding the number of 
covered propane facilities in other States, including Delaware, Nevada, 
and Oklahoma.
                               __________
Responses by Timothy Fields to Additional Questions from Senator Chafee
    Question 1. In your testimony you state: ``we received reports on 
more than 1000 propane accidents from 1987 to 1998.'' How many of the 
sites of those accidents would be covered in section 112(r) under the 
Risk Management Program?
    Response. Data from EPA's Emergency Response Notification System 
(ERNS) for the period 1987 to mid-March 1999, contains about 975 
reported incidents or accidental releases involving propane. About 50 
incidents were associated with transportation activities at a fixed 
facility while the remainder (925) involved fixed facility operations. 
The actual number of accidental releases is likely to be higher 
(>1,000) because propane releases are not currently required to be 
reported to EPA and the reports received were voluntary. Although the 
ERNS data does not indicate the amount stored or handled onsite, EPA 
believes that at least 450 incidents occurred at facilities that would 
be covered by the Risk Management Program (RMP). These incidents 
occurred at refineries and chemical companies (about 150) and at 
companies likely to be distributors of propane (about 300 at facilities 
like Amerigas, Ferrell Gas and Suburban Propane). These companies are 
most likely handling quantities greater than 10,000 pounds. Most of the 
remaining incidents most likely occurred at user sites and there is no 
way to judge the quantity handled and whether the site would be covered 
by the RMP.
    Question 2. Gasoline is explicitly exempted from the Risk 
Management Program. According to the ERNS data base, gasoline accidents 
have outnumbered propane accidents by nearly ten to one. As you know, 
the purpose of the RMP is risk reduction and accident prevention. EPA 
made the point that only the most flammable substances have been 
included in the Risk Management Program. However, flammability is only 
one component of risk. It is likely that more people are exposed to 
potential harm by 10,000 gasoline accidents than by 1000 propane 
accidents. Given this, why should propane be included in the Risk 
Management Program and gasoline excluded?
    Response. EPA listed only those highly flammable substances having 
a National Fire Protection Association (NFPA) rating of 4 because they 
have a higher likelihood of generating a vapor cloud explosion that can 
harm the community surrounding a facility. Substances receiving the 
NFPA rating of 4 are highly flammable and either exist in gas form or 
rapidly volatilize into the air. Although gasoline and other non-listed 
substances can readily burn and create fireballs or pool fires, they 
have lower NFPA ratings (3, 2, 1) because they aren't gases or they 
don't readily volatilize and are not as likely to create a vapor cloud 
explosion (please see the List Rule FR notices 59 FR 4478 and 61 FR 
16598). However, certain listed flammable substances are often mixed 
with gasoline (e.g. butane) especially to produce certain winter grade 
gasolines. Consequently, EPA explicitly exempted from threshold 
quantity determination regulated substances in gasoline to clarify the 
threshold determination exemption with respect to the NFPA 4 criteria.
    EPA's ERNS data base contains more reported gasoline releases 
because requirements under a number of environmental statutes trigger 
reporting of gasoline releases that are then subsequently recorded in 
ERNS; there are few reporting requirements for propane. Furthermore, 
the ERNS data base contains more reports for gasoline, because of the 
far greater amount of gasoline stored and transported in the United 
States. Although EPA's ERNS data contains more reported gasoline 
releases than propane releases, the sheer number of releases does not 
equate directly to exposure. Propane releases constitute a greater risk 
of offsite exposure than do gasoline releases because gasoline does not 
readily volatilize into the air in a spill; consequently fewer offside 
gasoline exposures will occur in comparison to propane. In events where 
fires occurred as a result of a gasoline spill, the effects of the fire 
were mostly confined to the site where the spill occurred. However, in 
large scale propane accidents in which explosions or fires occur, the 
magnitude of damage and exposure (deaths, injuries, evacuations, loss 
of buildings and businesses) or potential for damage and exposure is 
greater than for gasoline because of propane's flammability and ability 
to create a more powerful explosion.
    Finally, although gasoline and other less flammable substances are 
not covered by the RMP rule, owners and operators of facilities 
handling these substances still have a general duty obligation under 
the Clean Air Act to understand the hazards, design and operate a safe 
facility, prevent accidents, and mitigate the consequences of accidents 
when they do occur (see section 112(r)(1) of the Clean Air Act).
    Question 3. The EPA indicated facilities could avoid the need to 
make submissions under the Risk Management Program rule by separating 
tanks that are manifolded together and/or by reducing the volume of 
propane stored onsite at any one time. This could result in a large 
increase in the number of propane transfers as tanks run low more 
frequently and newly separated tanks will require multiple transfers. 
Since there are likely to be more transfers to comply with the 
standards what has the EPA done to assess the risks associated with 
such transfers?
    Response. EPA published guidance which indicates that facilities 
could avoid the need to comply with the RMP rule if smaller tanks were 
already separated. EPA noted that some facilities may choose to use 
this guidance to make the decision to separate their tanks, and 
cautioned that such actions be done in accordance with applicable 
standards. In regard to reducing the volume stored onsite, EPA simply 
clarified the existing criteria for applicability under the RMP rule, 
which is based on actual amount in a process, not maximum storage 
capacity. If the quantity used in a large storage tank is already less 
than the capacity of the tank and below the threshold quantity, then 
the process is not covered. Some propane handlers were misinformed and 
aggregated the quantities in all propane storage tanks on a site 
regardless of where they were located and they used the maximum 
capacity of the vessel rather than actual volume handled to determine 
whether they were subject to the rule. This clarification was provided 
to those handling propane who didn't realize their situation is such 
that they are not covered. Since EPA is promoting risk reduction and 
prevention of catastrophic accidents through the risk management 
program and plan, we believe that decisions to modify a facility that 
ultimately increase the risk of an accidental release primarily to 
avoid compliance with a rule violate the general duty clause of the 
CAA. The risks of such a move are the responsibility of the business 
owner and are neither promoted by EPA nor required by the risk 
management program rule. However, the risk management program and plan 
is a way for the business owner, employees, first responders and the 
community to better understand the risks and the means to reduce those 
risks so that the right decisions can be made. Many business owners 
have already successfully demonstrated their ability to manage the 
risks associated with the use and handling of a wide variety of highly 
hazardous substances.
    Question 4. It's anticipated that, to comply with this rule, many 
propane users would switch fuels. Many propane users may switch from 
propane to more polluting substances such as fuel oil. Has the Office 
Solid Waste and Emergency Response worked with the Office of Air and 
Radiation to determine the air quality effect of fuel switching?
    Response. EPA's intention in the risk management program is to 
reduce risk to the public posed by the potential accidental release of 
hazardous chemicals. EPA does not intend to promote fuel switching. EPA 
believes that owners and operators of regulated fuel facilities would 
consider a number of variables before considering the option of fuel 
switching. These variables should include the costs of replacing their 
current systems with a new fuel system; the regulatory requirements 
associated with other fuels; the impact of the other fuel on their 
business; and the cost and effort associated with compliance with EPA's 
risk management program.
    EPA does not believe that many propane fuel users will switch fuels 
when they have considered these variables. In order to ease the cost 
and effort associated with filing of risk management plans, EPA has 
several products designed to help propane fuel users comply with this 
regulation. EPA has made available two guidance documents and model 
risk management plans specifically written for the propane industry to 
explain the requirements of the RMP. Finally, for those who want to 
file their risk management plans electronically, EPA has posted free 
filing software on the EPA website.
    For these reasons, EPA does not believe that significant fuel 
switching will occur as a result of this rule. There is no 
correspondence on this issue between the Office of Solid Waste and 
Emergency Response and the Of lice of Air and Radiation.
    EPA also recently announced plans to raise the regulatory reporting 
threshold for hydrocarbon fuels (including propane) from the current 
threshold of 10,000 pounds to 67,000 pounds. The Agency believes that 
this new threshold would remove most propane fuel users from having to 
file risk management plans. EPA intends to issue a proposed rule 
raising the threshold by late May of this year.
                               __________
Responses by Timothy Fields to Additional Questions from Senator Graham
    Question 1. How many propane accidents have occurred since 1990?
    Response. Data from EPA's Emergency Response Notification System 
(ERNS) for the period 1990 to mid-March 1999, contains about 790 
reported incidents or accidental releases involving propane. About 40 
were transport related while the remainder (750) were at fixed 
facilities. The actual number of accidental releases is likely to be 
higher because propane releases are not currently required to be 
reported to EPA.
    EPA also collected information on 45 serious accidents (only 5 are 
included in ERNS) involving propane that occurred during the 1990's, 
identified from U.S. Newspapers. Accidents that occurred during 
transportation or involving small quantities that would not be covered 
by the risk management program rule were not included in this 
tabulation.
    Question 2. What types of damages did those accidents cause?
    Response. Some of the incidents resulted in fires and explosions 
which caused damage ranging from minor to complete loss of the 
building, business, equipment and vehicles worth millions of dollars. 
More importantly, 8 workers and first responders (firefighters) lost 
their lives, 122 were injured and thousands had to be evacuated from 
their homes and places of business.
    Question 3. What percentage of the total number of propane storage 
sites would you say have accidents on an annual basis?
    Response. Since accidental releases of propane are not currently 
required to be reported to EPA, the number of accidental releases that 
annually occur as a percentage of the total number of storage sites 
cannot be determined. As explained in response to question 1, EPA 
believes that the actual annual number of propane releases is higher 
than the number EPA has compiled based on reports to EPA's ERNS.
    Question 4. I understand that one of the points of contention 
between EPA and the propane industry is the cost for distributors to 
comply with this regulation. EPA contends that $50-$250 is an accurate 
estimate. On what factors are those cost estimates based? The propane 
industry contends that the true cost is between $1,000 and $8,000 per 
customer. How do you account for this discrepancy?
    Response. EPA does not contend that $50-$250 is an accurate 
estimate for the average cost for propane distributors to comply with 
the regulation. EPA's economic analysis for the RMP rule showed that 
Program 2 non-manufacturing facilities in general (propane distributors 
fall in this category) would likely spend between $231 to $1679 to 
prepare an RMP and supporting onsite documentation, assuming the 
facility was in compliance with existing codes, standards, and industry 
safety practices. Furthermore, in legal documents submitted to the DC 
Circuit Court of Appeals, National Propane Gas Association (NPGA) 
representatives made sworn statements that they estimated the average 
cost for the propane industry to comply with the RMP rule at $1000 
(rather than $1,000 to $8,000). Based on these estimates, there is not 
a significant discrepancy between the EPA and NPGA numbers.
                               __________
  Statement of Robert M. Burnham, Chief, Domestic Terrorism Section, 
         Federal Bureau of Investigation, Department of Justice
    Good morning Mr. Chairmen and members of the committee my name is 
Robert M. Burnham, and I am the current Chief of the Domestic Terrorism 
Section at FBI Headquarters. My current responsibilities include 
national oversight and management of the Domestic Terrorism Operations, 
Weapons of Mass Destruction and Special Events Management Programs. I 
previously served as the Assistance Special Agent in Charge (ASAC) of 
the Memphis Field Office of the FBI. I am pleased to have this 
opportunity to discuss the potential effects of electronic 
dissemination of chemical ``worst case'' scenarios'' data as detailed 
in section 112(r) of the Clean Air Act of 1990 (CAA).
    The CAA mandates that chemical facilities provide to EPA a Risk 
Management Plan (RMP), detailing their risk prevention mitigation 
plans. It encompasses the Off Site Consequence Analysis data which 
includes the Worst Case Scenario data for both toxic and flammable 
materials. The data requires distance to end point and population 
affected calculations which detail the size of a plume from a release 
and the potential population affected by the plume.
    The FBI is aware of the need to aggressively pursue environmental 
crimes, and fully supports the Clean Air Act (CAA) and the spirit of 
the Community Right to Know legislation. We understand the competing 
issues at stake here, between providing the necessary information to 
the community, which allows them to make informed decisions on local 
planning and preparedness issues, and limiting the risk associated with 
the distribution of information that can be used against those same 
communities in a criminal manner. The FBI has worked with the EPA to 
identify those sections of the Risk Management Plans (RMP) that we 
believe can be directly utilized as a targeting mechanism in a 
terrorist or criminal incident.
    By way of background, on December 14, 1997, representatives of the 
FBI were invited to a meeting at the EPA. It was at this time that the 
FBI first became aware of a plan by EPA to post the RMP, including the 
``Worst Case Scenarios'', on the Internet. The FBI contacted other 
Federal law enforcement and intelligence agencies, as well as the 
Environmental Crimes and Terrorism Violent Crimes Sections of the 
Department of Justice, to discuss issues raised by the EPA's Internet 
distribution plans.
    Of great concern to the FBI at the time, was a case in 1997 case 
that highlighted the potential danger associated with a criminal attack 
on a chemical facility. The FBI case, code named SOURGAS, involved four 
KKK members who plotted to place an improvised explosive devise on a 
hydrogen sulfide tank at a refinery near Dallas, Texas. The FBI was 
able to infiltrate the group prior to the attack. A surveillance tape 
shows two of the subjects discussing the potential death of hundreds of 
area residents. At one point when the discussion turned to the children 
who may have become victims, one subject turned to her husband and said 
``if it has to be. . . it has to be''. This cold blooded killing was to 
take place merely as a diversion for an armored car robbery the group 
intended to commit on the other side of town.
    Although these individuals did not use the Internet to attack this 
facility, it illustrates a growing concern that individuals and groups 
are willing to utilize unconventional methods to achieve their goals 
and in the process, cause large numbers of casualties. This real life 
incident highlights better than any scenario we could create, how 
worldwide unfettered electronic access to this information could be 
used to facilitate a criminal or terrorist attack in the United States.
    The FBI applauds the gains made in accident prevention since the 
inception of the CAA and encourages the cooperation between industry 
and the communities that has brought about this reduction. We believe 
that providing this information to the communities in the appropriate 
manner contributes to an increase in safety in those neighborhoods. 
Through our discussions over the past year with the EPA, other Federal 
agencies and affected parties, the FBI has arrived at initial 
recommendations which we believe balance these concerns and give the 
communities, State and local agencies and the academic and research 
communities, appropriate access to this information. Those 
recommendations were provided to Congress in a report submitted by the 
FBI in October of last year.
    However, the FBI continues to work with EPA and other interested 
Federal agencies as part of an interagency group on how to achieve the 
appropriate balance between protecting the public from terrorist 
attacks and making RMP information available to the public. For 
example, representatives from the National Infrastructure Protection 
Center (NIPC) have met with EPA representatives and discussed options 
for secure transmission of the RMPs to State and local government 
agencies.
    There is concern that certain groups and individuals will acquire 
the information through lawful means and post it in its entirety on 
private Internet sites. The FBI as part of the interagency group has 
met to discuss this issue. Although this issue is currently under 
discussion by the interagency group, the FBI is concerned that under 
FOIA laws the RMP information, to include the Worst Case Scenario 
information, would have to be provided in electronic format if 
available . If that is the case, groups or individuals could acquire 
the information in this manner and reproduce it on the Internet. The 
net effect would be that these groups would undermine all of the 
efforts of the many agencies who have worked to bring a responsible 
approach to the dissemination of this information.
    The Internet provides fast and inexpensive methods for 
disseminating educational information and has the potential to be a 
tremendously positive force in the future. However from a terrorist 
threat analysis, providing unfettered electronic access to this type of 
information on the Internet could have disastrous consequences. The 
worst case scenario data alone, does not contain all the information 
necessary to carry out a terrorist attack, however in conjunction with 
the numerous sites already available on the Internet containing ``how 
to'' literature on bomb making, surveillance/counter surveillance and 
terrorist tactics and devices , it adds to the arsenal of potential 
criminals.
    Mr. Chairman, thank you for the opportunity to appear before you 
today. I would be happy to answer any questions you may have.
                                 ______
                                 
  Responses by Robert M. Burham to Additional Questions from Senator 
                               Lautenberg
    Question 1. New Jersey has several large chemical plants. If Risk 
Management Program's Right to Know program did not go forward, could 
you guarantee that there would be no terrorist attacks on these 
chemical plants.
    Response. The FBI has repeatedly stated that we fully support the 
Community Right to Know program and are convinced that this program has 
contributed significantly to the gains made in accident prevention and 
chemical safety over recent years. The FBI encourages the cooperation 
between industry and the communities that have brought about this 
success. We believe that providing this information to the communities 
in the appropriate manner contributes to an increase in safety in those 
neighborhoods. The FBI was asked to give a security assessment of the 
EPA's plan to disseminate the entire Risk Management Plan (RMP) on the 
Internet. It was the FBI's suggestion that the sections 2, 3, 4 and 5 
of the RMP, which contain the Worst Case Scenario data, not be made 
available on the Internet. The FBI however has supported the Internet 
distribution of the majority of the RMP information, and has suggested 
alternative methods for disseminating the Worst Case Scenario 
information.
    There is no way to predict the future target of a terrorist attack. 
The FBI attempts to prevent terrorism incidents through ongoing 
investigations and by vigorously pursuing indications of terrorist and 
criminal activities in the United States. However there is no way to 
guarantee the safety of the all of the private facilities in the United 
States from terrorist or criminal attack.
    Question 2. Assume the Right to Know program doesn't exist, but 
that a terrorist finds a chemical plant by driving by one or looking in 
the phone book. Do you believe that the average chemical plant in the 
country is sufficiently protected by terrorist attack?
    Response. The FBI has not done any study or research to determine 
the state of security of chemical facilities within the U.S. FBI 
Headquarters has instructed the Field Offices to contact major chemical 
facilities in their area and establish lines of communication with 
facility operators to encourage reporting of potential criminal 
activity to the FBI. This is not a formal study and no security 
assessment has accompanied this liaison.
    Question 3. Are there measures we should take, such as increasing 
site security, ``hardening'' hazardous operations from bombing attacks, 
or banning certain chemical operations from being located near 
residential areas, schools, or major roads.
    Response. As stated earlier, the FBI has not conducted any study to 
determine the current state of security at chemical facilities, and as 
such the FBI is not in a position to make specific recommendations 
regarding security at chemical facilities. In general however, the FBI 
is supportive of any measures which [Note: The written response to this 
question is incomplete in the committee record.]
                               __________
   Response by Robert Burnham to an Additional Question from Senator 
                                 Graham
    Question. Are there any alternative distribution mechanisms for 
risk management information that in any way reduce the likelihood that 
risk management information would be used to design a terrorist attack?
    Response. In previous responses to Congress the FBI has discussed 
recommendations that we believe would limit the utility of the Risk 
Management Plans (RMP) as a targeting tool. These recommendations are:
    The RMPs, minus the OCA data, would be available on the Internet. 
This would eliminate the targeting potential. This would however 
provide individuals with registration information regarding facilities 
in their area, Five Year Accident History, Prevention Programs, and 
Emergency Response information. This would be available in an open 
format.
    State and local government agencies would have access to all 
national RMP data via a closed computer system. This system may have 
resource implications involved, however, this will allow for up to date 
immediately available information to first responders and emergency 
planning agencies while protecting the information from improper 
dissemination.
    A compact disk (CD) of the information could be created for 
research and environmental organizations with all of the comparison 
data, without the identifying or contact information. This would allow 
for national trends to be analyzed and nationwide data to be studied, 
but would alleviate the potential for targeting of particular 
facilities based on this information.
    By implementing these methods, we believe that the appropriate 
parties will have access to the information necessary while limiting 
the potential for criminal use of this information.
                               __________
      Statement of Dean Kleckner, American Farm Bureau Federation
    Good morning, Mr. Chairman. I would like to thank you and the other 
members of the subcommittee for holding his hearing. I am Dean 
Kleckner, a hog and soybean farmer from Rudd, Iowa, and I serve as the 
President of the American Farm Bureau Federation, the nation's largest 
agricultural organization.
    As you know, Mr. Chairman, propane is an important commodity in 
rural America. It can be found on 660,000 farms and is widely used in 
various agricultural applications. These include crop drying, heating 
of livestock facilities, operation of crop protection devices (wind 
machines) and a host of residential uses. Each year, approximately 1.5 
billion gallons of propane are used for agricultural purposes.
    Demand for propane by farmers is driven by a number of factors. 
Most farms are located in areas beyond the reach of the gas lines that 
serve the typical urban consumer. Propane, while indeed a gas, is 
safely transported and stored as a liquid when subject to a modest 
amount of pressure. This characteristic is what allows farmers to enjoy 
the economic and environmental benefits of gaseous fuels.
    We strongly oppose the inclusion of propane as a covered substance 
subject to the Environmental Protection Agency's Risk Management 
Program (RMP). In deciding to regulate propane under this program, we 
believe EPA failed to consider the significant adverse effects which 
these regulations will have on hundreds of thousands of farmers 
nationwide.
Adverse Safety Consequences
    By adopting section 112(r) of the Clean Air Act Amendments of 1990, 
Congress specifically sought to reduce the risks associated with the 
accidental and catastrophic release of toxic chemicals. It is our 
strong belief that the original intent of Congress was to address 
substances used in manufacturing processes or other chemical 
applications, rather than those used as a fuel source. Unfortunately, 
EPA's decision to include propane, coupled with its decision not to 
grant a fuel-use exemption, has the effect of extending these 
regulations to consumers who use comparatively small volumes of this 
covered substance.
    The RMP rules require farmers and other propane users with more 
than 2,358 gallons of propane storage to complete and file risk 
management plans by June 21, 1999. While larger agribusinesses might 
have greater storage, a typical installation on a small farm would 
likely consist of anywhere from two to five 1000-gallon propane tanks 
or containers piped together. Having only three such cylinders would 
bring the farmer under the requirements of the RMP program.
    It is wrong to confront agriculture with new regulatory burdens and 
resulting compliance costs that are vague, misleading and fail to 
achieve the stated purpose of protecting the public safety. It is 
understandable that a significant percentage of users will try to 
lawfully avoid the burden of compliance by limiting their volume of 
onsite storage. This could be accomplished by simply instructing their 
propane supplier to reduce delivery volumes to an amount below the 
program's threshold level (2,385gallons). However, this will result in 
a significant increase in the number of propane deliveries.
    Although propane has a proven safety record, there is, in fact, 
some degree of risk associated with the storage and handling of any 
flammable fuel. Government agencies that are knowledgeable about 
flammable fuels understand that the risks associated with the 
transportation of flammable fuels are considerably higher than those 
associated with stationary storage. The RMP compromises safety because 
it shifts the emphasis from low risk stationary storage to the higher 
risk category of transportation.
    EPA's own incident data base of 157 incidents dating back to 1951 
confirms this point. Of the 31 incidents listed involving sites over 
the threshold level, 15 of them were related to transportation. None of 
the events listed could be confirmed to have involved the release of 
product from a stationary source located on a farm. It is at best 
ironic that a rule intended to reduce the risks of accidental releases 
will, in practice, result in an increase in the number of such 
incidents.
Distribution Disruptions
    A significant increase in the number of deliveries also will lead 
to serious fuel distribution difficulties, thus placing an additional 
burden on America's farmers. The propane distribution infrastructure is 
unique because of its cyclical nature. Demand for propane increases 
dramatically with the onset of the fall crop-drying season and 
continues throughout the winter season. At the end of the peak-heating 
season, demand for the product falls as precipitously as it rose 
several months prior. Seasonal fluctuations in demand mean that 
propane's distribution infrastructure is vastly underutilized for 
several months of the year. In the remaining months, however, the 
distribution infrastructure strains to meet the needs of seasonal 
customers.
    Subjecting propane to the requirements of RMP will increase the 
number of winter deliveries, thereby placing added pressure on an 
already overburdened infrastructure. The availability of this important 
commodity will be untimely and unnecessarily limited. This situation 
will be exacerbated by the winter driving conditions that are beyond 
the control of either the farmer or his propane supplier. This season 
alone, 15 States have issued emergency waivers relaxing Federal hours-
of-service regulations as a way to prevent interruptions in fuel 
deliveries brought on by winter driving conditions.
Regulatory Duplication
    Too often new Federal regulations are promulgated in a vacuum. They 
are considered as stand-alone requirements, rather than part of a 
comprehensive quilt of overlapping safety measures. Unfortunately, this 
is the case with EPA's Risk Management Program as it applies to 
propane. EPA appears to take the position that an industry is 
unregulated unless it is doing the regulating. The agency has failed to 
consider the vast extent to which propane is already regulated at the 
Federal, State and local levels. It failed to take into account the 
fact that propane installations are designed, constructed and 
maintained in accordance with the standards for the safe storage and 
handling of propane established by the National Fire Protection 
Association (NFPA). These standards have, in fact, served consumers 
well as a safe and effective accident prevention program.
    EPA's failure to give credence to existing safety standards 
violates the Federal standards adoption policy. The National Technology 
Transfer and Advancement Act of 1995 stipulates that ``all Federal 
agencies and departments shall use technical standards that are 
developed or adopted by voluntary consensus standards bodies, using 
such technical standards as a means to carry out policy objectives or 
activities determined by the agencies and departments.''
    Had NFPA and EPA sought to work with stakeholders to improve that 
standard to achieve its goals, we would not need to be here today.
Non-conformity with Other Clean Air Act Provisions
    Congress understood the importance of avoiding duplication and 
ensuring cross-agency conformity when it passed the Clean Air Act 
Amendments in 1990. Section 112(r) of the act authorizes the 
establishment of two companion programs dealing with onsite and offsite 
consequences. Authority for the workplace program (i.e., onsite 
consequences) was granted to the Occupational Safety and Health 
Administration of the U.S. Department of Labor; authority for programs 
relating to offsite and environmental consequences was granted to EPA.
    Mindful of the need for uniformity, Congress specifically 
instructed EPA ``to consult with the Secretary of Labor and the 
Secretary of Transportation and shall coordinate any requirements under 
this paragraph with any requirements established for comparable 
purposes by OSHA or DOT.''
    In 1992, OSHA established its onsite program known as the Process 
Safety Management Program (PSM). In doing so, it granted a fuel use 
exemption. Consumers who use covered substances as fuel sources are not 
required to comply with PSM requirements. EPA, when faced with the same 
option on its RPM, decided to oppose such an exemption. We believe it 
took this action in direct violation of the clear language of the 
statute.
    Furthermore, section 112(r) specifically authorizes an exemption 
for anhydrous ammonia, a toxic chemical, when used for agricultural 
purposes. Considering that propane, unlike anhydrous ammonia, is non-
toxic, it is baffling that EPA chose to list propane under RMP.
Burden of Compliance
    The Risk Management Program is complicated and highly technical. 
Risk management plans, which must be filed by June 21, 1999, are based 
on complex chemical release models. The Final Rule published by the EPA 
in June 1996, is 62 pages in length. EPA's guidance document for 
propane users is 24 pages. The general guidance document for risk 
management plans is 2 inches thick. With your permission, Mr. Chairman, 
I would like to introduce a copy of these documents into the record.
    We are aware of EPA's contention that in the final analysis, risk 
management plans will be only a few pages in length. We believe this is 
akin to arguing that a Federal income tax filing is only a few pages in 
length. Their analogy fails to acknowledge that it will take dozens of 
hours to collect and organize the appropriate data before a relatively 
brief plan can be completed.
    Because of the highly technical nature of the program, we believe 
that most covered farmers will find it necessary to contract with RMP 
service providers in order to meet their obligations under the rules. 
It is our understanding that the propane industry has compiled a list 
of vendors and the average cost of completing a risk management plan 
will be several thousand dollars per site. Even if only 10 percent of 
the 660,000 farm users of propane are required to file a plan, the 
total cost to the farm economy could exceed $100 million.
    While it is likely that many rural propane users will fall into the 
least rigorous compliance category (Program 1), the economic impact 
will remain high since a significant up-front cost will be incurred to 
determine the appropriate program level. Farmers who ultimately qualify 
for Program 1 coverage will still be required to complete a detailed 
offsite consequence analysis to determine their eligibility for this 
program level.
    It is quite clear that EPA failed to understand the full 
implications of its decision to include propane customers. EPA 
estimates that 66,000 sites are covered under RMP nationwide and that 
28,000 (42 percent) of those sites involve propane. In stark contrast 
to EPA's calculations, the North Carolina Department of Environment and 
Resources estimates there are 11,000 covered farm sites in that State 
alone!
State of Farm Economy
    Much has been said in recent months about economic conditions 
affecting the average farmer. Those of us who are involved in 
agriculture know that times are tough. We farmers and ranchers are 
willing to tackle those tough times, but now is not the time to place a 
$100 million compliance burden on farmers.
EPA's Modest Proposals
    We understand that in recent weeks EPA has recognized that its 
estimate of the number of affected farms was severely low. We 
appreciate and welcome EPA's overtures and believe they suggest a 
willingness to reduce the burden which the RMP rules place on farmers. 
We are concerned, however, that the proposals floated to date do not 
sufficiently address the issues presented in our testimony.
    EPA is apparently willing to consider altering the program guidance 
documents to address distances of non-interconnected tanks for the 
purpose of making threshold determinations. The relief provided by this 
action would be negligible since a substantial percentage of farm 
installations include multiple interconnected cylinders. Furthermore, 
regulatory guidance is not a substitute for regulatory text. EPA's 
current guidance document states, ``This document does not substitute 
for EPA's regulations, nor is it a regulation itself. Thus, it cannot 
impose legally binding requirements on EPA, States, or the regulated 
community, and may not apply to a particular situation based upon 
circumstances. This guidance does not represent final agency action, 
and EPA may change it in the future, as appropriate.''
    We are troubled by the fact that EPA could indeed change its 
guidance without the benefit of notice and comment.
Conclusion
    I appear before this committee on behalf of the hundreds of 
thousands of farmers now caught in this regulatory dragnet. In keeping 
with that responsibility, I would ask your indulgence to include in the 
record letters from 17 agriculture organizations whose views support 
the testimony I have given here today.
    In summary, Mr. Chairman, EPA's Risk Management Program as it 
pertains to propane is unsafe, contrary to the environmental goals 
established by the Clean Air Act, and will adversely affect hundreds of 
thousands of farmers nationwide. We urge this committee to act quickly 
to avoid these consequences before the June 21 deadline.
                               __________
    Statement of Jim Bertelsmeyer, National Propane Gas Association
    My name is Jim Bertelsmeyer and I am chairman of Heritage Propane, 
headquartered in Tulsa, Oklahoma. In my real life I run a propane 
marketing company, but I appear before you today as President of the 
National Propane Gas Association.
    NPGA is the national trade association representing the propane gas 
industry. The association's membership includes around 3,700 companies 
that market propane gas and equipment in all 50 States and in every 
congressional district. The single largest group of members are retail 
marketers of propane gas, but the association also includes propane 
producers, transporters, manufacturers and distributors of equipment, 
containers, and appliances. Propane is used in over 18 million 
installations nationwide for home and commercial heating and cooking, 
in agriculture, in industrial processing, and as a clean air 
alternative engine fuel for both over-the-road vehicles and forklifts.
    As strong advocates for increased alternative fuel usage in the 
United States, NPGA supported many of the goals and provisions of the 
Clean Air Act Amendments of 1990 and the Energy Policy Act of 1992. We 
continue to support the intent of these laws, but we cannot support the 
way in which they are being abused by the EPA. The unintended 
consequences of implementing the section 112(r) of the Clean Air Act in 
ways never envisioned by Congress have led us to this situation today.
    My statement today focuses on the many concerns the propane 
industry has with EPA's Risk Management Program (RMP) regulations, 
issued under authority of section 112(r) of the Clean Air Act 
Amendments of 1990. Our concerns are that EPA's rules will:


    duplicate an extensive and credible safety infrastructure that has 
    existed for decades in all 50 States without exception through 
    State building and fire codes;
    reduce safety in the propane industry by causing customers to 
    demand more small deliveries rather than the safer alternative if 
    fewer large deliveries;
    degrade air quality by stifling development of propane use as an 
    alternative fuel; cause propane users to switch to less 
    environmentally desirable fuels not similarly covered; and
    cost the propane marketers and customers vast sums of money for 
    little or no increase in safety.


    The remainder of this statement provides additional information 
supporting these concerns.
   propane facilities are already closely regulated at the state and 
                             federal levels
    Propane facilities, whether they be bulk storage plants owned by 
marketers or smaller storage facilities operated by customers, are 
subject to regulation in all 50 States through building and fire codes. 
These codes without exception adopt or incorporate Safety Standard 58, 
Liquefied Petroleum Gas Code, published by the National Fire Protection 
Association (NFPA).
    NFPA 58 is adopted by State agencies either by reference or by 
direct incorporation. Forty-eight States have adopted NFPA 58 by 
reference, which means that the State agency's rules simply require 
propane facilities to be designed, constructed, and operated in 
accordance with NFPA 58. The remaining two States (Texas and Arkansas) 
have adopted NFPA 58 by direct incorporation, which means that they 
have taken the substance of the standard and written it into their own 
building or fire codes. Both methods allow for code inspectors to 
determine compliance with NFPA 58, thereby ensuring they are operated 
as safely as possible.
    As a service to its members, NPGA recently published a new edition 
of the State Laws and Regulations Handbook, which summarizes the status 
of propane regulation in all 50 States. A copy of that document is 
attached to this statement for incorporation in the record.
    The propane industry also complies with the following Federal 
regulations:
    DOT's hazardous materials regulations, which as of October 1, 1998 
apply to both interstate and intrastate operations; OSHA's workplace 
safety rules, including the Process Safety Management (PSM) rules where 
applicable; and EPA's rules implementing the Emergency Planning and 
Community Right-to-Know Act of 1986 which requires facility data to be 
available to emergency responders and to the public.
               propane marketers actively promote safety
    The propane industry takes its safety responsibilities very 
seriously. Indeed, NPGA is now engaged with numerous other stakeholders 
in a major DOT regulatory proceeding that promises dramatic increases 
in safety. NPGA is proud to be an active participant in a negotiated 
rulemaking committee charged with updating delivery truck safety 
features and operating procedures for the safe unloading of propane at 
the customer's tank. The results of this reg-neg will be a significant 
jump in safety taking full advantage of both new technologies and the 
industry's commitment to safety.
    The propane industry voluntarily spends significant time and money 
training local fire departments all over the nation. Emergency 
responders need to be as highly trained as possible, and we are putting 
our money where our mouth is. This industry is spending $652,000 on the 
national level this year alone to develop a comprehensive training 
curriculum for emergency response personnel, which should be available 
for free later this summer. Furthermore, through the national 
association, we are adopting the safety recommendations of the U.S. 
Chemical Safety Board to upgrade the training materials available to 
the emergency response community.
   history of section 112(r) and epa's risk management program rules
    On November 15, 1990, President Bush signed the Clean Air Act 
Amendments of 1990 into law. Section 112(r) of the Act requires EPA to 
publish regulations to prevent and minimize the consequences of 
accidental releases of hazardous substances. EPA was to publish a list 
of at least 100 hazardous substances and implement a program whereby 
facilities using listed substances would make detailed risk management 
plans available to EPA and the public. EPA finalized its list of 
substances, which included propane, on January 31, 1994, and its Risk 
Management Program (RMP) regulations applicable to listed substances on 
June 20, 1996. Since NPGA comments were largely ignored by the Agency 
in both rulemakings, NPGA sued on August 18, 1996 seeking relief from 
the regulations.
    The RMP regulations establish three increasingly rigorous 
compliance paths for facilities having listed hazardous materials 
onsite in greater than threshold quantities. For propane facilities, 
the threshold quantity is 10,000 pounds or 2381 gallons at 60 degrees 
Farenheit. EPA's RMP rules cover all facilities, whether they be 
industrial, commercial, agricultural, or residential, having more than 
the threshold quantity of 10,000 pounds of propane onsite. The propane 
need not be in a single tank, or even in interconnected tanks. 2381 
gallons of propane is typically the amount that a small commercial 
facility would have, although there are many residences that have this 
amount.
    Program 1 participants must develop a worst-case scenario and 
analyze all releases over the past 5 years, and coordinate emergency 
efforts with local responders. Propane marketers will qualify for 
Program 1 if their worst-case scenario demonstrates that there are no 
``public receptors'' within range of the worst case scenario and if 
their 5-year accident history shows no deaths, injuries, or offsite 
restoration activities. The term ``public receptor'' means offsite 
residences, institutions such as schools and hospitals, industrial, 
commercial and office buildings, parks, or recreational areas inhabited 
or occupied at any time without restriction where members of the public 
could be exposed to radiant heat or overpressure as a result of an 
accidental release.
    Program 2 requires more detailed hazard assessments and 
implementation of prescribed accident prevention steps. Program 2 
participants must prepare at least one alternative release scenario 
that is more likely to occur than a worst case scenario. In addition, 
Program 2 participants must: (1) ensure that up-to-date safety 
information is available; (2) conduct a detailed hazard review of each 
facility; (3) prepare written operating procedures; (4) ensure each 
employee has been trained in the operating procedures; (5) maintain the 
mechanical integrity of all equipment; (6) complete compliance audits 
every 3 years; and (7) investigate each incident.
    Program 3 is the most rigorous and will affect those propane 
marketers who are covered by OSHA's Process Safety Management (PSM) 
regulations (i.e., do not qualify for the retail exemption). Program 3 
facilities must perform the same tasks as Program 2 facilities plus 
many others that are analogous, but not necessarily identical, to 
OSHA's PSM requirements.
    The Clean Air Act imposes both civil and criminal penalties for 
violations of EPA rules. For civil violations, EPA may impose monetary 
penalties of no more than $25,000 per day per violation. For knowing 
violations of the Act, criminal monetary penalties of up to $25,000 per 
day per violation and/or up to 5 years in prison may be imposed.
         epa's rules will degrade safety at propane facilities
    EPA's regulations, despite its ``motherhood and apple pie'' 
sounding requirements, will have unintended consequences that actually 
reduce safety. The unfortunate thing is that these unintended 
consequences are entirely foreseeable.
    It goes without saying that many propane customers will seek to 
reduce the amount of propane they store to levels below the 10,000 
pound threshold for coverage by the RMP rules. This will not, however, 
reduce customers' demands for timely deliveries of propane from their 
suppliers. Therefore, one of the major unintended consequences of EPA's 
RMP rules will be that propane delivery will be made much less safe. 
And since the industry's busiest time is during the winter heating 
season, these trucks will also have to deal with winter driving 
conditions that can be particularly challenging.
    Not only will customers decide on their own to keep their storage 
low or switch fuels, they will be counseled or actually forced to do so 
by government agencies. Two particular cases have arisen in California. 
First, the Orange County Certified Unified Program Agency stated in a 
letter to businesses, ``Should your business so choose, you may 
implement one of the following options in lieu of developing an RMP: 
(1) Eliminate or replace the Regulated Substance with a non-regulated 
substance, or (2) Reduce the amount onsite to below the Federal 
threshold quantity.'' Second, California Assembly Bill 172 was 
introduced by Assembly Member Firebaugh on January 15, 1999. The bill 
would prohibit after January 1, 2000 any person from commencing any 
process involving propane or any other regulated substance that is 
located adjacent to a school. Notwithstanding the fact that the bill 
lumps propane--a non-toxic substance--in with many other exotic and 
lethal toxic substances, many schools use propane themselves and will 
therefore be forced to switch to other fuels.
    Fuel switching is a reality. New information from the North 
Carolina Propane Gas Association shows that propane marketers in the 
State have already lost 213 customers, which is a demand loss of almost 
5 million gallons. Furthermore, 360 customers are expected to downsize 
their storage capacity to avoid compliance.
    While the industry prides itself on its excellent safety record, 
accidents do occasionally happen. But more often than not accidents are 
caused by or occur during transportation activities, which are not 
covered by the RMP rules. EPA's own data demonstrate that many more 
accidents occur during transportation than when propane is held for 
storage at a stationary site covered by the RMP rules. Conversely, 
EPA's data shows that (1) only a small minority of incidents occur at 
facilities targeted by the RMP rules, and (2) the majority of incidents 
are related to transportation activities not covered by the RMP rules.
    NPGA reviewed the data that EPA placed in the RMP rule docket to 
justify its decision to cover propane. The EPA data obtained by NPGA is 
an undated printout of 112 incidents logged by the Major Hazard 
Incident Data Service (MHIDAS) and 52 pages of reprinted news articles 
covering propane incidents. EPA's data includes incidents going all the 
way back to 1951, and even includes an incident from Japan. Of the 157 
incidents reviewed:
    Only 31 incidents (19 percent) could be confirmed to have occurred 
at what would have been an RMP-covered facility. Of the remaining 
incidents, 89 incidents (57 percent) could be confirmed to have 
occurred at a facility not covered by the RMP rules. The record was too 
incomplete to make a judgment on 37 incidents.
    Of the 31 incidents that occurred at RMP-covered facilities, only 
16 incidents could be confirmed to have not been caused by or during 
transportation activities. Of the 16 non-transportation related 
incidents at RMP-covered facilities, only 11 incidents (7 percent) 
could be confirmed to have had offsite consequences. This is a critical 
figure because prevention of offsite consequences is the fundamental 
reason for the entire RMP regulation. Moreover, offsite consequences 
included such purely precautionary measures as evacuations, so actual 
damage did not occur in all cases. Finally, EPA's record justifying the 
RMP rules includes 8 incidents (5 percent) where propane was either not 
involved or was found not to have leaked.
     epa's rmp rules will degrade air quality by burdening a clean 
                            alternative fuel
    EPA has adopted a regulation that will actually make air quality 
worse. Propane is a federally approved alternative fuel under section 
241 of the Clean Air Act and section 301 of the Energy Policy Act of 
1992. NPGA strongly supported enactment of these provisions by 
Congress.
    EPA's RMP rules will affect air quality in two ways. The first way 
is through actual fuel switching by customers to less environmentally 
desirable fuels that either are specifically not covered by RMP, such 
as fuel oil and electricity, or that are typically not stored in bulk 
quantities, like natural gas. Customers switch fuels for a variety of 
reasons. First, companies are considering switching fuels because the 
RMP rules are very complex and burdensome. Not only do they require a 
substantial initial investment to get into compliance, they require 
continuing allocation of resources to ensure continued compliance in 
the future. Remember, too, that companies will be urged in no uncertain 
terms by agencies like Orange County California's that fuel switching 
is a viable alternative to compliance. Second, companies are 
considering switching fuels because the RMP rules come with a high 
public relations price tag. What facility will feel its position in the 
community has been enhanced by the publication of information showing 
that an accident could devastate its neighborhood? Such information is 
a powerful incentive to switch fuels. And such information will be 
unnecessarily scary because EPA's modeling requirements, according to 
the National Fire Protection Association, will predict impacts far 
greater than an actual worst case release could produce.
    The second way EPA's rules will degrade air quality is through 
stigmatizing the use of propane as an alternative engine fuel. Propane 
is widely used as an engine fuel. Due to the low pollution 
characteristics of propane, more than 300,000 forklifts and other 
indoor vehicles use this fuel. In addition, over 80,000 bus, taxi, and 
delivery services and fleets are powered by propane. It is common 
knowledge that the alternative fuel vehicle industry remains in its 
infancy, and needs all the help it can get, especially in these times 
of unprecedented low gasoline prices. The RMP rules will erect just one 
more burden that propane needs to overcome as the industry strives to 
make widespread acceptance and commercialization a reality.
    Congressional interest in removing impediments to usage of 
alternative fuels has been strong and consistent. For example, on 
August 5, 1997, President Clinton signed the Taxpayer Relief Act of 
1987 into law which included a provision to remove tax-related burdens 
on propane use as an alternative fuel. Specifically, the Act included a 
provision providing propane and other alternative motor fuels Federal 
excise tax parity with gasoline. Under this provision, the effective 
rate of the Federal excise tax on these fuels should be the same as the 
rate on gasoline.
         epa vastly underestimates the reach of the rmp program
    EPA estimated in its final RMP rule that only 66,100 stationary 
sources would be covered by the entire RMP rule, which applies to 140 
different toxic And flammable substances.
    Subsequently, EPA estimated that approximately 28,000 facilities 
will be brought into the RMP program specifically because of propane 
storage.
    NPGA believes EPA's estimates to be spectacularly low. In 1991, 
NPGA commissioned a statistical survey of the propane industry, and the 
responses were compiled by the independent accounting firm Baldwin & 
Brooks. That study shows that 660,000 farms, 350,000 industrial and 
utility sites, and over 1 million commercial facilities use propane on 
their sites. Of these use sectors, we believe that 100 percent of the 
industrial facilities will be RMP-covered, 50 percent of the farms will 
RMP-covered, and 30 percent of commercial facilities will be RMP-
covered. This totals over 1 million RMP sites just for propane alone.
    Another indicator of the vast underestimation of the regulated 
community comes from North Carolina's Department of Environment and 
Natural Resources. The Department sent a letter to EPA on November 9, 
1998 stating that in North Carolina, approximately 11,000 farms use 
propane to cure tobacco. In other words, a single propane user sector--
farmers--of a single propane use--curing tobacco--in a single State 
totals nearly 33 percent of EPA's entire national estimate for propane. 
Add in the 12,000 marketer facilities that exist across the nation, and 
you've already accounted for over 80 percent of EPA's national 
estimate.
      epa also vastly underestimates the costs of the rmp program
    Many propane marketers and customers will need to rely on outside 
assistance to comply with the RMP rules, and their reasons vary. EPA 
protestations to the contrary, the RMP rules are complex and take 
significant amounts of time and effort to comply. A marketer may have 
numerous bulk storage facilities, or may have numerous customers who 
ask for help and advice. Most customers will be unprepared to comply 
from a technical standpoint.
    NPGA sought information on the fees being charged by 36 engineering 
consulting firms. 23 consultants declined to give figures. Of the 13 
firms who did provide fee estimates for RMP preparation, only two came 
in below $2000, while 11 firms were equal to or greater than $2000.
    Hourly fees ranged from $25-140, and daily fees ranged from $500-
2000. One firm said that RMPs could cost as much as $20,000! Most 
recently, a consultant stated during his presentation to the New York 
Propane Gas Association that a Program 2 RMP takes 30-70 hours to 
complete and costs from $3-5,000, depending on the amount of site-
specific preparation that has taken place.
    Even if a marketer or user chooses to avail himself of the EPA's 
free RMP submittal software or other compliance assistance tools, 
compliance with the RMP rules will drain scarce resources away from 
other activities that increase safety. For example, one propane 
marketer in Wisconsin sends its drivers to a special driving track 
where they learn how to handle their delivery trucks on frozen 
pavement. This is not a free activity, of course, and may well have to 
be dropped if the money must be spent complying with the RMP rules.
    NPGA has quantified the costs of the RMP program to propane 
marketers and customers. Our estimate does not include any fees 
assessed by those States that have taken over RMP enforcement from EPA, 
which can be hundreds or even thousands of dollars per site. While 
compliance with EPA's rules does not entail a fee, EPA explicitly 
recommended that all States adopt fees for administering the program 
for EPA.
    Using a conservative estimate of $1,000 per site in compliance 
costs, which includes direct costs such as consulting fees or computer 
software and also indirect costs such as company staff time, the RMP 
rules will cost:


    <bullet>  $330 million to the farm sector;
    <bullet>  $675 million to all other covered propane customers;
    <bullet>  $12 million to propane bulk storage plants.


    The bottom line is that the RMP rules are an expensive and 
duplicative paperwork exercise that will have little or no discernible 
impact on safety, but which will drain more than $1 billion away from 
marketers and their customers.
                 recent developments on npga's lawsuit
    NPGA has pursued all available avenues to obtain relief from the 
burdensome RMP rules, including filing a lawsuit on August 19, 1996. 
Despite industry's good-faith attempts to negotiate a settlement, the 
Agency has consistently rebuffed the industry. Most recently, EPA 
extended a 4-part settlement offer to make minor changes to the 
guidance documents and the rules specifically targeting rural 
agricultural users. NPGA rejected the offer on February 22, 1999 on 
both procedural and substantive grounds. Not only would the changes not 
have had the force of law, they would not have addressed the underlying 
issues of fuel switching and decreases in safety that have been 
detailed elsewhere in this testimony.
    NPGA is prepared to brief the case, but we are unable to get a 
court date until October 1999 at the earliest. This is, of course, 4 
months after the compliance date for the RMP rules. We have formally 
requested EPA for at least a 1-year stay in the rules' effective date 
to allow resolution of the case. We are hopeful that the Agency will 
respond favorably, of course, but we are not optimistic.
                               conclusion
    Mr. Chairman, EPA's RMP rules should not cover propane. The rules 
will cause customers to switch to other less environmentally friendly 
fuels. The rules will decrease safety by increasing the number of small 
deliveries on America's roads. The rules will erect disincentives to 
use of a Congressionally approved clean air fuel. The rules will cause 
confusion in the marketplace by duplicating safety standards that have 
existed in all 50 States for many years. The rules will drain scarce 
resources away from real safety initiatives and into a paperwork 
exercise with few benefits. The rules are an expensive paperwork burden 
that are clearly not justified.
    Thank you for this opportunity to testify.
                                 ______
                                 
 Response of James E. Bertelsmeyer to Additional Question from Senator 
                                 Graham
    Question. I understand that one of the points of contention between 
EPA and the propane industry is the cost for distributors to comply 
with this regulation. EPA contends that $50-$250 is an accurate 
estimate. You contend that a more accurate figure is $1000-$8000 per 
customer. On what factors are your cost estimates based? How do you 
account for the major discrepancy in your numbers?
    Response. There are a number of costs to be borne by facilities in 
complying with the RMP rules, including direct costs such as software 
purchases or engineering consultant fees, and indirect costs such as 
staff time. NPGA believes that these compliance costs reach at least 
$1000 per site and quickly rise to $8000, or more in some cases. The 
$1000 figures is a conservative average estimate for facilities across 
the United States; it is by no means a maximum.
    NPGA reviewed the various software packages on the market and 
endorsed the program that best meets the needs and expectations of 
propane marketers and users. This software, manufactured by Dyadem 
Inc., costs $595 for NPGA members, which is a substantial discount from 
the published list price of $1500. Many companies are using this 
software rather than EPA's software because it is propane-specific; it 
includes integrated calculation and word processing features; and 
provides hundreds of help menus to assist users. None of these features 
is available in comparable form in EPA's RMP Submit software, so buyers 
report that the price is well worth it. It should also be noted that 
EPA's software has only become available in recent weeks to those 
placing orders for diskettes in January.
    Computer programs do not run themselves, nor do they collect the 
data to be input. NPGA estimates that it takes at least 25 hours to 
read and understand the rules; to collect and verify site information; 
and input the data into electronic form. Even if the costs of staff 
time are merely $20 per hour, the total direct and indirect costs to 
comply with the RMP rules will exceed $ 1000 if the Dyadem software is 
used. For those marketers who do not have computers and must therefore 
comply manually, we believe compliance will take much more time, 
perhaps even double. Remember, too, that Clean Air Act violations can 
cost the violator $25,000 per day, so marketers take extra time to 
ensure the information to be submitted is accurate and complete. 
Finally, marketers are acutely aware of the citizen suit provisions of 
the Clean Air Act, which expose them to legal liabilities of non-
compliance, so extra care and time is warranted.
    For those companies who choose to hire consultants to prepare 
compliance documents, costs will soar to the high end of our cost 
range. NPGA published in October 1998 a directory of consulting 
services that included information from 33 companies who were known to 
provide RMP compliance services. (A copy was provided to the committee 
for the hearing record.) Only 11 of the firms provided cost estimates, 
and of these, only 2 companies quoted costs less than $2000 per 
facility. The remainder quoted costs greater than $2000, with the top 
quote coming in at $20,000!
    Based upon the foregoing, NPGA believes that EPA's speculative $50-
$250 estimate is unrealistically low. Indeed, during an RMP 
presentation earlier this year in St. Louis, EPA estimated that RMP 
compliance would likely be hundreds of dollars higher than $250. NPGA's 
figures, on the other hand, are grounded in real world experiences in 
the field.
                               __________
                                    United States Senate,  
                 Committee on Environment and Public Works,
                                  Washington, DC, November 4, 1998.

The Honorable Carol M. Browner, Administrator,
Environmental Protection Agency,
Washington, DC 20410.

    Dear Administrator Browner: As you may know, the Environmental 
Protection Agency (EPA) is now pursuing an effort to implement many of 
the provisions of section 112(r) of the Clean Air Act, including the 
collection of Risk Management Plans (RMPs) from facilities handling 
substances listed under section 112(r)(3). This is an important effort 
to improve the safety of industrial chemical processes and I support 
EPA's effort. Also, I am encouraged by reports that EPA staff may have 
resolved the security concerns related to the management of the Offsite 
Consequence Analysis information related to the RMP's. However, I am 
concerned about the inclusion of fuels in EPA regulations developed 
under section 112(r).
    In promulgating a list of substances under section 112(r)(3) EPA 
included several of the most Flammable Fuels. The principal focus of 
this provision of the Clean Air Act is to reduce risks associated with 
chemical accidents. The catastrophic accidental release that occurred 
in Bhopal, India in 1984, together with subsequent accidental releases 
in this country, gave rise to a general concern about the need to 
prevent such accidents. The concern was related to chemical releases, 
not fuel explosions, and section 112(r) was the Congressional response 
to that concern.
    Nothing in 112, nor any other part of the CAA suggests that it 
should be regarded as a Federal fire safety law. Congress mandated the 
inclusion of 16 chemicals on the list to be developed under section 
112(r)(3). While some of these are flammable, the concern in each case 
was related to the use of substance in a manufacturing process or other 
application and not as a fuel source. Unfortunately, a significant 
number of substances included EPA's 112(r) regulations are highly 
flammable fuels that are not in widespread use due to their chemical 
properties. Risks from fuel explosions might more appropriately be 
regulated by the Occupational Safety and Health Administration, the 
Department of Transportation or State and local agencies.
    I recommend that you reconsider the decision to regulate fuels 
under section 112(r) and further request that EPA publish a notice in 
the Federal Register proposing to delay by six months the deadline for 
submission of RMPs for fuel substances listed under section 112(r) of 
the Clean Air Act. I believe that such a delay would provide the 
opportunity to reconsider the appropriateness of including such 
substances in the RMP process.
    Thank you for your kind attention to this request.
            Sincerely,
                                            John H. Chafee.
                               __________
                             Congress of the United States,
                           Washington, DC 20515, December 21, 1998.

The Honorable Carol Browner, Administrator,
U.S. Environmental Protection Agency,
Washington, D.C. 20560.

    Dear Administrator Browner: In adopting section 112(r) of the Clean 
Air Act Amendments of 1990, it was the intent of Congress to reduce the 
risks associated with chemical accidents. Unfortunately, in 
implementing this provision, the EPA has chosen to expand the scope of 
the program to cover entirely different category of flammable 
substances, such as propane.
    Propane is non-toxic, is listed in section 241 of the Clean Air Act 
as a clean alternative fuel, and is a vital energy source, particularly 
in rural America. By singling out propane from competing fuels such as 
electricity, fuel oil and natural gas, EPA is creating powerful 
economic and public relations incentives for customers to switch fuels 
to avoid the significant costs associated with the new regulations.
    We are further troubled that EPA has failed to consider the 
potential safety and supply consequences that this program is likely to 
have on the hundreds of thousands of farmers, consumers, and commercial 
users who depend on this important fuel. Farmers and small businesses 
may attempt to avoid coverage under the program by limiting their on-
site storage to an amount under the regulatory threshold. This will 
mean more deliveries resulting in a higher risk of winter distribution 
bottlenecks. It will also mean a higher risk of transportation related 
incidents, since winter driving conditions can be particularly 
challenging.
    It is difficult to avoid the ironies of this issue. The Clean Air 
Act was meant to encourage the use of cleanburning fuels like propane, 
but EPA's rules discourage the use of this fuel. Furthermore, section 
112(r) was intended to reduce the risks of accidental releases, yet 
EPA's rules may actually increase the number of incidents.
    We urge you to reconsider the Agency's coverage of flammable 
substances such as propane within the RMP rules. Moreover, in light of 
the June 21, 1999 compliance deadline, we also request your expeditious 
review of this matter so that this issue can be addressed legislatively 
if necessary.
    Finally, because of the timeliness of this issue, we ask that you 
respond to us no later than February 1, 1999.
            Sincerely, ,
Charlie Norwood,
Ralph Hall,
Mike Oxley,
Denny Hastert,
John Shimkus,
Bob Stump,
Jim Greenwood,
Ed Whitfield,
Richard Burr,
Bob Riley,
Cliff Stearns,
Spencer Bacchus,
Bob Barr,
Sanford Bishop,
Brian Bilbray,
Barbara Cubin,
Jim Turner,
George Radanovich,
Nick Smith,
Joe Barton,
Chip Pickering,
Larry Combest,
Jo Ann Emerson,
Pat Danner,
Roy Blunt,
Nathan Deal,
Rodney Frelinghuysen,
John Boehner,
Ted Strickland,
John Shadegg,
Doug Bereuter.
                               __________
                             Congress of the United States,
                             Washington, DC 20515, January 7, 1999.
Honorable Carol M. Browner, Administrator,
U.S. Environmental Protection Agency,
401 M Street SW,
Washington, DC 20460.
    Dear Administrator Browner: We write to alert you to a significant 
concern raised by many retail propane dealers throughout Nebraska. Your 
Agency is now pursuing an effort to implement provisions of section 112 
of the Clean Air Act, including the collection of Risk Management Plans 
(RMPs) from facilities handling substances listed under section 
112(r)(3). We are highly concerned by the inclusion of fuels in EPA 
regulations developed under section 112(r).
    Congress mandated the inclusion of 16 chemicals on the list to be 
developed under section 112(r)(3). While some of these are flammable, 
the concern in each case was related to the use of the substances in a 
manufacturing process or other chemical application and not as a fuel 
source. A number of substances included under section 112(r) 
regulations are highly flammable fuels but are not in widespread use 
due to their chemical properties.
    The propane industry already operates under regulations at the 
Federal, State and local levels. Nebraska operates under the National 
Fire Protection Association pamphlet 58, the Storage and Handling of 
LP-Gas. This safety code is an industry standard in 50 States. Most 
propane retailers also submit facility data to EPA and State/local 
emergency response agencies under Federal community right-to-know 
rules.
    We recommend that you reconsider the decision to regulate under 
section 112(r) and we request that EPA delay by six months the deadline 
for submission of RMPs under section 112(r). We believe this delay 
would allow appropriate congressional review of including specific fuel 
substances in the RMP process. We thank you for your attention to this 
matter.
            Sincerely,
Chuck Hagel.
Robert Kerrey.
Doug Bereuter.
Bill Barrett.
Lee Terry.
                               __________
                      Washington, DC 20515-3223, December 12, 1998.
The Honorable Carol Browner, Administrator,
U.S. Environmental Protection Agency,
401 M. Street, SW Room 1200,
Washington, DC 20460.
    Dear Administrator Browner: I am writing to urge you to exclude 
flammable fuels from any rules or guidelines you issue to implement 
section 112(r) of the Clean Air Act.
    The goal was to reduce risk of releases of toxic chemicals and to 
improve the ability of a community to respond if such releases 
occurred. The section was a response to the catastrophe in Bhopal, 
India and to subsequent accidents in the United States. Congress did 
not intend to regulate flammable fuels under this section, which were 
not at issue at the time and which raise different, albeit related, 
health and safety concerns than do toxic substances.
    Moreover, the decision to cover even relatively small amounts of 
propane will place an unnecessary regulatory burden on numerous small 
businesses and individuals whose tanks pose virtually no threat to the 
public.
    I believe section 112(r) is an important measure that will require 
significant time and money to implement. It is a waste of both the 
agency's and the private sector's resources to extend the coverage of 
section 112(r) to flammable fuels. I urge you to remove flammable fuels 
from the list of substances covered by section 112(r).
            Sincerely,
                                         Sherwood Boehlert,
                                                Member of Congress.
                               __________
            Orange County Certified Unified Program Agency,
                                                  January 14, 1999.

Mr. Dan Lower,
All Star Gas,
12600 Western Avenue,
Garden Grove, CA 92841.

    Dear Mr. Lower: Your business has been identified as subject to the 
requirements of the California Accidental Release Prevention (Cal-ARP) 
program found in Chapter 6.95, Article 2 Health and Safety Code, The 
Orange County Certified Unified Program Agency is authorized to 
Implement this program for the State of California. In addition, your 
business is also subject to the Federal program found in section 112(r) 
of the, Clean Air Act implemented by U.S. EPA.
    Your business is required to develop and implement a risk 
management program to prevent accidental releases of regulated 
substances that can cause serious harm to the public and the 
environment, You are also required to develop and submit a Risk 
Management Plan (RMP), which includes a summary of your risk management 
program. The RMP must be submitted to this agency and an electronic 
version submitted to U.S. EPA by June 21, 1999. We are requesting that 
your business contact this agency to schedule an RMP compliance meeting 
during the month of January 1999. These meetings are required pursuant 
to California regulatory requirements and to ensure that your business 
meets the federally mandated timeline.
    Should your business so choose, you may implement one of the 
following options in lieu of developing an 11W: 1. Eliminate or replace 
the Regulated Substance with a non-regulated substance. 2. Reduce the 
amount onsite to below the Federal threshold quantity, Note: This 
option may still require the development of an RMP pursuant to 
California law, but will delay the submittal process to a date beyond 
the June 21, 1999 dead line.
    If one of the above options is chosen you will be required to 
verify compliance prior to the June 21, 1999 deadline.
    This agency is dedicated to assisting your business in meeting 
these new regulatory requirements. In the near future we will be 
providing technical/regulatory assistance as well as RMP guidance' 
documents. However, failure to develop and submit an RMP as required 
will subject your business to penalties of up to $10,000 per day. In 
addition, failure to contact and work with this agency during 
development of your RMP could cause costly revisions to be made during 
the agency review and evaluation period.
    Please contact James Hendron at (714) 667-3708 to schedule your 
meeting time and date or for questions related to this letter or your 
responsibilities under the Cal-ARP program,
            Sincerely,
                                           Pearl Hoftiezer,
                            Supervising Hazardous Waste Specialist,
                    Orange County Certified Unified Program Agency.
                               __________
                        the state of california
          1999 ca a.b. 172 california 1999-00 regular session
                         assembly bill no. 172
       introduced by assembly member firebaugh, january 15, 1999
    (1) Existing law provides that the program for the prevention of 
accidental releases of regulated substances adopted by the 
Environmental Protection Agency pursuant to the Clean Air Act is the 
accidental release prevention program for the State and requires the 
owner or operator of a stationary source to prepare a risk management 
plan when required under the Federal regulations or if the 
administering agency determines there is a significant likelihood of a 
regulated substance accident risk, except as specified. An RMP is 
required to give consideration to the proximity of various local land 
uses, including schools. Administering agencies are required to inspect 
stationary sources to determine compliance with this accidental release 
prevention program.
    This bill would prohibit any person from commencing any process, on 
and after January 1, 2000, involving a regulated substance at any 
facility that is located adjacent to a school. The bill would impose a 
State-mandated local program by imposing new duties upon the 
administering agencies that implement the accidental release prevention 
program.
    (2) The California Constitution requires the State to reimburse 
local agencies and school districts for certain costs mandated by the 
State. Statutory provisions establish procedures for making that 
reimbursement.
    This bin would provide that no reimbursement is required by this 
act for a specified reason.
    Vote: majority. Appropriation: no. Fiscal committee: yes. State-
mandated local program: yes.
                                 ______
                                 
THE PEOPLE OF THE STATE OF CALIFORNIA DO ENACT AS FOLLOWS:

    SECTION 1. Section 25534.3 is added to the Health and Safety Code, 
to read:
    25534.3. No person shall commence any process on and after January 
1, 2000, involving a regulated substance at any facility that is 
located adjacent to a school, as defined in Section 25534.1.
    SEC. 2. No reimbursement is required by this act pursuant to 
Section 6 of Article XIIIB of the California Constitution because a 
local agency or school district has the authority to levy service 
charges, fees, or assessments sufficient to pay for the program or 
level of service mandated by this act, within the meaning of Section 
17556 of the Government Code.
    Notwithstanding Section 17580 of the Government Code, unless 
otherwise specified, the provisions of this act shall become operative 
on the same date that the act takes effect pursuant to the California 
Constitution.
                               __________
       1998 proposed resolution--missouri farm bureau federation
 Adequate safeguards to meet public safety needs currently exist under 
                  Federal, State and local regulations
    We oppose U.S. Department of Transportation regulations that impose 
unnecessary and costly now equipment and labor requirements on the 
delivery of propane,
    We are opposed to regulations promulgated -under the Environmental 
Protection Agency's Risk Management Program that requires the 
development of comprehensive prevention and emergency response programs 
for propane storage. We believe the proposed regulations provide no 
additional safeguards and that existing Federal, State and local 
regulations adequately meet public safety goals.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                                 The Willmar Poultry Group.
                                                  February 4, 1999.

The Honorable David Minge,
United States House of Representatives,
Washington, DC 20515.

    Dear Representative Minge: I would appreciate your attention on a 
serious issue my company is facing regarding an EPA rule.
    My company, Willmar Poultry Co., has served our customers 
throughout the State for home heating, appliance needs and agricultural 
needs for many years. We pride ourselves on our safety record.
    Beginning June 21, 1999 propane facilities like mine that have 
tanks with over 2,381 gallons on their premises are required to submit 
to EPA a Risk Management Plan.
    Propane is a clean alternative fuel and is specifically listed as 
an alternative fuel in the Clean Air Act and the Energy Policy Act of 
1992. It is the only alternative fuel readily available throughout the 
United States. And now EPA wants to discourage its use. Forcing our 
industry to pay for a billion-dollar paperwork exercise will divert 
resources away from voluntary safety programs that really do work. EPA 
admits that most of its Risk Management Program duplicates existing 
requirements. Therefore, this program is nothing more than an expensive 
paperwork drill. The RMP rules have been directly responsible for many 
customers either foregoing a propane standby fuel system altogether or 
else changing to the use of a standby fuel that is not as efficient of 
environmentally clean as propane. Of course, propane's competing fuels 
are not covered by the RMP rules. Propane regulation and safety 
practices are so effective that you have only one chance in 33 million 
of being killed in a propane tank truck highway accident. By contrast, 
you have one chance in 15 million of being struck by lightning and only 
one chance in 2,500 of being in a car wreck that kills someone. Of 
course, no one is talking about setting up a Federal risk management 
program for cars!
    I urge you to act before the June 21, 1999 compliance deadline to 
remove flammable fuels from the list of RMP covered substances.
               Loel Larson, WPC Propane Department Manager.
                               __________
                                      Mrs. Peggy Parsons,  
                                         55 Church Highway,
                            Rogers City, MI 49779, October 5, 1998.

The Honorable Bart Stupak,
United States House of Representatives,
Washington, DC 20515.

    Dear Representative Stupak: I am writing to you because I am 
concerned about an EPA regulation being placed on the, propane industry 
that would also affect the agricultural industry in our district.
    I am the Presque Isle county president of the Michigan Farm Bureau. 
I have been farming for 10 years and a member of the Farm Bureau for 9 
years. I have just learned that by June 21, 1999, the propane industry 
must comply with an EPA regulation referred to as section 112(r) of the 
Clean Air Act Amendments of 1990.
    This will require any facility with 2,381 gallons of propane to 
produce and submit a worse case scenario to the EPA. This information 
will then be open to public access by being placed on the Internet. 
Because this regulation is based on storage capacities, many farms will 
also be required to comply.
    The propane industry and those who store propane already operate 
under strict regulation at the Federal, State, and local levels (safety 
standard #58 of the National Fire Protection Association and OSHA). We 
also submit facility data to the EPA and State/local emergency response 
agencies under Federal community right-to-know rules. This industry has 
a great safety record and the new regulation by the EPA will not 
increase it any more. While propane is already listed as a clean 
burning fuel, it is the only fuel being subjected to this regulation 
which could cost the industry up to $1.5 billion to comply. Its direct 
competitors (natural gas, electricity) are not covered by this 
regulation.
    The propane industry is not attempting to escape from needed safety 
precautions. The EPA regulations are simply a duplication of 
regulations already in place. Because of this, I urge you to support 
the following National Fire Protection Association Standard 58 as 
compliance with EPA's RMP regulations.
    Thank you for your time and consideration of this issue.
            Sincerely,
                                             Peggy Parsons.
                               __________
                                      Colorado Farm Bureau,
                                   Englewood, CO, October 15, 1998.

The Honorable Wayne Allard,
United States Senate,
Washington, DC 20510.

    Dear Senator Allard: Colorado Farm Bureau requests your help on an 
EPA issue that will have a negative effect on agriculture.
    The unnecessary regulation is going to ultimately result in higher 
costs of propane to ag producers. Many ag facilities rely on propane as 
their No. 1 fuel source. The increase in cost will also cause ag 
producers to examine switching to other fuel sources not covered by 
this regulation. This will be very costly and also increase this risk 
use of higher polluting fuels.
    Agriculture is facing a critical time economically and many smaller 
operations are just barely making ends meet. Further economic hardship 
caused by a rise in energy costs to them would be devastating . All 
that is possible must be done to protect our ag industry.
    Farmers and ranchers are not looking to reduce safety. They are 
simply seeking Congressional approval of NFPA 58 as a compliance 
alternative to the EPA's rules. Your assistance and support in this 
matter would be appreciated. Thanks you for your time and 
consideration.
            Sincerely,
                            Roger Bill Mitchell, President.
                               __________
         California Cotton Ginners and Growers Association,
                                       Fresno, CA, August 24, 1998.

    Dear Congressman: On behalf of the 100 cotton gins and over 2700 
cotton growers in the State of California, we are writing to request 
your assistance on a critical issue to those members of our Association 
who utilize propane. Specifically, our concern is over the 
implementation of section 112 of the Federal Clean Air Act, and its 
impact on the storage of propane.
    As of June 21,1999, facilities that store propane in excess of 
10,000 pounds (2,381 gallons) have to comply with the rules EPA has 
published to implement section 112(r) of the Federal Clean Air Act, and 
its impact on the storage and use of propane. Those rules will require 
those facilities to prepare and submit facility information including a 
conjectural worst-case scenario to the EPA. This includes what might 
happen if one of their propane tanks spontaneously and totally exploded 
regardless of whether of not it could actually occur.
    EPA's proposed regulations are duplicates of existing State 
regulations governing propane tanks. Therefore, we urge you to support 
legislation, which says that. companies in compliance with the National 
Fire Protection Association (NFPA) Standard #58 by definition, in 
compliance with EPA's risk management regulations.
    This is a critical issue to our industry and anyone who sues or 
stores propane in excess of 2,381 gallons. We would appreciate your 
support in aiding those efforts that will lessen the burden of 
duplicative regulation on the cotton industry.
             Roger A. Isom, Director of Technical Services.
                               __________
                        Illinois Pork Producers Association
                       Springfield, IL 62707-8642, October 9, 1998.

The Honorable John Shimkus,
United States House of Representatives,
Washington, DC 20515.

    Dear Congressman Shimkus: As president of the Illinois Pork 
Producers Association, I felt it was necessary to contact you regarding 
a regulation being placed on the propane industry by the Environmental 
Protection Agency.
    Under the Environmental Protection Agency's rules implementing 
section 112(r) of the Clean Air Acts Amendments of 1990, propane 
marketers and their customers with tanks greater than 10,000 pounds 
(2,381 gallons) of propane must prepare and submit by next June 
detailed facility information including a conjectural worst-case 
scenario to the EPA and the public, which will be place on Internet.
    Pork producers across our State rely on propane extensively in the 
correspondence of doing business on their farms. This unnecessary 
regulation will cause unneeded expense to our propane suppliers.
    Based on the foregoing, I urge you to act as rapidly as possible to 
provide an alternative means of complying with EPA's regulations based 
upon NFPA 58. There must be a better way to achieve the desired 
results.
            Sincerely,
                                 Rick Dean, IPPA President.
                               __________
                          Ohio Meat Industries Association,
                               Columbus, OH 43221, October 8, 1998.

Congressman John Boehner,
United States House of Representatives,
Washington, DC 20515.

    Dear Congressman Boehner: Under the EPA rules, propane marketers 
with tanks greater than 2,381 gallons must prepare and submit detailed 
facility information including a worst-case scenario. These will be 
published on the Internet. I do not see the benefit in publishing such 
sensitive information on the Internet where anyone can access it.
    The EPA rules will affect our members because it will affect the 
farmers and manufacturers who stock the shelves. If propane suppliers 
and big users are required to spend extra time and money to comply with 
the EPA rules, their expenses will tickle down to grocers and their 
customers.
    Propane marketers ad users already comply with local, State and 
Federal regulations. They abide by the National Fire Protection 
Association Safety Standard 58, with OSHA regulations and EPA 
regulations. Thus, the EPA Risk Management Plan will be redundant.
    Please support regulations that will not require additional 
reporting requirements and will not expose sensitive information to the 
public. No one is seeking to get out of safety regulations. It just 
seems that State propane regulations should suffice for compliance to 
EPA concerns.
    Thank you in advance for your support.
            Sincerely,
                    Kristin M. Corsale, Executive Director.
                               __________
                                  Ohio Poultry Association,
                               Columbus, OH 43229, October 7, 1998.

The Honorable John Boehner,
United States House of Representatives,
Washington, DC 20515.

    Dear Congressman Boehner: On behalf of the Ohio Poultry 
Association, I am writing to urge you to express opposition to the EPA 
Risk Management Plan to be enacted in June 1999. These rules promise to 
be an unnecessary burden to the propane industry and propane users like 
poultry farmers.
    The Ohio Poultry Association has over 200 members. Members include 
both poultry farmers and allied industries. Our members depend on the 
association to represent their interests. Many of our members use 
propane, and, some have tanks above the 10,000 pound threshhold. 
Directly or indirectly, the EPA regulations will affect poultry 
farmers.
    The EPA's Risk Management Plan is clearly not in the best interest 
of farmers.
    1. Safety will not be improved. If anything, the regulations will 
jeopardize the safety of farmers, of propane marketers, and of the 
general public. The plan required that detailed facility information be 
submitted and then be published on the Internet. Sensitive information 
will be available to everyone, including unstable people who might see 
an opportunity to do harm.
    2. Compliance will be costly. Research done by the National Propane 
Gas Association demonstrates that compliance for each facility will 
cost approximately $2,000. Although propane tanks on farms may not top 
the 10,000-pound threshold, propane marketers who supply the propane 
will be forced to comply. The extra cost of compliance will no doubt be 
passed on to farmers.
    3. The EPA regulations are an unnecessary duplication. Propane 
marketers and users already comply with National Fire Protection 
Association Standard 58 and the Emergency Planning and Community Right-
to-Know Act of 1986, as well as OSHA and DOT regulations.
            Sincerely,
             Jack L. Heavenridge, Executive Vice President.
                               __________
                                           National Grange,
                                                 28 September 1998.

The Honorable John H. Chafee,
Committee on Environment and Public Works,
United States Senate,
Washington, DC 20510.

    Dear Chairman Chafee: On behalf of the 300,000 members of the 
National Grange, the nation's oldest general farm organization, I would 
like to make you aware of a potentially detrimental situation. Under 
EPA's new Risk Management Plan (RMP) regulations, promulgated under 
section 112(r) of the Clean Air Act Amendments, a significant economic 
hardship will be imposed on tens of thousands of farmers across the 
country. The RMP regulations require users of propane who have more 
than 2,381 gallons onsite to file detailed risk management plans by 
June 21, 1999.
    Completion of these plans requires analysis based on highly 
technical chemical release modeling. EPA's compliance assistance 
document, which is currently underdevelopment, is 164 pages in length. 
Given the highly technical nature of the program, in most cases 
agricultural users will find it necessary to contract with outside 
engineering service providers to assist them with compliance, The cost 
of these services ranges from $1,000 to $8,000 per site, If 100,000 
farmers incur an expense of $ 1,000 per site, the compliance burden 
placed on the farm economy will exceed $100 million.
    Apart from the cost of developing Risk Management Plans, we are 
also concerned about the duplicative nature of the rules. Propane 
installations in all 50 States are designed, constructed and maintained 
in accordance with the standards for the safe storage and handling of 
propane published by the National Fire Protection Association. These 
requirements have for decades served as a reliable accident prevention 
program.
    As you know, Mr. Chairman, propane is an important commodity to the 
rural economy. It is widely used in numerous agricultural applications 
including cultivation and crop drying. In 1996., nearly 15 billion 
gallons of propane were used for agricultural.
    In view of the serious economic burden posed by the so regulations 
and mindful of the effectiveness of existing requirements, we urge you 
to consider legislating an alternative compliance path based on 
reliable and time-honored safe practices. Specifically, propane sites 
which are installed and maintained in uniformity with the standards set 
forth by the National Fire Protection Association, should be deemed in 
compliance with section 112(r) of the Clean Air Act Amendments.
    Thank you for you consideration, and continued support for 
America's farmers.
            Sincerely,
                   Kermit W. Richardson, Master (President)
              National Grange of the Order of Patrons of Husbandry,
                               __________
                                                  January 27, 1999.

Honorable Thomas Bliley,
Committee on Commerce,
United States House of Representatives,
Washington, D.C. 20515.

    Dear Mr. Chairman: In deciding to regulate propane under its Risk 
Management Program (RMP) rules, the Environmental Protection Agency 
(EPA) failed to consider the adverse effects which these regulations 
will have on hundreds of thousands of farmers nationwide.
    EPA's Risk Management Program is authorized under section 112(r) of 
the Clean Air Act Amendments of 1990. By adopting section 112(r), 
Congress specifically sought to reduce the risks associated with the 
accidental release of toxic chemicals. Unfortunately, EPA chose to 
expand the program to include flammables such as propane, an important 
non-toxic fuel that is used in a variety of agricultural applications. 
Nearly 1.5 billion gallons are used annually by farmers for crop 
drying, weed cultivation and animal breeding.
    The RMP rules require propane consumers with more than 2,381 
gallons storage to complete costly risk management plans and to file 
those plans with EPA by June 21, 1999. Even if many rural users of 
propane fall into the least rigorous compliance category (Program 1), 
the economic impact of these rules remains high since a significant up-
front investment may be made to determine the appropriate program 
level. Farmers who ultimately qualify for Program I coverage will still 
be required to undertake a detailed offsite consequence analysis to 
determine their eligibility for this program level.
    In addition to the economic impact, we are also deeply concerned 
about the potential distribution consequences of regulating propane 
under RMP. It is highly likely that many commercial users will seek to 
avoid coverage under the rules by limiting their onsite storage to a 
volume under the threshold level. This will lead to a significant 
increase in the number of deliveries, thus placing added stress on a 
delivery infrastructure that already strains to keep up with harvest 
and winter heating season demand. Distribution bottlenecks are another 
example of the type of unintended consequence that the Agency failed to 
consider when it formulated its rules.
    Mr. Chairman, we respectfully urge you and the members of the 
committee to reverse EPA's decision to include propane as a covered 
chemical under the Risk Management Program.
            Sincerely,
                        Agricultural Retailers Association,
                             National Farmers Organization,
                                           National Grange,
                                Alabama Farmers Federation,
                           American Farm Bureau Federation,
                                    National Farmers Union,
                            Texas Corn Growers Association.
                               __________
                               Iowa Farm Bureau Federation,
                     Des Moines, Iowa 50266-5997, February 2, 1999.

The Honorable James Leach,
United States House of Representatives,
Washington, DC 20515.

    Dear Congressman Leach: Congress and the administration made four 
promises to agriculture when it passed the 1996 Federal Agriculture 
Improvement Reform Act (FAIR Act). One of those promises was to provide 
regulatory relief to farmers. Instead of regulatory relief, farmers are 
getting a regulatory headache. The latest example is a proposal by the 
Environmental. Protection Agency to impose more regulations an propane 
users. The EPM Risk Management Plan is duplicative and will impose a 
heavy burden on farmers in Iowa and across the nation.
    The EPA proposes that any person that has more than 10,000 pounds 
of propane stored on any onsite must submit a risk management plan. 
This will affect most of Iowa's crop and livestock farmers. EPA is 
proposing the new set of requirements even though there are existing 
regulations to minimize the risk from storing and using propane.
    I look forward to working with you on this Issue and appreciate 
your help.
    Late last year, more 30 Republicans and Democrats Congressmen, led 
by Congressman Boehlert, asked EPA Administrator Carol Browner to 
remove propane from the Risk Management Plan rules. EPA has not 
removed. We need congressional action to stop this duplicative and 
unnecessary regulation on out farmers.
            Sincerely,
                                 Ed Wiederstein, President.
                               __________
                            Florida Farm Bureau Foundation,
                                                  December 2, 1998.

The Honorable Bob Graham,
United States Senate,
Washington, DC 20510.

    Dear Senator Graham: Propane is a valuable resource that provides a 
safe clean and economic energy choice for a variety of consumers. It is 
used in homes, businesses and farms. As of June 21, 1999, many users of 
propane will have to comply with rules EPA has published to implement 
section 112(r) of the Clean Air Act Amendment of 1990. Consumers who 
have more than 2300 gallons of propane onsite will have to provide a 
complicated onsite risk management program plan. .
    Compliance with this rule will highly complex, and EPA's best 
efforts to help have been to draft a 165-page instructional manual. 
Nationally, 660,000 farms use propane onsite for various things like 
drying crops, powering irrigation, and and heating livestock, nursery 
and poultry areas. Propane provides a cost efficient energy source on 
which many facets of Florida agriculture depend.
    Florida Farm Bureau would like to see some changes in the Risk 
Management Program that would allow Florida producers the opportunity 
to avoid the costly burden of these proposed rules. We also ask your 
help in limiting regulatory duplication by the implementation of this 
rule.
    Thank you for your attention to this matter.
            Sincerely,
                                   Carl B. Loop, President,
                               __________
                                        Kansas Farm Bureau,
                            Manhattan, KS 66503, November 18, 1998.

Hon. John Chafee, Chairman,
Commitee on Environment and Public Works,
United States Senate,
Washington, DC 20510.

    Dear Senator Chafee: On behalf of the 130,000 family members of 
Farm Bureau in the State of Kansas, I write to ask your assistance and 
that of your committee in addressing a problem with potentially 
significant economic hardship on farmers and ranchers.
    The U.S. EPA has promulgated rules implementing Sec. 112(r) of the 
Clean Air Act that would require users of propane--any consumer who 
stores 10,000 pounds or approximately 2,381 gallons of propane, 
agricultural, commercial, residential users and marketers--to comply 
with mandated provisions of a most complex nature. There is the 
requirement for a very detailed Risk Management Plan by next June. 
Given the very technical nature of the compliance assistance document 
and the rule in general, agricultural users of propane will likely find 
it absolutely necessary to contract with outside engineering service 
providers to assist them with compliance.
    We sincerely believe EPA should reexamine this whole issue. In 
particular, the Risk Management Plan should be reviewed. We look 
forward to any assistance you and your committee members can provide in 
this very important matter.
            Respectfully,
                                      Gary Hall, President.
                               __________
                           Nebraska Farm Bureau Federation,
                                                 December 28, 1998.

Senator Chuck Hagel,
Senate Office Building,
Washington, DC 20510.

    Dear Senator Hagel: I am writing to convey agriculture's strong 
concerns regarding the EPA's proposed regulations on propane users.
    As you may know, beginning June 21, 1999, propane facilities and 
users who have more than 2,300 gallons of propane onsite will be 
required to submit a Risk Management Plan to the EPA, Many farmers in 
Nebraska that have drying facilities or livestock facilities could be 
adversely affected by these requirements. In fact, a recent study done 
by the Nebraska Propane Gas Association showed that the total cost of 
compliance for the State of Nebraska would be about $8.75 million.
    These facilities are already complying with National Fire 
Protection Association Rule 58, which governs Nebraska's propane 
industry. This is a duplication of reporting procedures that are 
already in effect nationwide and will impose unnecessary expenses oil 
agriculture, propane marketers and the taxpayers.
    Agriculture is facing a critical time economically. With added 
expenses for compliance, many of the smaller operations will not be 
able to stay afloat. We must do everything we can to protect the ag 
industry, not create further economic hardships with duplicate 
regulations.
            Sincerely,
                                Bryce P. Neidig, President.
                               __________
                                          Farmer's Pride,  
                     Battle Creek Farmers Cooperative, N/S,
                          Battle Creek, NE 68715, October 14, 1998.

Senator Chuck Hagel,
1Russell Office Building,
Washington, DC 20510.

    Dear Senator Hagel: Have reviewed a copy of Mr. Jim Makris's 
(Director, Chemical Emergency Preparedness and Prevention Office, EPA) 
letter to Senator Hagel dated 9/28/98. We received a copy of the letter 
from the Nebraska Propane Gas Association, We appreciate the 
opportunity to respond to the letter and hope that you will consider 
our plea for help.
    The letter indicated that ``for propane marketers, the Emergency 
Planning and Community Right-To-Know Act of 1988 already requires some 
reporting to the State, and most importantly, the Local Emergency 
Planning Committee. However, the CAA requirements Passed by Congress 
establishes a critical link between prevention and right-to-know 
through a risk management program.''
    This statement clearly indicates how far out of touch the EPA is 
with conditions In the rest of the country, certainly in rural 
Nebraska. The critical link to Community Right-To-Know is the Local 
Emergency Response Committees.
    We have facilities in Madison, Pierce and Knox Counties in 
northeast Nebraska. This area was covered by a Wide Area Emergency 
Response Committee which has been dissolved. In none Of these counties 
is a Local Emergency Response Committee yet organized. There are no 
Local Emergency Response Plans In place.
    Why is our company required to send a report on a local issue to 
Washington, when the rest of the system does not exist? EPA has the 
responsibility to establish these organizations as viable local 
entities that represent wide constituencies (including local 
businesses). I'm sorry, they do not exist here. We send right-to-kmow 
information to mailboxes and they are stored in piles. EPA seems to be 
pretending that these entities exist as a viable means of communication 
on local issues. They do not.
    For the business constituency of the Community Right-To-Know there 
will be no communication, except for the information that is put on the 
Internet by EPA and interpreted by people with no knowledge or 
experience with the subject or who have an axe to grind for their own 
purposes. Industry has no one to communicate through. RMP is 
dangerously premature in rural Nebraska. Premature for the health and 
growth of the farm supply cooperative industry in Nebraska and 
premature for our company and our farmer owners and patrons.
    First, EPA needs to make sure that PERC's exist and are operating, 
before they take this very premature step in the evolution of this 
safety regulation.
    Mr. Makris further indicated that:

    ``there are no requirements under NFPA Standard 58 for written 
    maintenance programs, procedures to control change, or refresher 
    training for distribution plant operators and mechanics.''

    We suggest that these shortcomings (which are disputable) would be 
-much easier to fix versus placing a whole new layer of regulation on 
the industry.
    By what logic does EPA think that they can regulate better than can 
a Deputy State Fire Marshal. We do not believe that our company has 
ever seen an EPA inspector at any of our facilities. But we see the 
Deputy State Fire Marshall several times a year. We talk to him, listen 
to his Instructions, make changes that he suggests or orders. He is 
extremely conscientious in regulating our business for the safety of 
his and our communities. We welcome his input and expertise. EPA is a 
collector of papers. They do not regulate on a local basis. They just 
collect papers and reports. They certainly are totally out of touch 
with our business and I think most businesses in rural Nebraska.
    He also indicates if a business is subject to OSHA's PSM (Process 
Safety Management) it will have completed most of the RMP Prevention 
Program requirements. Unfortunately, most farm supply cooperatives, 
including our company, deal with anhydrous ammonia and propane on a 
retail basis and as such are not covered by OSHA's PSM.
    We do not need a better understanding of EPA's RMP. Our problem is 
that:

    <bullet>  This is a local regulatory issue. It can only effectively 
be an Issue that needs Washington's help, when Local Emergency Response 
Committee's are viable and there is a real Community Right-To-Know 
program in place.
    <bullet>  This regulation is premature, it will hurt our business 
and will severely hamper our farmer owners and patrons and our growth 
if it is not stopped by corrective regulation or by legislation.
    <bullet>  We do not need another layer of regulation--if 
regulations that are enforced locally need fixing, fix them--do not get 
people from Washington involved with local community preparedness, 
until they have done their homework.

    Mr. Makris' response to the NPGA while appreciated, simply is a 
statement of how out of touch this Agency is with your constituency. 
This issue needs corrective legislation. Its time is not yet ready, We 
hope your office can help us with this very important issue.
            Sincerely,
                          Terry Samuelson, General Manager.
                               __________
                                  Ohio Grocers Association,
                               Columbus, OH 43221, October 9, 1998.

Congressman Ted Strickland,
United States House of Representatives,
Washington, DC 20515.

    Dear Congressman Strickland: On behalf of the Ohio Grocers 
Association, I am writing to urge you to oppose the EPA Risk Management 
Plan (RMP) scheduled to be enacted in June 1999.
    Under the EPA rules, propane marketers with tanks greater than 2381 
gallons must prepare and submit detailed facility information including 
a worst-case scenario. These will be published on the Internet. I do 
not see the benefit in publishing such sensitive information on the 
Internet where anyone can access it.
    The EPA rules will affect our members because it will affect the 
farmers and the manufactures who stock the shelves. If propane 
suppliers and to spend extra time and money to comply with the EPA 
rules, tickle down to grocers and their customers.
    Propane marketers and users already comply with local, State and 
Federal regulations. They abide by the National Fire Protection 
Association Safety Standard 58, with OSHA regulations and other EPA 
regulations. Thus, the EPA Plan will be redundant.
    Please support regulations that will not require additional 
reporting requirements and will not expose sensitive information to the 
public. No one is seeking to get out of safety regulations. It just 
seems that State propane regulations should suffice for compliance to 
EPA concerns.
    Thank you in advance for your support.
Sincerely,
                        Kristin M. Corsale, Vice President.
                               __________
               General Assembly of the State of Missouri
                   house concurrent resolution no. 16
Relating to the Risk Management Program of the Environmental Protection 
                                 Agency
    BE IT ENACTED BY THE GENERAL ASSEMBLY OF THE STATE OF MISSOURI, AS 
FOLLOWS:
    Whereas, as required by section 112(r) of the Federal Clean Air 
Act, the Environmental Protection Agency has promulgated the Risk 
Management Program that requires the development of comprehensive 
prevention and emergency response programs for propane storage; and
    Whereas, adequate safeguards to meet public safety needs currently 
exist under Federal, State and local regulations; and
    Whereas, the Environmental Protection Agency's risk management 
regulations will I dramatically increase costs of doing business 
without increasing safety by: causing customers to switch away from 
propane, a federally approved clean fuel; duplicating State regulations 
based upon existing fire protection standards; duplicating Federal 
right-to-know regulations; and not providing a fuel use exemption 
similar to OSHA's; and
    Whereas, the EPA's rules cover anyone with mom than 2380 gallons of 
propane onsite, regardless of whether or not it is a single tank or 
connected tanks which could easily be exceeded by individual 
restaurants, farms and some residences; and
    Whereas, the costs, which is estimated to exceed one and one-half 
billion dollars private sector of complying with EPA's regulations will 
be staggering:
    Now, therefore, be it resolved that the members of the Missouri 
House of Representatives of the Ninetieth General Assembly, First 
Regular Session, the Senate concurring therein, hereby urge the 
Environmental Protection Agency to not include propane in the Risk 
Management Program; and
    Be it further resolved that the Chief Clerk of the Missouri House 
of Representatives be instructed to prepare properly inscribed copies 
of this resolution for the Missouri Congressional delegation.
                               __________
         California Cotton Ginners and Growers Association,
                                  Fresno, CA 93727, March 12, 1999.

Honorable Barbara Boxer,
United States Senate,
Washington, DC 20510.

    Dear Senator Boxer: As I am sure you are well aware, on March 16, 
the Senate Subcommittee on Clean Air, Wetlands, Private Property, and 
Nuclear Safety will be conducting a hearing on section 112(r) of the 
Federal Clean Air Act. This hearing is crucial to our industry, because 
the impact of this section of the Clean Air Act will be discussed. As 
this Association and its members have indicated to you in the past, the 
implementation of these requirements will do little to increase public 
safety, with regards to propane storage at end use facilities such as 
cotton gins and farms.
    Cotton gins and farms in California had to meet all building and 
fire codes when the storage tanks were installed, which stipulates 
compliance with National Fire Protection Association Standard NFPA 58. 
Furthermore, these facilities also have to submit hazardous materials 
business plans to the local administering agency, typically a county 
agency. In addition, these tanks are also required to comply with 
CalOSHA requirements, and are subject to CalOSHA inspection of the 
tank, safety program and training records every three years. Last, but 
not least, each of these facilities also has to have an emergency 
response plan coordinated through the local emergency responder. These 
requirements go above and beyond the requirements set forth in section 
112(r). The new law would require these facilities to duplicate 
efforts, and pay additional fees. The additional fees include: (1) a 
$120 per year State surcharge to the Office of Emergency Services, the 
State oversight agency; (2) a risk management plan review fee, assessed 
on an hourly basis; and (3) an annual program fee by the local county 
to cover additional inspections.
    We understand the need to prevent serious accidents and reduce 
serious risk to the public, but our industry's propane tanks already 
meet the strictest safety requirements around. It does not make sense 
to duplicate efforts and pay substantial fees for little or no benefit. 
We would respectfully ask that you give this issue every consideration 
during the upcoming hearing. Your support is truly appreciated.
            Sincerely,
             Roger A. Isom, Director of Technical Services.
                               __________
                                  Kings County Farm Bureau,
                                 Hanford, CA 93230, March 16, 1999.

Honorable Barbara Boxer,
United States Senate,
Washington, DC 20510.

    Dear Senator Boxer: On behalf of the Kings County Farm Bureau which 
represents the interests of over 1,000 farmers, ranchers and dairymen 
in Kings County, I would like to take this opportunity to present our 
concerns on the Senate Subcommittee on Clean Air, Wetlands, Private 
Property, and Nuclear Safety hearing.
    Today the Senate Subcommittee on Clean Air, Wetlands, Private 
Property, and Nuclear Safety will be conducting a hearing on section 
112(r) of the Federal Clean Air Act. This hearing is crucial to our 
industry, because of the impact the section of the Clean Air Act to be 
discussed.
    Farmers and the processors of their products in California had to 
meet all building and fire codes when the storage tanks were installed, 
in compliance with National Fire Protection Standard NFPA 58. They also 
had to submit hazardous materials business plans to the local 
administering agency. Additionally, these propane tanks and wind 
machines are also required to comply with CalOSHA requirements and 
inspections along with a safety program and training records every 
three years. These facilities also must have an emergency response plan 
coordinated through the local emergency responder. These requirements 
go beyond the requirements set forth in section 112(r). The new law 
would require these facilities to duplicate efforts, and pay additional 
fees. The additional fees include the following:

<bullet>  $120.00 per year for State surcharge to the Office of 
    Emergency Services, the State oversight agency.
<bullet>  A risk management plan review fee, assessed on an hourly 
    basis.
<bullet>  A annual program fee by the local county to cover the 
    additional inspections.

    Senator Boxer, we understand the need to prevent serious accidents 
and reduce serious risk to the public, but our industry's propane tanks 
and wind machines already meet the strictest safety requirements. It 
does not make sense to duplicate efforts and pay substantial fees for 
little or no benefit. We would ask for your consideration of these 
important issues during this hearing.
            Sincerely,
                                Charles Draxler, President.
                               __________
     North Carolina Department of Agriculture and Consumer 
                                                  Services,
                              Raleigh, NC 27611, November 23, 1998.

Mr. Jim Makris, Director,
Chemical Emergency Preparedness and Prevention Office,
Environmental Protection Agency,
Washington DC 20460.

    Dear Mr. Makris: The North Carolina Department of Agriculture and 
Consumer Services received a copy of a November 9, 1998, letter to you 
from Alan W. Klimek, P.E., of the North Carolina Department of 
Environment and Natural Resources, Division of Air Quality, concerning 
a request to exempt farmers from the 112(r) program when using propane 
in agriculture related activities. Although Mr. Klimek's letter 
addressed propane tanks used in the curing of tobacco, there are many 
other agricultural uses of propane, such as crop drying and heating of 
poultry and animal housing, and these uses should fall under the same 
exemption sought by Mr. Klimek.
    The North Carolina Department of Agriculture and Consumer Services 
is the Authority Having Jurisdiction for National Fire Protection 
Association Standard 58 (NFPA 58), the LP-Gas Code. This standard 
carries the weight of State law in North Carolina because it has been 
adopted by reference by the North Carolina Board of Agriculture. As 
such, we inspect every bulk propane plant in the State every year. If 
violations of NFPA 58 are found we issue an inspection report to 
instruct the operator of the plant to correct the violations within a 
specified period of time.
    Our records indicate that the vast majority of propane 
installations on farms do not meet the NFPA definition of a bulk plant; 
yet many of these farms have propane storage in excess of the amount 
covered under 112(r). In most cases, propane tanks are located in open 
areas significant distances from populated areas. Due to the general 
remoteness of these tanks, we believe that having to prepare a Risk 
Management Program for propane tanks on farms is not necessary.
    We support the request from the North Carolina Department of 
Environment and Natural Resources to exempt farmers from the 112(r) 
program. When using propane in agriculture related activities and we 
urge you to render a decision as quickly as possible.
    Please feel free to contact us if you have any questions. You 
should direct your questions to David Smith or Richard Fredenburg at 
919-733-3313. Thank you for considering our request.
            Sincerely,
                             James A. Graham, Commissioner.
                               __________
       nevada board for the regulation of liquefied petroleum gas
    Whereas, as required by section 112(r) of the Federal Clean Air 
Act, the Environmental Protection Agency has promulgated the Risk 
Management Program that requires the development of a comprehensive 
prevention and emergency response programs for propane storage; and
    Whereas, safeguards to meet public safety currently exist under 
Federal, State, and local regulations; and
    Whereas, the Nevada LP Gas Board, established in 1957 by the Nevada 
Liquefied Petroleum Gas Act, regulates the safe storage, distribution, 
dispensing, transportation and utilization of propane and the safe 
manufacture, fabrication, assembly, sale, installation and use of 
propane systems, containers, apparatus, and appliances in Nevada; and
    Whereas, since the establishment of the LP Gas Board, there have 
been no incidents resulting in loss of life or property related to any 
entity that would be subject to the EPA's rules; and
    Whereas, the EPA's rules cover anyone with more than 2380 gallons 
of propane on site, which could easily be exceeded by individual mining 
companies, industrial plants, casinos, schools, restaurants, hotels, 
farms, ranches, other businesses, and some residences; and
    Whereas, the Environmental Protection Agency's risk management 
regulations would not significantly increase the safety to LP Gas 
consumers over the present regulation of the LP Gas Board and the 
existing NFPA standards while increasing the costs of propane to the 
consumer; and
    Whereas, the Environmental Protection Agency's risk management 
regulations may cause customers to switch away from the clean burning 
fuel of propane; may duplicate State regulations based upon existing 
nationally recognized standards; may duplicate Federal right-to-know 
regulations; may not provide a fuel use exemption similar to OSHA's and 
may force consumers to use smaller storage volumes, necessitating more 
frequent transfers and thereby resulting in an increased risk to 
consumers;
    Now, therefore, be it resolved that the members of the Nevada Board 
for the Regulation of Liquefied Petroleum gas concurring herein, hereby 
urge the United States Environmental Agency to remove propane from the 
Risk Management Program; and
    Be it further resolved that the staff of the Nevada LPGas Board be 
instructed to prepare properly inscribed copies of this resolution for 
the Nevada Congressional Delegation, the United State Senate Committee 
on the Environment and Public Works, and Director of the Federal 
Environmental Protection Agency.
    Approved unanimously this 4th day of March, 1999.
                                   Bernard Sease, Chairman.
                                                   State of Nevada.
                               __________
       Board for the Regulation of Liquefied Petroleum Gas,
                        Carson City, Nevada 89702, October 9, 1998.

Congressman Ted Strickland,
United States House of Representatives,
Washington, DC 20515.

    Dear Congressman Strickland: On behalf of the Ohio Grocers 
Association, I am writing to urge you to oppose the EPA Risk Management 
Plan (RMP) scheduled to be enacted in June 1999.
    Under the EPA rules, propane marketers with tanks greater than 
2,3981 gallons must prepare and submit detailed facility information 
including a worst-case scenario. These will be published on the 
Internet. I do not see the benefit in publishing such sensitive 
information on the Internet where anyone can access it.
    The EPA rules will affect our members because it will affect the 
farmers and manufactures who stock the shelves. If propane suppliers 
and big users are required to spend extra time and money to comply with 
the EPA rules, their expenses will trickle down to grocers and their 
customers.
    Propane marketers and users already comply with local, State and 
Federal regulations. They abide by the National Fire Protection 
Association Safety Standard 58, with OSHA regulations and other EPA 
regulations. Thus the EPA Risk Management Plan will be redundant.
    Please support regulations that will not require additional 
reporting requirements and will not expose sensitive information to the 
public, No one is seeking to get out of safety regulations. It just 
seems that State propane regulations should suffice for compliance to 
EPA concerns.
    Thank you in advance for your support.
            Sincerely.
                        Kristin M. Corsale, Vice President.
                               __________
                                      HECLA Mining Company,
                 Coeur d'Alene, Idaho 83815-8788, October 14, 1998.

Senator Larry Craig,
United States Senate,
Washington, DC 20510.

    Dear Larry: This letter seeks your assistance in opposing EPA 
regulations that are burdensome to the Propane industry and will affect 
the storage facilities of propane on our mine sites.
    EPA's burdensome risk management regulations cover all facilities 
with more than 10,000 pounds of propane on site.
    Basically, the EPA is requiring a long, detailed report that is 
only adding additional expense to private businesses without any 
additional safety benefit.
    Commodity prices are already depressed, the mining industry does 
not need to add to its operational cost more unnecessary regulation by 
government.
    We don't mind complying with appropriate safety regulations. 
However, EPA's rules duplicate existing State regulations, and we 
believe that an alternative compliance method should be allowed. 
Therefore, we urge you to support alternative legislation providing 
that companies in compliance with the National Fire Protection 
Association Safety Standard 58 are by definition in compliance with 
EPA's risk management program regulations.
    Thank you for your time and consideration of these views.
            Sincerely yours,
W. Bill Booth, Vice President--Investor and Public Affairs.
                               __________
                                   Thieman Tailgates, Inc.,
                         Celina, OH 45822-1566, September 15, 1998.

Congressman John A. Boehner,
United States House of Representatives,
Washington, DC 20515.

    Dear Congressman Boehner: As a member of the National Propane Gas 
Association, I have been keeping abreast of the ERA risk management 
regulations scheduled to go into effect in June, 1999. I am writing to 
ask you to help establish some alternative method of compliance to the 
EPA regulations.
    Thieman Tailgates, Inc. manufactures hydraulic liftgates that are 
seen on the back of trucks and trailers that deliver propane gas and 
other equipment for the propane industry and other markets. Our company 
markets our liftgates to propane marketers nationwide.
    The EPA's risk management regulations will pose many problems for 
our customers, many of whom have tanks greater than the 10,000 pound 
threshold. Among the problems, as I see it, axe added cost to comply 
with the regulations and public disclosure of sensitive information on 
the Internet.
    To the best of my knowledge, the propane industry already operates 
under strict regulations at the Federal, State and local levels. I do 
not think that the industry needs more regulations imposed by EPA. 
Additional regulations will be an obstacle to their doing business and 
keeping their prices reasonable. This will indirectly effect my 
business with the propane industry.
    I know that my customers, many of whom are in your congressional 
district, are concerned about safety but I urge you to support a 
mechanism whereby compliance with regulations already in place will 
suffice for compliance with EPA's risk management regulations.
    Thank you for you time and consideration of the concerns of the 
propane industry and ancillary industries.
            Sincerely,
                      Bartt Suchlan, Marketing Coordinator.
                               __________
                              Intermountain Outdoor Sports,
                               Meridian, ID 83642, October 2, 1998.

Senator Craig,
United States Senate,
Washington, DC 20510.

    Dear Senator Craig: Our family has been in business for 20 years 
and we employ 105 people between our two Sporting Good Stores, We are 
thankful for the opportunity to own our business. We are fully aware 
that the employees that work for us represent families that depend on 
their income for support.
    I am writing to you today on behalf of all small business owners 
that are desperately trying to stay in business and to provide job 
opportunities for the community. As you are well aware, government 
burdensome regulations are The reason small businesses are closing 
their doors.
    I was very upset when I recently found out of one more attempt by 
government to interfere in private enterprise.
    Beginning June 21, 1999 propane facilities that have tanks with 
over 2,381 gallons on their premises are required to submit to EPA a 
Risk Management Plan.
    I fully expect that cost will be passed onto all of my customers 
that use propane for recreational purposes.
    It is my understanding that these new EPA requirements duplicate 
existing State safety regulations and that an alternative compliance 
method should address the safety concerns of the EPA. Therefore, I urge 
you to support legislation that provides companies with National Fire 
Protection Association standard 58 which are, by definition, in 
compliance with the EPA's risk management program regulations.
    Please get government off the backs of small business and tax-
payers.
            Sincerely,
                       Gerry Sweet, General Manager/ Owner.
                               __________
                            Mobile Tool International, Inc.
                           Westminster, CO 80030, October 15, 1998.

Senator Wayne Allard,
United States Senate,
Washington, DC 20510.

    Dear Senator Allard: As an employee-owner of a manufacturing plant 
I am deeply concerned as to how section 112(r) of the EPA proposed 
regulations to the 1990 Clean Air Act will affect my company and our 
customers. Mobile Tool International employs more than 350 individuals, 
manufacturing aerial lift equipment, and other equipment used In the 
utility and telecommunications industry.
    Although the EPA's proposed regulations would only affect 
facilities which store more than 2300 gallons of propane, our propane 
supplier will be affected. With the additional burden placed on them by 
the EPA In regards to duplicating the reporting which they already do 
at the State level, they will have no choice but to raise the cost of 
propane. We are large users of propane in a variety of ways. This will 
impact our profitability which could also raise the price of our 
equipment to the end-user.
    As employee-owners, we pride our-selves on building one of the 
finest line of products In the market, and being able to deliver those 
products to our customers at an affordable price. I believe in fair 
competition and competing on a level playing field. However, if our 
propane supplier is forced to comply with these regulations as written, 
they will be put at a great disadvantage with many of the other fuel 
sources which are not covered by these regulations.
    This regulation affects many people In many ways. I would 
appreciate your looking into this matter. Thank you.
            Sincerely,
           Penny Gagliardi, Sr. Production Control Planner.
                               __________
                               City of Waynesboro, Georgia,
                                                September 16, 1999.

Congressman Charlie Norwood,
United States House of Representatives,
Washington, DC 20515.

    Dear Congressman Norwood: This letter seeks your assistance in 
opposing an EPA regulation.
    I have been contacted by local propane dealers in my community 
about section 112 of the Clean Air Act. Propane dealers are already 
over-regulated by many government agencies. Of course, regulation is 
important to the safety of our community. However, when the EPA 
requires information that is already being provided by the National 
Fire Protection Association 58, the Community-Right-to-Know-Act of 1996 
and other Federal, State and local agencies it appears to be a real 
duplication of effort. Plus, the EPA providing confidential and 
sensitive propane facility information on the Internet is ludicrous, 
just the EPA's Internet requirement of publishing this type of 
information to a world of terrorists, criminals, "kids killing kids'' 
and mal-adaptive people is more of a hazard than any propane worst-case 
scenario.
    Please do everything you can to stop this over-regulation by the 
EPA and thank you for the time and consideration of my views on this 
issue.
            Sincerely,
                         Martin Dolin, Mayor of Waynesboro.
                               __________
                              City of Tallahassee, Florida,
              City Hall, Tallahassee, FL 32301, September 10, 1998.

Senator Bob Graham,
Senate Office Building,
Washington, DC 20510.

RE: EPA's proposed new regulations on propane gas

    Dear Senator Graham: As someone who uses propane gas, I am 
concerned about an EPA regulation that is being imposed on propane gas 
suppliers and large users. I feel this is going to needlessly increase 
costs without an increase in safety.
    All States--including Florida--have adopted safety regulations 
proposed by the National Fire Protection Association. Now, the EPA 
wants to impose additional regulations.
    One of my biggest concerns is the EPA wants detailed information 
regarding some users and suppliers facilities. Then the EPA is going to 
post this information on the Internet. It doesn't take much "surfing" 
of the net to realize there are a lot of people out there who could do 
great harm if they had access to this type of information. Therefore, 
instead of increasing safety, I'm fearful the EPA's regulations could 
potentially do great harm.
    In light of these detailed safety regulations that exist in all 50 
States today, I urge you to support a mechanism whereby compliance with 
NFPA 58 suffices for compliance with EPA's RMP regulations.
    Should you have any questions, please feel free to call me. Thank 
you.
            Sincerely,
                           John Paul Bailey, Mayor Pro Tem.
                               __________
                                       Office of the Mayor,
                               Wrens, GA 30833, September 10, 1998.

The Honorable Charlie Norwood,
House Office Building,
Washington, DC 20515.

    Dear Congressman Norwood: Recently, I learned from Henry Jones, 
Town and Country Gas, Inc., about an EPA regulation that is unnecessary 
and costly.
    Safety is important to everyone; however, the propane industry 
already operates under strict regulations at the Federal, State and 
local levels. Unnecessary government regulations only leads to 
increased costs in the private sector and the costs of complying with 
EPA's regulations will be staggering. Also, under these regulations the 
EPA will publish detailed facility Information on the Internet which 
will only give valuable information to terrorist and criminals intent 
on using this information for illegal and tragic ends.
    As a community leader, I urge you to act as rapidly as possible to 
stop this unnecessary EPA risk management regulation.
            Sincerely,
                                         J.J. Rabun, Mayor.
                               __________
                          Florida Public Utilities Company,
                 West Palm Beach, FL 33402-3395, December 22, 1998.

Honorable Bob Graham,
United States Senate,
Washington, DC 20510.

    Dear Senator Graham: Our company, Flo-Gas Corporation, a subsidiary 
of Florida Public Utilities Company founded in 1-924. employs 300 
workers in the State of Florida. Safety is the number one priority when 
running our company. However, recently the Environmental Protection 
Agency has unposed an extremely costly and time-consuming regulation on 
our business that will not increase: safety for our customers, 
employees, or the general public.
    Beginning June 21, 1999 propane facilities like ours that have 
tanks with over 2,381 gallons on their premises are required to submit 
to EPA a Risk Management Plan. The propane industry already operates 
under strict regulations at the Federal, State, and local levels. For 
example, all 50 States have adopted in some form, either directly or 
indirectly, safety standard No. 58 published by the National Fire 
Protection Association. OSHA regulates our company's workplaces, and we 
also submit facility data to EPA and State/local emergency response 
agencies under Federal community right-to-know rules. Our industry has 
an extremely good safety record and the new regulation will not 
increase it any more.
    Our company is not looking to escape regulations that truly enhance 
safety of propane installations. Indeed, that is the whole reason why 
States have incorporated NFPA 58 into their regulations. I, therefore, 
urge you to support legislation that recognizes compliance with NFPA 58 
as an alternative means of complying with EPA's section 112(r) rules.
    Thank you for your time and consideration of these views,
            Sincerely,
                         C.L. Stein, Senior Vice President,
                                               Flo-Gas Corporation.
                               __________
      North Carolina Department of Environment and Natural 
                                                 Resources,
      Division of Air Quality, Raleigh, NC 27604, November 9, 1998.

Mr. Jim Makris, Director,
Chemical Emergency Preparedness and Prevention Office,
Environmental Protection Agency,
Washington, DC 20460.

Subject: Applicability of 112(r) Chemical Accident Prevention 
    requirements for propane to Farms

    Dear Mr. Makris: The North Carolina Department of Environment & 
Natural Resources Division of Air Quality (DAQ) has been made aware 
that approximately 11,000 farms exist in North Carolina Which use 
propane to cure tobacco. The threshold for which farm propane is being 
used is such that the tanks are not inspected by the North Carolina 
Department of Agriculture (NCDA). The NCDA currently inspects propane 
users with tank sizes 2,000 gallons (8.400 pounds at 4.2 pounds per 
gallon) or larger and smaller tanks with an aggregate quantity of 4,000 
gallons. (16,800 pounds) or more. Many of the North Carolina farmers 
use propane in 500 or 1,000 gallon tanks with a total quantity on site 
greater than the 112(r) threshold of 10,000 pounds but less than the 
4,000 gallons inspected by the NCDA.
    Farmers were exempted from the 112(r) program when using ammonia as 
an agricultural nutrient. I believe after discussions with EPA Region 
IV that EPA never intended to subject farmers to the requirements of 
this program. Many NC farmers have land large enough that the distance 
to endpoint for a worst case release would not reach a public receptor. 
Since the toxicity of ammonia is far more dangerous than propane, the 
NCDAQ recommends that the EPA exempt farmers from the 112(r) program 
when using propane in agriculture related activities.
    Thank you for your consideration, and advise us of your decision. 
Please contact Mike Chapman at (919) 715-3467 for any additional 
information regarding this letter.
            Sincerely,
                                       Alan W. Klimek, P.E.
                               __________
                                    Scana Propane Services,
                             Darlington, SC 29532, October 9, 1998.

Congressman John Spratt,
United States House of Representatives,
Washington, DC 20515.

    Dear Congressman Spratt: You may not be aware of this fact, but 
propane gas is used extensively in the processing of tobacco. Many 
tobacco farmers are big customers of propane. It is my understanding 
that the EPA wants to impose new regulations that directly affect 
propane customers. The results of these regulations would be higher 
prices for propane and a needless duplication of safety rules.
    Propane is an extremely safe and efficient fuel. It is cost-
efficient as well. States and localities have regulations in place that 
govern the safe use of this gas. The propane gas industry voluntarily 
cooperates with governments, businesses and industries to ensure the 
safest possible use of this product.
    I do not have to tell you that with tobacco under assault from 
other quarters, the last thing we farmers need is another attempt by a 
government bureaucracy to heap needless regulations on us and raise our 
costs. I would request that you oppose the EPA's efforts to implement 
section 112(r) of the Clean Air Act.
            Sincerely,
                               George W. Abbott, President.
                               __________
                                    Scana Propane Services,
                                 York, SC 29745, September 3, 1998.

Lisa Bontempo,
National Propane Gas Association,
Washington, DC 20036, September 3, 1998.
    Dear Ms. Bontempo: I am writing to inform you of examples of fuel 
switching as a direct result of the impending EPA Risk Management 
Program (RMP) requirements. Our company serves numerous commercial and 
industrial facilities throughout North and South Carolina and we 
continue to hear from our larger customers about plans to do away with 
their propane systems due to RMP regulations.
    Bosch Corporation desires to remove the propane back-up systems 
from all of their plants across the nation due to RMP regulations. 
These systems are utilized during peak demand periods (primarily on the 
coldest days in winter) to replace the natural gas supply which is 
interrupted during these cold snaps so there is enough natural gas to 
supply the residential heating load. Bosch's intent is to go on a firm 
natural gas contract so they are not interrupted and therefore will not 
need to store propane on site.
    At Bosch's Charleston, SC plant, where they make antilock braking 
systems and fuel injectors, switching to firm natural gas service will 
cost approximately $75,000 per year more than having an interruptible 
service with propane as a back-up. I expect this cost is fairly 
representative of the approximately 50 plants Bosch operates across the 
nation.
    Bosch had hoped to consolidate their natural gas purchases among 
all plants and therefore reduce the cost of gas in this manner to 
offset the higher cost of firm delivery services. This may lower the 
cost of purchasing the gas at the wellhead, but having the gas 
transported to the burner tip on a firm basis is what drives the cost 
up over an interruptible service. Bosch is concerned about the 
potential increase in cost but may choose to accept it due to RMP 
regulations and the potential liability (public perception, lowered 
property values in the vicinity of their plants, risk of sabotage, 
etc.) that completing and submitting RMP's will bring upon their 
plants.
    At the Savannah River Site (SRS), which is a DOE-owned weapons 
grade plutonium site, they have lowered their on site propane storage 
levels to below the threshold limits (a mere 2358.5 gallons) due to RMP 
regulations. I don't know what they are utilizing propane for, due to 
the sensitive nature of their business, but they will likely require 
more deliveries (which increases the potential for an accident to 
occur) to maintain their energy supply.
    Kimberly-Clark, in Beach Island SC, desires to eliminate their use 
of propane as a backup supply to natural gas due to RMP regulations. It 
now appears that due to the substantial increase in the cost of a firm 
natural gas supply (similar to Bosch's), they are considering having 
RMP's completed for each plant site. The feedback they have gotten from 
the RMP consulting industry is to expect to spend $10,000 to $15,000 at 
each plant.
    As you can see, these regulations are having a tremendous impact on 
not only the propane industry, but on propane consumers as well.
            Very truly yours,
                                       Paul V. Norris, P.E.
                               __________
     California Department of Forestry and Fire Protection,
                      Sacramento, CA 94244-7460, November 18, 1998.

The Honorable Harry Waxman,
United States House of Representatives,
Washington, DC 20515.

    Dear Congressman Waxman: As Director of the California Department 
of Forestry and Fire Protection, Office of the State Fire Marshal, I am 
contacting you regarding the EPA's recent rule implementing section 
112(r) of the Clean Air Act. This rule would require facilities using 
hazardous substances to submit a detailed Risk Management Plan that 
would include an offsite consequence analysis describing the potential 
impacts of a worst case accidental release to the EPA. This information 
would then be made public via the Internet. The substances that must 
comply include propane gas that is used throughout California.
    Propane gas is currently covered under a myriad of regulations 
including California Building and Fire Regulations, the National Fire 
Protection Association's LP-Gas Code an the Federal Community Right-to-
Know rules. The State Fire Marshal's Office works closely with industry 
and the fire service to develop training for emergency response 
personnel and specialized response plans to deal with the unique 
characteristics of the substances covered by the rule to insure the 
public's safety.
    While my office supports the public's right-to-know, we believe 
that the widespread dissemination of the data via the Internet would 
provide a virtual "roadmap" to terrorists intent on creating havoc 
within the communities we safeguard. To that end, I urge you to delay 
further implementation of the Internet publication of the Risk 
Management Plan "offsite consequence analysis". Information and support 
legislation that allows compliance with existing rules and regulations.
            Sincerely,
                               Richard A. Wilson, Director.
                               __________
                                  Olive Road Flea Market,  
                                       Jackson Enterprises,
                          Brookville, OH 45309, September 21, 1998.

Senator Mike DeWine,
United States Senate,
Washington, DC 20510.

    Dear Senator DeWine: I felt it was absolutely necessary to contact 
you regarding a regulation being placed on the propane industry by the 
Environmental Protection Agency (EPA).
    I own and operate three large cow barns that I converted into a 
flea market. I heat these buildings with propane gas because the costs 
to have natural gas lines connected were excessive. Because these are 
large drafty buildings, I have four one-thousand gallon tanks on my 
property to provide a large enough storage to enable my propane 
marketer to keep me supplied in the wintertime without interruption.
    My propane supplier has recently informed me about EPA's rules 
implementing section 112(r) of the Clean Air Act Amendments of 1990. 
Propane marketers and their customers with total storage of greater 
than 10,000 pounds (2,381 gallons) of propane must prepare and submit 
by next June detailed facility information including a conjectural 
worst-case scenario to the EPA and the public, which will the be placed 
on the Internet. If I understand this program correctly, propane 
marketers and commercial customers such as myself will not have to make 
any changes to our propane systems, but will have to fill out a very 
lengthy and detailed report for the EPA. Among many other things, this 
plan must include an estimate of what might happen if one of the 
propane tanks on my property exploded. I don't understand how knowing 
this information, yet not taking any action to prevent it, is going to 
improve safety in any way. From my experience in getting my propane 
system installed a few years ago, the propane industry is already 
regulated by Federal, State and local codes. We had to take out 
permits, have inspections and pressure tests inside and out, and I felt 
the codes required a pretty thorough and safe process in the initial 
installation of these tanks.
    I am also concerned about getting this report filled out correctly, 
and who is going to pay for it. I am not in the propane business, and 
am certainly not in any position to fill out a technical report as 
detailed as this one appears to be. If my propane supplier is able to 
do this work, I am concerned about any additional cost, with apparently 
no increase in safety. I just don't see any purpose to this new 
regulation.
    My company is not looking to escape regulations that truly enhance 
the safety of propane installations. It just appears that this 
regulation is a duplication of codes already in effect, with an 
increased cost and no safety benefit. I therefore urge you to support 
legislation that recognizes compliance with the current regulations as 
an alternative means of complying with EPA's section 112(r) rules.
    Thank you for taking time to read my letter. Please give serious 
consideration to the concerns I've expressed.
            Sincerely,
                                           Richard Jackson.
                               __________
                                  Tabor Lumber Cooperative,
                                  Tabor, SD 57063, October 5, 1998.

Hon. Tom Daschle,
United States Senate,
Washington, DC 20510

    Dear Senator Daschle: EPA's burdensome risk management regulations 
cover all facilities with more than 10,000 pounds of propane on site. 
This is not that much propane, so these rules cover not only my bulk 
storage facilities but also most of my commercial customers as well. I 
am now starting to get calls from my customers who are reconsidering 
their usage of propane in light of the costs of complying with EPA's 
rules.
    My company is not looking to escape regulations that truly enhance 
safety of propane installations. Indeed, that is the whole reason why 
States have Incorporated NFPA 58 into their regulations. I, therefore, 
urge you to support legislation that recognizes compliance with NFPA 58 
as an alternative means of complying with EPA's section 112(r) rules.
    Should you have any questions, please feel free to call me. Thank 
you.
            Sincerely,
                                   Alois C. Ruman, Manager.
                               __________
                                          Ross Ranch South,
                            Tallahassee, FL 34308, October 2, 1998.

The Honorable Connie Mack,
United States Senate,
Washington, DC 20510.

    Dear Senator: This letter seeks your assistance in opposing an EPA 
regulation that is so burdensome that it is forcing us to consider 
switching to other fuels.
    We utilize propane on our ranch here.
    EPA's burdensome risk management regulations cover all facilities 
with more than 10,000 pounds of propane on site. This is not that much 
propane.
    I am proud of our safety record. We have never had a problem with 
propane and have an excellent safety record.
    In light of the detailed safety regulations that exist here in 
Florida as well as all other 50 States, urge you to support a mechanism 
whereby compliance with NFPA 58 suffices for compliance with EPA's RMP 
regulations.
    I hope we can count on your support on this issue and I look 
forward to hearing from you.
            Sincerely,
                                        Connor Ross, Owner.
                               __________
         Department of Housing, Buildings and Construction,
                       Frankfort, KY 40601-4322, September 2, 1998.

Representative Edward Whitfield,
United States House of Representatives,
Washington DC 20515

    Dear Representative Whitfield: On behalf of the Kentucky State Fire 
Marshal's Office--Hazardous Materials Section, I am writing with regard 
to an important domestic safety issue that has recently come to my 
attention.
    EPA has promulgated regulations under the Clean Air Act Amendments 
of 1990 that require covered facilities to develop risk management 
plans detailing sensitive facility specific information. These plans 
must be submitted by next June 21, 1999 and will be available to the 
public on the Internet. The rules cover many different substances, but 
this letter specifically addresses the rules as they pertain to propane 
because it is so highly regulated already.
    In my jurisdiction and elsewhere, propane is regulated by State 
safety and environmental laws. These laws and regulations impose hefty 
construction and other requirements on propane marketers and users to 
ensure accidents don't occur. I also know that my State and local 
emergency planning agencies, created by the Federal Emergency Planning 
and Community Right-to-Know Act of 1986 (EPCRA), collect substantial 
information from such facilities that is publicly available.
    I am supportive of the public's right-to-know about industrial 
facilities within a given community through laws like EPCRA, but I 
believe that EPA's rules are an exercise in regulatory overkill. This 
requirement will add more paperwork layers for all parties involved and 
will thereby divert attention and resources away from safety 
activities. There needs to be some balance between public knowledge and 
public safety, but EPA's rules will provide terrorist and other "ne'er-
do-wells" with a virtual roadmap to cause damage and havoc in my 
community. Remember, my organization and staff are the ones on the 
front lines of emergency response--let's not create more opportunities 
for them to be harmed. I am not alone in expressing these concerns, 
intelligence agencies such as the FBI, the International Association of 
Fire Fighters, the National Fire Protection Association, and the 
National Propane Gas Association have all raised their voices about 
this issue.
    I understand that Congress is likely to insert language admonishing 
EPA to work to resolve the domestic terrorism concerns in the bill 
funding EPA for next year. But my concerns go beyond this, and I 
believe that a stronger indication of Congressional concern on this 
important issue is warranted. I frankly can't believe that Congress 
would want EPA to overlay a completely new regulatory scheme on top of 
the State regulations that already exist to keep propane facilities 
safe.
    I support safety. I support appropriate regulations. EPA's risk 
management rules are not necessary, duplicative, and potentially a boon 
to terrorists. I therefore urge you to go beyond the Congressional 
report language and enact into law a one-year delay, at a minimum, on 
EPA's risk management program rules as they apply to the already highly 
regulated propane industry.
            Respectfully,
             G. Rodney Raby, Assistant State Fire Marshall.
                               __________
            [From the Alliance for Fair Energy Competition]
        The Flaws of Inclusion of Propane in the EPA RMP Regime
                      (By William H. Lash III \1\)
---------------------------------------------------------------------------
    \1\ Professor of Law, George Mason University. Distinguished Senior 
Fellow, Center for the Study of American Business, Washington 
University.
---------------------------------------------------------------------------
                              introduction
    What do Bhopal, India and your local Burger King restaurant have in 
common? To most of us the two are as different as night and day. One 
evokes the painful memory of a deadly, toxic chemical release the other 
is a symbol of a family outing for burgers and shakes. Yet the 
Environmental Protection Agency would cavalierly lump these two 
enterprises together and impose burdensome regulation originally 
designed for toxic chemical facilities on small family farms, hotels 
and restaurants. This study will discuss the EPA's expanded ``right to 
know'' regime and the threat it poses for the American economy, the 
propane industry and the environment. The planned EPA risk management 
program (RMP) will injure consumers, the environment and undermine 
safety efforts nationally.
                     expanded right to know program
    The expanded Community Right to Know Program is established under 
the Clean Air Act Amendments of 1990. Section 112(r) of the amended 
Clean Air Act established a new Federal mandate to focus on the 
prevention of and response to accidental releases of toxic chemicals. 
The objective is to prevent serious chemical accidents that have the 
potential to affect public health and the environment. Under these 
requirements, industry must develop and make public risk management 
plans (RMPs.).
    This legislation has its origin in the Bhopal, India disaster where 
a toxic chemical release killed and injured approximately 2000 people. 
However, according to Senator John H. Chafee (R-RI) congressional 
``concern was related to chemical releases, not fuel explosions.'' \2\
---------------------------------------------------------------------------
    \2\ Senator John H. Chafee, Letter to Honorable Carol M. Browner, 
Administrator, Environmental Protection Agency, November 4, 1998.
---------------------------------------------------------------------------
    Pursuant to the Clean Air Act Amendments of 1990, ``risk management 
plans'' (RMPs) must be written for more than 66,000 \3\ industrial 
facilities, including chemical plants, oil and gas refineries, 
pharmaceutical companies, electric and gas utilities, and waste water 
treatment works. Military and energy facilities of the Federal 
government also are required to establish risk management plans. The 
plans must include evaluations of the risks and hazards at each 
installation, as well as discuss accident prevention and proposed 
responses to an accidental release for any of 140 hazardous substances 
on site. Each firm also must develop an ``offsite consequence 
analysis'' (OCA). The OCA for each facility must analyze the dangers to 
the public and the environment of possible accidental releases. The 
most controversial part of these requirements is the preparation of 
``worst case scenarios.'' A worst case scenario must disclose: (1) the 
chemical or hazardous material that might cause the worst case scenario 
if released, (2) its physical state, i.e., gas or liquid, (3) the 
amount of the material that would need to be released to cause the 
situation. Unfortunately, in its regulatory zeal, the EPA has swept 
other unintended industry sectors into this program.
---------------------------------------------------------------------------
    \3\ The EPA estimates 66,000 firms will be required to develop RMPs 
for any of the 140 listed substances. This estimate is inaccurate. 
Analysis by the National Propane Gas Association demonstrates that over 
1 million facilities for propane alone will be included in the RMP 
regime.
---------------------------------------------------------------------------
    These evaluations also must identify possible aspects of a release 
leading to the worst case scenario. The topography of the area in which 
the plant is located and the reach of the effects of the release must 
be included. The description must estimate the number of people 
injured, killed, or otherwise ``affected'' by the release.
    Firms also must disclose their addresses and locations by longitude 
and latitude, the nature and amounts of hazardous materials on site, 
and the number of full-time employees at the site.
                            what is propane?
    Propane or liquefied petroleum gas (LP-Gas) is an approved clean 
fuel under the 1990 Clean Air Act Amendments and the National Energy 
Policy Act of 1992. It can be in either a liquid or gas state. Propane 
supplies 3 to 4 percent of U.S. total energy needs. Ninety percent of 
the United States propane supply is produced domestically.
    Propane is employed widely in a variety of fields. Approximately 60 
million people in the United States use 16.5 billion gallons of propane 
annually. In 1994 propane consumption followed this pattern:
    8.8million gallons for utility/gas industry usage,
    50.7 million gallons for internal combustion engine use,
    1.5 billion gallons for agricultural and other uses,
    5.4 billion gallons for residential/commercial purposes,
    9.0 billion gallons for chemical/industrial usage, and
    14.3 million American families use propane, with 5 percent 
utilizing these fuels as their primary heating source.
    Propane is indeed the most widely employed alternative fuel. Nearly 
4 million vehicles globally operate on propane. The United States is 
home to 10,000 public propane refueling stations and a network of 
licensed propane conversion centers nationwide. Due to the low 
pollution characteristics of propane, more than 300,000 forklift truck 
operators and other indoor vehicle operators use this fuel. Over 80,000 
bus, taxi and delivery services and fleets are powered by propane.
    Propane is probably familiar to most people as a recreational 
heating and cooking fuel. The Barbecue Institute of America reports 
that 84 percent of all U.S. households own a barbecue grill. Fifty-five 
percent of these households own a propane grill.
    On 660,000 American farms, propane is at work. Agricultural 
applications include crop drying, flame cultivation, fruit ripening, 
space and water heating, refrigeration and powering vehicles. Over 1 
million commercial firms including hotels and restaurants use propane 
as an energy source. Some 350,000 industrial facilities use propane as 
well.
 propane reporting requirements under an expanded right to know program
    Pursuant to the RMP regulations, three increasingly burdensome 
compliance regimes are established for listed materials present in 
amounts above a given threshold. For propane facilities, the threshold 
quantity is 10,000 pounds or 2,381 gallons at 60 degrees F. Program 1 
reporting requirements are less burdensome than Programs 2 and 3. Under 
Program 1, propane facilities must establish a worst case scenario and 
a 5 year release history. They must also coordinate their emergency 
response plan with local officials. To be classified as a Program 1 
participant, a propane facility must demonstrate that there are no 
``public receptors'' within range of the worst case scenario zone of 
impact. ``Public receptors'' are offsite residences, and other 
institutions such as school, hospitals buildings, parks or recreational 
areas inhabited or occupied at anytime by the public where the public 
could be exposed to radiant heat or overpressure from an accidental 
propane release.
    Program 2 involves a more heavily detailed evaluation of hazards 
and implementation of prescribed accident prevention steps. In Program 
2, propane facilities must:
    1. ensure that up to date safety information is available;
    2. conduct a detailed hazard review;
    3. prepare written operating procedures;
    4. ensure that each employee has been trained in the operating 
procedures;
    5. maintain the mechanical integrity of all equipment;
    6. complete compliance audits every 3 years; and
    7. investigate each incident.
    Program 2 also requires propane facilities to prepare at least one 
alternative release scenario that is more likely to occur than a worst 
case scenario.
    Program 3 has the most stringent and rigorous requirements. This 
program will affect propane facilities that are covered by OSHA's 
Process Safety Management (PSM) regulations. Under Program 3, covered 
propane facilities must perform essentially the same tasks as required 
under Program 1 and 2 plus many others that are analogous to OSHA's PSM 
requirements.
    There are several problems with propane being included in the RMP 
regime. The regulatory requirements of compliance with this program 
will unduly burden small businesses. Unlike large chemical facilities, 
most propane users that would be subject to the EPA regulation are 
small businesses, farms, hotels, etc. The National Propane Gas 
Association (NPGA) estimates that 330,000 farms will be covered by the 
RMP reporting regime. Another 325,000 commercial facilities also are 
threatened by the burdens of RMP reporting and 350,000 industrial 
facilities using propane will similarly be subject to RMP.
    These firms are not equipped with the bank of lawyers and experts 
needed to fulfill reporting requirements. In many cases, they will turn 
to their propane supplier and have them bear the costs of compliance or 
risk losing them as a customer. This will result in higher fuel costs 
and a deadweight loss.
    The technical expertise required for compliance will not come 
cheaply. Estimated costs of engineering or other service providers will 
range from $1,000 to $8,000 per site. Kermit W. Richardson, Master 
(President) of the 300,000 member National Grange estimates that ``if 
100,000 farmers incur an expense of $1,000 per site the compliance 
burden placed on the farm economy will exceed $100 million.'' \4\ Total 
cost of compliance with the RMP program for the propane industry is 
estimated at over $1 billion. But this figure doesn't take into account 
the losses to the industry from fuel switching caused by burdensome 
reporting requirements. Small and large propane users will shift to 
other energy sources to avoid needless regulation and paperwork. The 
costs of compliance will ultimately be passed onto consumers.
---------------------------------------------------------------------------
    \4\ Kermit W. Richardson, Master, National Grange, Letter to 
Senator John Chafee, September 28, 1998.
---------------------------------------------------------------------------
              environmental and safety implications of rmp
    Inclusion of propane in the right to know regulation will result in 
the loss of the benefits of propane, a clean fuel. Many propane users 
will be daunted and intimidated by the complicated reporting 
requirements. Right to know plans will unfairly place propane at a 
competitive disadvantage to other fuels, not burdened by expensive and 
excessive regulations. These propane users will be shifting to less 
clean fuels. This will lead to increased air emissions from fuel oil or 
coal fired generated electricity.
    Monitoring the millions of propane users will strain the EPA's 
capabilities and greatly increase the agency's workload. Identifying, 
reaching and counseling the thousands of rural propane users is a 
challenging task that the EPA is not up to. Both the monitoring of the 
RMPs of the propane industry as well as the increased air emissions 
from the inevitable regulatory fuel shift will leave the EPA unable to 
do its job or seeking additional budget increases. The earlier EPA 
estimates that 66,000 firms would be subject to RMP reporting fails to 
account for the over one million propane customers included in the 
reporting regime.
    Inclusion of propane in the RMP reporting regime also increases the 
risk of accidents. Propane customers, attempting to avoid the burdens 
of RMP reporting may shift to smaller tanks, will lower their on-site 
volumes below the threshold amount of 2,381 gallons. Smaller tanks with 
no decrease in mand will necessarily result in more propane shipments. 
Propane is in its safest state when sitting idle in storage. The time 
of transfer is when accidents are most likely to occur.
    Propane is in greatest demand during the fall and winter months. If 
customers seek to avoid the threshold by keeping their propane volumes 
below the threshold amounts, more trucks will be driving at the most 
hazardous time of year on icy rural roads. Such an increase in traffic 
will lead to a winter distribution bottleneck, increasing the 
likelihood of transportation and transfer related propane incidents. 
This is analogous to the regulation in Mexico City limiting the number 
of days when you could drive a car. The result was an increase in 
vehicle traffic emissions as people bought used, less environmentally 
sound cars to drive on alternative days.
    Inclusion of propane in the EPA RMP regime will also needlessly 
terrorize the public. The propane user who discovers that his/her tank 
is subject to the same requirements as toxic chemicals will be 
reluctant to maintain the fuel source. This will lead to further fuel 
shifting and damage to the propane industry. A Burger King on the 
corner using propane for cooking should not inspire the same sort of 
concern as a chemical plant next to a school or hospital. If propane is 
included in the RMP regime, local eateries and quaint hotels will be 
unjustly viewed by the public as unsafe as the 1998 Morton 
International, Paterson, New Jersey plant, which exploded in a toxic 
chemical reaction, blowing the lid off a mixing vat and spewing 
hazardous substances into its neighborhood. Property values will be 
unjustly and artificially depressed if propane users are viewed with 
the same suspicion as chemical plants.
    Consumers will also be threatened with delays in delivery during 
Winter storms. Customers keeping their onsite propane volume below the 
threshold amounts will run the all too real risks of running out of 
propane during peak consumption periods. Industry infrastructure will 
not be able to meet the increased volume of propane delivery demands 
during snow storms, leaving many consumers out in the cold, literally 
frozen by regulation.
       further regulation of propane is redundant and burdensome
    Inclusion of propane in the right to know regulation also burdens 
businesses with redundant regulation and will not decrease the 
potential for accidents to occur. Propane is currently regulated in all 
50 States through adoption of National Fire Protection Association 
(NFPA) \5\ standard 58. \6\ NFPA 58 is the standard that prescribes 
design, construction, and site operation requirements for all propane 
facilities. Forty-eight States adopt NFPA 58 by reference, while the 
remaining 2 States (Texas and Arkansas) have adopted the substance of 
NFPA 58 into their own rules. \7\ According to Gale Haag, Kansas State 
Fire Marshal, ``the track record with NFPA 58 has been very successful 
and because of the enforcement and education processes are already 
established, the regulated community and those effected indirectly 
appear to be satisfied that their needs are presently met. It ain't 
broke.'' \8\
---------------------------------------------------------------------------
    \5\ The National Fire Protection Association, NFPA, is a non 
profit, voluntary association devoted to fire prevention and safety.
    \6\ NFPA 58 Standard for the Storage and Handling of Liquefied 
Petroleum Gases.
    \7\ Gale Haag, Office of the Kansas State Fire Marshal Letter to 
Senator Sam Brownback, September 8, 1998.
    \8\ Id.
---------------------------------------------------------------------------
    NFPA continuously reviews and updates standard NFPA 58, a process 
which is open to EPA participation. EPA's zeal in including propane in 
the RMP scheme is also contrary to Federal standards adoption policy. 
The National Technology Transfer and Advancement Act of 1995 \9\ 
requires that ``all Federal agencies and departments shall use 
technical standards that are developed or adopted by voluntary 
consensus standards bodies, using such technical standards as a means 
to carry out policy objectives or activities determined by the agencies 
and departments.'' \10\ Congress further requires regulatory agencies 
``to coordinate Federal, State and local technical standards activities 
and conformity assessment activities, with private sector technical 
standards activities and conformity assessment activities, with the 
goal of eliminating unnecessary duplication and complexity in the 
development and promulgation of conformity assessment requirements and 
measures.'' \11\
---------------------------------------------------------------------------
    \9\ P.L. 104-113 ; 110 Stat. 775 (1996).
    \10\ Id.
    \11\ Id.
---------------------------------------------------------------------------
    Congress intended that regulatory agencies use existing national 
consensus codes or standards rather than develop new regulations to 
reflect an interest in streamlining regulations to remove redundancies. 
Congress also recognizes that private industry has superior knowledge 
and experience regarding standards. The EPA has no experience with 
developing standards for safe handling and storage of propane. They are 
not well suited to develop standards based on the accidental release 
analyses.
    NFPA 58 is exactly the type of national consensus based industry 
standard that Congress had in mind when enacting this legislation. NFPA 
standard 58 is already referenced by OSHA and the Department of 
Transportation.
    California may very well be the most environmentally conscious 
State in the country. The State's environmental standards in many cases 
exceed Federal requirements. California State officials have embraced 
NFPA 58. ``The Legislature finds and declares that NFPA 58 is overseen 
by a national committee that ensures that the standard incorporates the 
latest in current and approved technology.'' \12\ The California State 
Legislature determined that ``the State Fire Marshal in conjunction 
with the Occupational Safety and Health Standards Board shall, after 
public hearings, adopt by reference the 1992 edition of NFPA 58 
Standard for the Storage and Handling of Liquefied Petroleum Gases.'' 
\13\ The statute establishes that ``it is the intent of the Legislature 
that the NFPA 58 Standard supersede any inconsistent State 
standards...'' \14\ Other States have passed similar legislation, 
adopting NFPA 58 as the State standard. \15\
---------------------------------------------------------------------------
    \12\ Cal Pub Util Code Section 4451 (1997.)
    \13\ Cal Health & Safety Code Section 13241 (1997.)
    \14\ Id.
    \15\ See Miss. Code Ann. Section 75-57-105 (1997) ``. . . 
regulations shall be in substantial conformity with the published 
Standards of the National Fire Protection Association for the Storage 
and Handling of Liquified Petroleum Gases (NFPA 58). . .''.
---------------------------------------------------------------------------
    Most significantly, some critics assert that the EPA is trying to 
federalize fire safety. Senator John Chafee observes ``nothing in 
Section 112, nor any other part of the Clean Air Act suggests that it 
should be regarded as a Federal fire safety law.'' \16\ In a letter to 
EPA Administrator Carol M. Browner, Senator Chafee recognizes that 
Congress ``mandated the inclusion of 16 chemicals on the list to be 
developed under Section 112(r)(3). The concern in each case was related 
to the use of the substances in a manufacturing process or other 
chemical application and not as a fuel source.'' He astutely concludes, 
``Risks from fuel explosions might more appropriately be regulated by 
the Occupational Safety and Health Administration, the Department of 
Transportation or State and local agencies.'' \17\ Critics are also 
concerned about wasted resources. Rep. Sherwood Boehlert (R-NY), who 
has a strong record of supporting environmental initiatives states, 
``It is a waste of both the agency's and the private sector's resources 
to extend the coverage of Section 112(r) to flammable fuels.''
---------------------------------------------------------------------------
    \16\ Senator John H. Chafee, Ibid.
    \17\ Senator John H. Chafee, Ibid.
---------------------------------------------------------------------------
                       regulatory burdens of rmp
    Propane facilities subject to the RMP must be in compliance by June 
21, 1999. These marketers and propane consumers face civil enforcement 
provisions authorizing penalties of up to $25,000 per violation per day 
for facilities or individuals found to have violated regulations or 
permits issued under the Clean Air Act. These regulations will 
needlessly expose many farmers and small businesses to severe financial 
penalties. The Act also allows members of the public to file their own 
civil enforcement actions against affected facilities. This provision 
will expose thousands of smaller propane users to civil penalties and 
nuisance suits by overzealous plaintiffs lawyers.
    The EPA claims that complying with the disclosure plans is simple. 
The forms are by most Federal standards relatively short. This is only 
half the story. While the forms may be concise, the instructions are 
extremely lengthy and complex and beyond the ability of most smaller 
businesses. The RMP forms are analogous to Federal income tax forms, 
short forms, yet excruciatingly complex instructions. The regulation is 
42 pages long. The EPA's General Guidance for Risk Management Programs 
\18\ is over an inch thick while the EPA's RMP Guidance for Propane 
Storage Facilities is approximately 100 pages. Obviously compliance 
with these programs will be beyond the expertise of most propane users. 
The cost of complying with these requirements and the loss of 
productivity is staggering. Many propane consumers will simply avoid 
the requirements by shifting consumption to other fuels.
---------------------------------------------------------------------------
    \18\ 40 C.F.R. Part 68.
---------------------------------------------------------------------------
               propane and state risk management programs
    Some States have already adopted risk management plans on a local 
basis. But some of these States have recognized that propane need not 
be included among the substances needing to report under a RMP. In New 
Jersey, State environmental officials determined that propane did not 
merit the same stringent regulations as hazardous chemicals and was 
exempted from the RMP requirement. New Jersey officials properly 
recognized that under the State Toxic Catastrophe Prevention Act, \19\ 
propane should not be treated the same as chemicals such as methyl 
isocyanate, the deadly gas that was released in Bhopal. In exempting 
propane from the reporting requirement of the State RMP Reginald 
Baldini, of the State Department of Environmental Protection determined 
that propane is already highly regulated by other laws, including the 
New Jersey Liquefied Petroleum Gas Act of 1950.
---------------------------------------------------------------------------
    \19\ N.J. Stat 13:1K-19 (1998).
---------------------------------------------------------------------------
    Robert Nixon, a New Jersey propane industry representative stated 
``We're very happy the DEP agreed with the propane industry that 
essentially propane is not a toxic substance and there are several 
other laws and regulations in the State that provide the same level of 
protection to the public as the Toxic Catastrophe Prevention program.'' 
``That ruling just saved the propane industry in the State.'' \20\ The 
RMP program in New Jersey would have cost the State's propane users 
approximately $1 million annually in fees alone.
---------------------------------------------------------------------------
    \20\ Bruno Tedeschi, ``Propane Off Hazardous List; DEP Action 
Follows Industry Outcry, The Bergen County Record, July 21, 1998, P A-
2.
---------------------------------------------------------------------------
    Similarly, in October 1998, the EPA published a direct final rule 
and a proposed rule that will approve the Florida Department for 
Community Affairs Division of Emergency Management proposal for RMP 
implementation. The Florida State plan exempts sources with propane as 
their only regulated substance from the requirements of the RMP 
program. \21\
---------------------------------------------------------------------------
    \21\ RMP Relief in Florida Moves Forward; Federal Rules Pending, 
Butane-Propane News, November 9, 1998. Available at http://
www.bpnews.com.
---------------------------------------------------------------------------
 the inclusion of propane in rmp regulations will increase the cost of 
                          propane to consumers
    The inclusion of propane in RMP regulations will increase the cost 
of propane to small consumers. Propane is a residential heating source 
primarily for rural low to moderate income consumers. Medium and large 
commercial and industrial propane users will shift to other fuels to 
avoid RMP reporting burdens. These larger commercial and industrial 
users have a steady, year round demand for propane deliveries. Their 
demand requirements subsidize the transportation infrastructure of 
propane in the warmer off season. As they are forced by regulation from 
the propane market, the transportation costs will shift to the smaller 
peak demand users, primarily residential and small business consumers.
    The cost of compliance with RMP requirements for the propane 
industry is estimated at over $1 billion. This cost will be borne by 
the consumer with no visible benefit. Similarly some commercial and 
industrial consumers will shift from propane to other sources such as 
natural gas or electricity to avoid the RMP reporting burden. This 
shift will not be frictionless. The increased cost of energy and the 
increased transaction costs associated with fuel switching will be 
borne by the consumer with no visible benefit.
    As the cost of complying with RMP regulation decreases demand for 
propane, many propane marketers will be forced out of business. This 
will result in a loss of investment and reduced employment in the 
industry, particularly hard felt in rural areas. The closing of propane 
marketers ultimately means reduced competition in the fuels market. 
Fewer fuel choices and a loss of competition will mean higher prices 
for consumers.
    With RMP requirements in place, competition within the propane 
market will suffer. Consumers electing to stay with propane will be 
bound to their existing suppliers by the need for assistance in RMP 
compliance. A consumer wishing to switch propane suppliers will have to 
pay the cost of completing and filing a new RMP as a condition of 
service. Rather than face this cost, many consumers will find 
themselves wedded to an existing propane relationship in an economic 
marriage of convenience sanctioned by the EPA.
    As Kristin M. Corsale, Executive Director of the Ohio Meat 
Industries Association clearly states ``The EPA rules will affect our 
members because it will affect the farmers and manufacturers who stock 
the shelves. If propane suppliers and big users are required to spend 
extra time and money to comply with the EPA rules, their expenses will 
trickle down to grocers and their customers.'' \22\
---------------------------------------------------------------------------
    \22\ Kristin M. Corsale, Executive Director, Ohio Meat Industries 
Association, Letter to Rep. Ted Strickland, October 8, 1998.
---------------------------------------------------------------------------
 inclusion of propane in the rmp regime is based on faulty assumptions 
                          and flawed research
    The information required under the RMP plans is based upon faulty 
assumptions and flawed decision making by the EPA. For example, the RMP 
requires facilities to evaluate the impact of a release of all the 
propane at a site. According to Anthony R. O' Neill, Vice President of 
the National Fire Protection Association, ``historical data on fires at 
propane bulk storage plants indicates that the total release basis for 
EPA's requirement is an unrealistic scenario that will predict 
potential impacts far greater than a worst case release.'' \23\ Mr. 
O'Neill observes that propane is stored in ASME pressure vessels that 
are certified by third parties. ``Data shows that these vessel do not 
fail with total release of material.'' \24\
---------------------------------------------------------------------------
    \23\ Anthony R. O'Neill, Vice President National Fire Protection 
Association, Comments on EPA's Risk Management Rule, July 7, 1998.
    \24\ Id.
---------------------------------------------------------------------------
    The intent of the Act is to give communities information regarding 
toxic substances. A propane release does not pose the same threat as 
hazardous chemicals. Propane is flammable but not toxic. The propane 
industry also has an impressive record of safety. The individual risk 
of a member of the public being fatally injured in a propane accident 
is 1 in 37,000,000. As a point of comparison, the odds of being struck 
by lightning is 1 in 1,375,000. Therefore, risk to the public from 
propane incidents are 1,000 times less likely than the risk of being 
struck by lightning!
    Given the widespread usage of propane and the safety record of the 
industry, there is no reason for propane to be included in the list of 
substances under the right to know program. Inclusion of propane in 
this list will needlessly terrorize many citizens into thinking that 
they have a toxic substance in their community or their homes. Jerry 
Stocker, Vice President of the New Jersey Propane Gas Association 
explained at a New Jersey public hearing on the State RMP that 
``propane does not have the chemical foundation to result in a gaseous 
release that would result in death or permanent disability.'' \25\
---------------------------------------------------------------------------
    \25\ Bruno Tedeschi, ``Hazards List Could Hit Burger Stands; State 
Plan Applies Tougher Standards,'' The Bergen County Record, May 4, 
1998, P A-3.
---------------------------------------------------------------------------
    The over $1 billion cost of compliance is particularly high when 
compared with the low risk of propane accidents from the propane 
facilities to be included in the RMP regime. In 1997, total combined 
losses from all propane facilities that would have to submit RMPs was 
$500,000. This number reflects all building and structural fires, 
outdoor fires and vehicle fires at propane bulk storage plants. \26\
---------------------------------------------------------------------------
    \26\ Anthony O'Neill, Ibid.
---------------------------------------------------------------------------
    In a letter to Senator Barbara Boxer (D-Calif) regarding inclusion 
of propane in the expanded EPA reporting regime, John A. Lemire of the 
State of California Occupational Safety and Health asks ``Finally, what 
is the gain?'' \27\ Mr. Lemire states that ``The public's right to know 
is a sacred right but what will be the gain from this activity? 
Knowledge of such catastrophic situations that have such an 
infinitesimal likelihood of occurring due to current regulations--what 
is the point except to panic the general public?'' \28\
---------------------------------------------------------------------------
    \27\ John A. Lemire, State of California, Division of Occupational 
Safety and Health, Letter to Senator Barbara Boxer, November 12, 1998.
    \28\ John A. Lemire, Ibid.
---------------------------------------------------------------------------
    EPA also used faulty data when it pushed to include propane in the 
RMP reporting regime. According to the NPGA analysis of EPA data, 
incidents occur during transportation activities and at facilities not 
covered by RMP rules far more frequently than at facilities subject to 
RMP requirements. Only a small minority of incidents occur at 
facilities targeted by the RMP regime. The majority of incidents occur 
during transportation not covered by RMP. \29\
---------------------------------------------------------------------------
    \29\ Philip A. Squair, Director of Regulatory Affairs, NPGA, Letter 
to Jennifer Woodbury, House Small Business Committee.
---------------------------------------------------------------------------
    The EPA decision to include propane in RMP was also based on weak, 
flawed and irrelevant data. EPA ``research'' consisted of 52 pages of 
news articles reporting propane incidents and 112 incidents recorded by 
the Major Hazard Incident Data Service (MHIDAS). Some of this 
questionable data is nearly 50 years old and includes incidents from as 
far away as Japan. The EPA reviewed and relied upon evidence of 157 
incidents to justify including propane in the RMP reporting regime. Of 
these 157 incidents, only 31 (19%) could be confirmed to have occurred 
at a facility which would be subject to RMP.
    Of these 31 incidents, 15 incidents were caused by or during 
transportation activities not subject to RMP. Of the 16 non-
transportation related incidents involving propane, only 11 incidents 
could be confirmed to have had offsite consequences, including purely 
precautionary activities such as evacuations. In 8 incidents, propane 
was either found not to have leaked or was not implicated. \30\
---------------------------------------------------------------------------
    \30\ Id.
---------------------------------------------------------------------------
                               conclusion
    The Clean Air Act Amendments were designed to prevent the hazard of 
accidental chemical releases. Current EPA plans would thwart 
Congressional intent, actually increasing the risk of propane 
incidents. Inclusion of propane in the RMP regime is bureaucratic 
decision making at its worst. The plan is based on faulty and 
misleading assumptions, increases costs to a wide array of consumers, 
injures a productive domestic industry and threatens the environment, 
with an increase in the risk of accidents. The proposed RMP reporting 
regime is redundant and wrong headed and in need of rejection.
                               __________
     Statement of Robert E. Blitzer, Former Section Chief Domestic 
    Tcrrorism/Counterterrorism Planning Section, Federal Bureau of 
                             Investigation
    Good morning, Mr. Chairman and members of the committee. I am 
pleased to have this opportunity to discuss the electronic 
dissemination of chemical ``worst case'' scenarios by the Environmental 
Protection Agency (EPA).
    From January 1996 until I retired from the Federal Bureau of 
Investigation (FBI) at the end of November 1998, I served IS Chief of 
the Domestic Terrorism/Counterterrorism Planning Section of the 
National Security Division. In this capacity I was responsible for 
national oversight and management of several important programs to 
include Domestic Terrorism Operations, Weapons of Mass Destruction 
(WMD) Operations, WMD Domestic Preparedness, Special Events Management, 
and Civil Aviation Security.
    In December 1997 the FBI became aware, through the Chemical 
Emergency Preparedness ant Prevention Office of the EPA that Section 
112(r) of the ``Clean Air Act of 1990'' required the publishing of 
regulations focusing on the prevention of chemical accidents In an 
effort to comply with these regulations the EPA proposed to distribute 
Risk Management Plans (RMP) via the Internet and CD-ROM These plans 
would include for each facility history of accidental releases, an 
offsite consequence analysis (OCA); a prevention program inclusive of 
company operating procedures, employee training, hazard evaluation and 
emergency response programs to ensure that either facility employees or 
public responders were prepared to deal with any accidents that might 
occur and thus minimize the consequences.
    A number of meetings with representatives of the law enforcement 
and intelligence communities were held during 1997 and 1998 to discuss 
``security concerns'' relating to the making available of all RMP data 
relating to the approximately 66,000 chemical sites within the United 
States. The proposed EPA electronic distribution plans were discussed 
with these agencies. The plans would allow users to initiate Internet 
searches by facility namer area of the country, zip code, city, county, 
and State. A modified search by chemical type would allow a person 
using the EPA web site, to choose a portion of a city by zipcode and 
tailor an attack by searching for certain chemicals. A search of this 
nature could be accomplished from anywhere in the world. Additionally. 
no record of such a query would be made. Further searches could be 
tailored to developing information regarding chemical companies' 
mitigation and safeguarding capabilities.
    Of greatest concern to the law enforcement and intelligence 
communities was the possible Internet dissemination of Worst Case and 
Alternate Worst Case Scenarios as set forth in the OCA. Using the 
Internet a terrorist, criminal or disgruntled employee could identify 
these scenarios and fine tune an attack by selecting ``worst case 
scenarios'' at facilities that were within or adjacent to large 
civilian or military communities.
    Based upon the above meetings a number of interagency 
recommendations were developed and provided to EPA in a letter dated 
October 30, 1998. The leper recorded interagency agreement that OCA 
data not be included in RMP information distributed via the Internet. 
Other data elements would be accessible to the public on the Internet. 
EPA agreed to work with stakeholder groups to identify meaningful 
approaches to make appropriate OCA information available to the local 
community. To ensure that State and local government agencies have 
access to all national RMP dam it was recommended that SPA use a 
``closed system' restricted to State and local government agencies. 
This system should use secure password protection and sanction 
technology.
    It was believed that the creation of a CD-ROM encompassing EPA's 
RMP data base could be accomplished. However, the FBI recommended that 
EPA not include facility identification and contact information on the 
CD-ROM. This allows legitimate information retrieval for analysis, 
however removes the ability of criminals and terrorists to use this 
information for targeting purposes.
    Mr. Chairman, at the time the above letter was prepared both the 
Department of Justice, and the EPA Legal Counsel advised the FBI that 
the current Freedom of Formation Act requires that EPA provide the 
complete RMP information including the worst case scenarios to a 
requester. This is a potential problem. If this information is obtained 
arid posted on private Internet sites the responsible steps taken by 
the FBI, EPA and its interagency partners would be negated. This is a 
concern that I hope you can address in an expeditious fashion.
    The FBI and its interagency partners have worked hard to strike a 
reasoned balance to insure public dissemination of important 
information. In early February, Attorney General Janet Reno and FBI 
Director Louis Freeh appeared before the U.S. Senate Subcommittee for 
the Departments of Commerce, Justice, and Slate, the Judiciary, and 
Related Agencies of the Committee on Appropriations. Director Freeh 
gave an excellent overview of both the international and domestic 
terrorism threats we face at the present time and into the future He 
also spoke about a number of high profile investigations that have 
occurred in the last several months. One key point that the Director 
made was that `` Terrorists, both abroad and at home, are using 
technology to protect their operations from being discovered and thwart 
the efforts of law enforcement to detect, prevent, and investigate such 
acts.'' Computer technology is and will be a terrorist tool. I believe 
that the actions taken to prevent the widespread Internet dissemination 
of ``worst case'' sensitive chemical facility information was both 
prudent and necessary.
    This concludes my remarks. Thank you.
                               __________
             Statement of Thomas M. Susman, Ropes and Gray
    Mr. Chairman and members of the subcommittee, I am pleased to be 
here this morning to address the application of the Freedom of 
Information Act to certain chemical accident reporting data that are 
required to be provided to the Environmental Protection Agency under 
the Clean Air Act.
    I have been involved with government information law for over 30 
years, as the attached biographical summary reflects, and have been an 
unwavering advocate of increasing public access to government 
information throughout that time. I headed an American Bar Association 
effort to press for enactment of legislation to adapt the Freedom of 
Information Act (FOIA) to the electronic era and testified before a 
Judiciary Subcommittee supporting Senator Leahy's legislation that 
became the Electronic Freedom of Information Act (EFOIA).
    I have litigated FOIA cases pro bono on behalf of public interest 
groups, serve on the Board of the National Security Archives, am a 
consultant to the American Library Association on government 
information dissemination, and am Treasurer of the American Society of 
Access Professionals. However, I represent none of these organizations 
this morning.
    I appear today on my own behalf, at the request of the 
subcommittee. I note that the paper attached to my testimony, which I 
am submitting for inclusion in the record, was prepared in part through 
the support of the Chemical Manufacturers Association, but its analysis 
and conclusions are mine.
    I am here because I have great respect both for the FBI and its 
antiterrorist expertise and activities and also for the important 
benefits of open access to government information. When the FBI says 
that offsite consequence analyses (OCAs)--required to be submitted to 
EPA as part of the Clean Air Act (CAA) requirements--should not be 
posted on the Internet because it will significantly the prospects for 
terrorist attacks on facilities, I readily conclude that such posting 
is a bad idea. When EPA and local governments and community leaders say 
that access to OCA data will encourage accident prevention and 
facilitate community preparation for and rapid response to chemical 
accidents, I am comfortable concluding that such access is a good idea. 
Plainly some way of striking a balance between these conflicting 
interests must be found.
    Where I find myself in disagreement, however, is with EPA's 
contention that under current law the agency can collect OCAs in 
electronic format or can compile them in an electronic medium, but not 
release those data in electronic form to the public.
    That is not what those of us who worked for enforcement of an 
effective FOIA and for enactment of the EFOIA fought for.
    That is not what Congress, in enacting the FOIA and EFOIA 
amendments, intended.
    That is not consistent with how courts and the Department of 
Justice have interpreted the FOIA and EFOIA amendments.
    Let me explain.
    The CAA states clearly and unequivocally that OCAs, as part of the 
management plans required to be filed with EPA, must (except for trade 
secrets) be made available to the public. If the issue were whether, 
rather than how, access is to be effected to these OCAs, then our 
inquiry might end right here. That is because section 114(c) of the CAA 
simply does not address the format issues.
    The FOIA, however, does. It says that ``any person''--including the 
group that planned the attack on the chemical facility outside Dallas 
in 1997 and including members of Bin Laden's terrorist organization--
has a judicially reviewable right of access to government agency 
records.
    The FOIA also says that if the government has information, it has 
no discretion to withhold that information unless it fits into one of 
the act's exemptions. As my appended paper discusses, the exemptions do 
not apply here.
    And finally, the FOIA, by virtue of its 1996 EFOIA amendments, 
requires disclosure of the requested data in an electronic format 
without additional manipulation by the agency if that format is in 
possession of the agency. And it goes the additional step of saying 
that data must be disclosed electronically in a different format if it 
is reasonably feasible for the agency to do so.
    The FOIA requires that the EPA fully and completely respond to FOIA 
requests regarding OCA information. OCA information submitted to the 
agency in an electronic format must be provided to any person who 
requests the information in that format. As the ACLU and several other 
disclosure advocates recently agreed in correspondence with Chairman 
Bliley, the EPA has no discretion to act otherwise.
    There has been some suggestion by EPA that the OCA data may be 
reformatted to make ready access and manipulation and search in 
electronic format more difficult--to create ``speed bumps'' to 
disclosure. Mr. Chairman, no agency should be allowed, much less 
encouraged, to state publicly that it intends to solve a problem by 
disobeying the law and violating a clear mandate of Congress.
    The FOIA does not permit it.
    The Justice Department, with responsibility to see that the laws, 
especially the FOlA, are faithfully carried out, should not condone it.
    And the Congress should not tolerate it.
    For those who agree that unrestricted electronic access to OCA data 
via the Internet is a threat to the security of manufacturing 
facilities and the communities in which they are located, there is but 
one legal solution to this problem: new legislation.
    I am not proposing that Congress amend the FOIA or, for that 
matter, eliminate or reduce the reporting requirements under the CAA. 
Nor do I propose that OCAs become unavailable to local governments or 
community residents. There may be other problems with EPA's protection 
of sensitive information: inadequate security of EPA's computer 
systems, the dangers of posting chemical inventory data under other 
provisions of law, or the absence of adequate protection for 
confidential commercial information. These serious problems, however, 
are not the focus of this hearing.
    A balanced scheme is needed that will allow selective community 
access to OCAs, and even release of paper copies on a request-by-
request basis, but will specifically and clearly prohibit their 
dissemination to the general public in electronic format. The 
development of that scheme should, Mr. Chairman, be up to Congress, 
through legislation, and not EPA, through violating the Freedom of 
Information Act.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Statement oF Paula R. Littles, Paper, Allied-Industrial, Chemical and 
               Energy Workers International Union (PACE)
    Mr. Chairman, members of the committee, my name is Paula R. 
Littles. I am the Citizenship-Legislative Director for the Paper, 
Allied-Industrial, Chemical and Energy Workers International Union, 
AFL-CIO (PACE). Our union represents 320,000 workers employed 
nationwide in the paper, allied-industrial, chemical, oil refining, and 
nuclear industries.
    Our organization is deeply concerned over discussions surrounding 
the issue of EPA not providing full disclosures of (RMPs) Risk 
Management Plans. We very much appreciate the opportunity to appear 
before you today. The question of full disclosure of Risk Management 
Plans is of vital importance to our organization, our members, and the 
communities in which they live. We feel that if we are ever to have 
effective, ongoing hazard reduction. These plans must be fully disclose 
to encourage safer technologies, honor the public's right to know, and 
to overcome the complacency of the chemical industry, that has allowed 
it to produce no serious plan and timetable to reduce hazards.
    The Clean Air Act requires the Environmental Protection Agency 
(EPA) to implement a program to assist in the prevention of chemical 
accidents. EPA developed the Risk Management Program Rule. This Rule 
requires some 66,000 facilities that manage sufficient amounts of 
hazardous materials to develop a RMP and file it with EPA. These 
facilities include chemical manufacturers, refineries, water treatment 
facilities, ammonia refrigeration, propane storage, and semiconductor 
fabrication. A projected 85 million people live within a five-mile 
radius of a RMP facility.
    The Clean Air Act also requires that EPA make this information 
available to the public. Our organization became very concerned in 
November when we discovered that EPA had made the decision on November 
6, 1998 to not allow full access to RMP information. We have expressed 
our concern about EPA's ability to effectively deliver full access to 
Risk Management Plans in joint correspondence with other groups to EPA 
Administrator Carol Browner.
    Our main of concern surrounding full discourse is our members, 
their families and the communities in which they live. Our members are 
the first respondents to the site of a manufacturing accident at their 
worksite. They also may work at a site near an incident, next door, 
across the street, or five miles away, but near enough to be affected. 
Currently, not enough effort has been placed on hazard reduction, for 
our organization to readily accept limited discourse on hazardous 
materials that our members work, or live near.
    There is also the issue of manufacturing security. It is to our 
advantage as an organization that represents workers in this arena that 
we can say to workers, their families, and the community, that these 
facilities have nothing to hide. We can tell workers that these 
facilities are working toward reducing hazards, their RMPs are 
available in any form they need ``electronic or other'' to provide the 
information needed to show that they are really working toward hazard 
reduction. We believe that it is not the knowledge that is harmful, but 
the lack of knowledge that has at times created mass hysteria and 
rushes to judgment.
    Although numbers vary, depending on the source of statistics and 
period of time examined, there is no doubt about the effects of 
chemical accidents on human lives. Year after year, large numbers of 
people are killed or injured. In addition, the numbers for those 
suffering the long-term consequences of exposure must also be counted.
    Currently, the Chemical Safety Board is reviewing or investigating 
accidents in Arizona, Arkansas, California, Florida, Georgia, Idaho, 
Iowa, Louisiana (3), Maryland, Michigan (2), Missouri, New Jersey (2), 
New York, Ohio (2), Oklahoma, Oregon, Pennsylvania (2), South Dakota, 
Texas, and Washington State (2), as of February 3, 1999. The last 3 
months of 1998 the Chemical Safety Board begin four incident 
investigations. Of those four:
    10-13-98: Five employees injured, local residents advised to 
shelter in their homes;
    10-24-98: Seven workers were killed;
    11-25-98: Six workers were killed; and 12-11 -98: Seven workers 
were killed.
    That is a total of 20 workers who were killed on the job in the 
last 3 months of 1998. These numbers are clear and the message they 
send should be equally clear, we need to work harder at reducing 
hazards and it is our belief that full disclosure is the beginning 
step.
    We believe that there are many valid and important uses for RMP 
information by people who live, work and conduct business well beyond 
the immediate community where a facility is located. RMP information 
can be useful in the following ways:
    To learn about vulnerability zones and prevention practices in 
similar facilities in different States;
    To verify reported information by comparing data submitted 
elsewhere; To hold government accountable for reducing hazards 
nationwide;
    To develop studies on chemical hazards;
    To develop effective accident prevention programs;
    To develop and conduct effective education and training programs; 
To link other worker safety and public health data base; and To 
determine which facilities might pose ``Year 2000'' risks.
    Just as we believe strongly that our members, their families, and 
the communities they reside in will be made safer by these full 
disclosures, we do not believe that they are being placed in danger of 
sabotage or terrorism.
    In earlier discussions with EPA, the industry and everyone else 
agreed that a ``professional terrorist'' would not be deterred by 
keeping this information off the Internet. (For earlier discussion, see 
www.epagov/swcrccpp/pubs/rmprpt.html--look under Section 2.B. 
``Location of RMP. Info [Internet Issues]).
    Risk Management Plans do not include any information about how to 
sabotage an industrial facility, no technical data about how to cause a 
``worst case'' event, no tank locations, no plant security information, 
and no classified information. Anyone can get readily available 
information regarding the largest and most dangerous facilities that 
store chemicals, without using the Internet. Also, keeping worst-case 
scenarios off the Internet offers no real protection to communities. 
Communities can only be protected when companies use safer chemicals, 
reduce dangerous storage, widen buffer zones and provide full 
information.
    Chemical accidents have no respect for geographic boundaries. We 
must have the freedom to communicate concerning chemical hazards, if we 
are to have real hazard education. Only with full information 
disclosure and opportunities to act can facilities, employees, and 
communities reduce chemical hazards.
    In conclusion, I would like to reiterate the following points:
    Industry should and must produce a serious quantifiable plan and 
timeline to reduce hazards; and
    Full disclosure of RMPs is the key tool needed to access the impact 
of hazard reduction programs and activities.
    Thank you for allowing me the opportunity to speak on behalf of 
PACE to explain our position to you today on this important issue.
                               __________
 Statement of Thomas Natan, Research Director, National Environmental 
                                 Trust
    Mr. Chairman and members of the committee, my name is Thomas Natan, 
and I am the Research Director of the National Environmental Trust, a 
non-partisan, non-profit public interest organization that educates the 
public on environmental issues. I thank you for the opportunity to 
testify as a member of the environmental community concerning the EPA's 
Risk Management Plan Program under section 112(r) of the Clean Air Act. 
I am a chemical engineer by training, and have visited scores of 
industrial facilities, examining ways in which they can operate more 
efficiently and safely, as well as helping to interpret their 
environmental data for residents of surroundings convexities.
    As the committee is aware, in 1986, Congress enacted the Emergency 
Planning and Community Right-to-Know Act. A principal feature of this 
legislation was the Toxics Release Inventory Program, or TRI. TRI has 
been credited by both environmentalists and industry alike for 
generating a climate that has resulted in dramatic decreases in toxic 
chemical emissions without the traditional constraints and costs of a 
command-and-control regulatory framework. A principal result of the 
public right-to-know program has been an incentive for enhanced 
environmental stewardship without the burdens of the command-and-
control regulatory system.
    The experience with complete and unimpeded public dissemination of 
TRI data in generating significant reductions in releases of toxic 
chemicals to the environment is relevant to the issue of public 
availability of Worst Case Scenario data. Like the 112(r) program, TRI 
merely requires reporting of information that companies already 
generate in the course of doing business. Public awareness--generated 
from both local citizens and data analyses by environmental groups--has 
led to a reduction in toxic chemical releases of 50 percent over the 
last 10 years, No further regulation was necessary to bring about these 
reductions. The enduring lesson of public access to information 
regarding toxic chemical risks f.acing communities is that real risk 
reduction can occur without the imposition of new and significant costs 
to our manufacturing sector. Another extremely import lesson that we 
can glean from the TRI processes that public access to toxic chemical 
release information alone can generate enormous risk reduction 
benefits. Also, for many workers at industrial facilities, TRI is their 
first opportunity to learn about chemicals used on the job--another 
unexpected benefit of complete access to information. All of these 
benefits can be enhanced further through public access to 112(r) data.
    As the committee is aware, the intelligence community has raised 
concerns about the availability of Worst case scenario 112(r) data on 
the Internet. Even in the absence of Internet access to data, there are 
many ways in which the EPA, the intelligence community, and the 
chemical industry must work, both separately and together, to reduce 
hazards and potential risks to the American public from use of toxic 
chemicals at industrial facilities.
    While a ``read-only'' CD-ROM has been proposed by EPA so a means of 
dissemination, the complete 112(r) data, there have not yet been enough 
details to determine if the CD-ROM will meet the need of a diverse 
public. To name just a few, this ``public'' includes citizens who vent 
to compare their local facility to others across the county in same 
industry workers at the facilities, for whom Worst Case Scenario data 
may be the best vehicle to learn about risks and hazards on the job; 
emergency responders, who will want to know if a particular plant meets 
the industry standard for safety; educators, who will want to teach 
students about best practices; and investors, who want to track the 
performance of all the facilities of a particular company.
    Whether or not the Worse Case Scenario data are available on the 
Internet, EPA should establish specific public access services and 
mechanisms including;


    <bullet>  instituting a multilingual public ``800'' hot-line;
    <bullet>  dedicating liaisons to conduct data analyses, rank 
hazards, and respond to questions;
    <bullet>  distributing complete 112(r) information through public 
libraries;
    <bullet>  providing service for information on specific facilities, 
using maps and mapping tools to clearly communication hazards;
    <bullet>  notifying communities of changes in potential risks from 
local facilities as shown by changes in 112(r) data or permit 
information; and
    <bullet>  providing links to other data collected by the Agency 
that will provide a context to evaluate the use of particular use of 
particular chemicals at individual facilities.


    EPA also needs to take an active role in providing comparative 
analyses of data from facilities within particular injuries, to 
determine ``best in class'' practices as they currently exist. 
Similarly, EPA should provide analyses of uses of specific chemical 
across industries for some of the most hazardous substances. From the 
time the Agency receives the first 112(r) data, it should be creating 
guidance documents for locally impacted citizens and the general public 
on what the date mean and do not mean, as well as lists and 
explanations of supporting documentation that facilities should have on 
hand. As more years of data become available, the Agency can also 
publicize success stories of facilities that have significantly reduced 
their vulnerability zones.
    To my knowledge, the review of Worst Case Scenario data by the FBI 
is the first time the FBI has reviewed chemical accident data reported 
by industrial facilities to determine the potential threat that onsite 
use of toxic chemicals pose to local communities.
    This is true despite the fact that more than 10 years of chemical 
accident data have already been widely available. In my opinion, the 
most significant finding made by the FBI during its review of Worst 
Case Scenario data was that use of toxic chemicals at facilities poses 
an inherent risk to workers, neighboring properties, and surrounding 
communities. The FBI additionally found that making the public aware of 
chemical use risks over the Internet would amplify this inherent, pre-
existing risk. In light of these findings, it is important to emphasize 
that the risks emanate from the toxic chemical use at facilities, not 
public awareness of those risks.
    As I stated earlier, one of the benefits of public access of 
information about chemical use has been risk reduction. However, 
despite increasing public awareness and reducing risks, accidents still 
occur. Perhaps an example will help illustrate this point. Workers and 
neighbors of the Tosco refinery in Lehigh County, Pennsylvania 
experienced 13 serious chemical use accidents in the past 10 years. The 
frequency of accidents at the Tosco refinery demonstrates that it is 
chemical use that poses the risk, not public awareness of the risk. The 
interest of the environmental community is risk reduction. We believe 
that FBI can play a tremendous role in furthering society's goal of 
risk reduction. A comprehensive review by the FBI of security measures 
at facilitates using or producing large volumes of toxic chemicals 
would be a good start to reducing risks to citizens.
    Further reviews could include risks generated by transporting 
chemicals to and from such facilities. The chemical industry has begun 
presenting Worst Case Scenario data for individual facilities to local 
citizens in Louisiana and Texas. Companies should go further and 
produce reports on their Worst Case Scenario data for all the 
facilities they own, enabling the public to see that they operate 
uniformly with regard to risk minimization. These reports should also 
publicize plans and goals for risk reduction, if they exist. The 
Chemical Manufacturer's Association's ``Responsible Care'' initiative 
is an example of ongoing efforts that could be augmented to explicitly 
address risk reduction in the context of Worst Case Scenario data. 
Finally, the chemical industry, the EPA, and the intelligence community 
should collaborate on a voluntary initiative to reduce risks with 
reasonable targets and dates. Although reducing hazards by using less 
toxic chemicals would be the most desirable way to accomplish risk 
reduction, a voluntary initiative could explore other common-sense risk 
reduction measures as well. Where reduction in use is impractical, such 
common-sense measures could include safer transportation, storage and 
handling of toxic chemicals. The Worst Case Scenario data provide an 
ideal vehicle for measuring progress for risk reduction efforts. It is 
important to emphasize that all of the stakeholders in this process 
have one common interest: risk reduction.
    Whether you are the owner of a chemical plant, a worker, a 
neighbor, or a host community, everyone wants fewer accidents. I firmly 
believe that accident reduction and prevention was Congress' true 
intent in passing 112(r). Public access to 112(r) data will greatly 
enhance the likelihood that fewer accidents will occur. The question 
before the committee today is how we can attain risk reduction while 
also providing public access to this important information. As I stated 
previously, EPA, the intelligence community, and the chemical industry 
all have vital roles to play in informing the public about risks and 
reducing those risks. Denying, or severely limiting, public access to 
the Worst Case Scenario 112(r) data does not relieve EPA, the 
intelligence community, or the chemical industry of their shared 
obligation to reduce risks.
    Thank you again for the opportunity to address this committee. I 
would be happy to answer any questions the committee may have.
                               __________
    Statement of Ben Laganga, Union County, NJ Emergency Management 
                              Coordinator
    Good morning and thank you for this distinguished opportunity. My 
name is Ben Laganga and I am the Emergency Management Coordinator for 
Union County, New Jersey.
    Union County is an important county in New Jersey; it is a highly 
industrialized 102 square miles with a population of approximately 
494,000. Within the county borders lies Newark International Airport, 
the New Jersey Turnpike and the Garden State Parkway, as well as 
several other? highly traveled thorofares. We are also home to several 
petrochemical and pharmaceutical facilities who are required to file 
risk management plans in 1999.
    As a representative of the county and chairman of the Local 
Emergency Planning Committee (LEPC), I am pleased that you are hearing 
testimony on this highly controversial issue today.
    From the onset of this rule's development, it has been my belief 
that the availability of worst case and more likely case scenario 
information on the Internet could lead to an increase in terroristic 
acts in our State and throughout the country.
    In New Jersey today, through Right To Know and the NJ Toxic 
Catastrophe Prevention Act, all companies that use hazardous materials 
on their site, must provide that information to their LEPC and the New 
Jersey Department of Environmental Protection.
    The information is available to the public, however it must be 
requested, and is not available through the Internet. In my opinion 
that is a better way to monitor those individuals that are requesting 
the information. If the information is available on the Internet, there 
is no possible way to know who is accessing that information, and quite 
frankly, how they are using it.
    There is also another side to this issue, the misunderstanding and 
the misinterpretation of this information. Without proper explanation, 
the general public could misinterpret the information they are 
accessing and it could cause undue alarm amongst thie public at large.
    In Union County, we don't want to see companies go out of business, 
however we do want to maintain the lines of communication between these 
facilities and our emergency response team.
    I hope you recognize that the use of this information is valuable 
to the emergency responders, however if it is put in the wrong hands, 
it could cause more harm that good.
    I know the regulatory intent for the development of Risk Management 
Plans was to put valuable information into the hands of the public--not 
to jeopardize public safety by placing this information in an 
accessible format where it can be used by those looking to cause harm. 
However, I am concerned that is exactly where this valuable information 
will end up.
    Thank you again for this opportunity, and I would be happy to 
answer any questions you may have.
                               __________
                 National Marine Manufacturers Association,
                                     Washington, DC, March 4, 1999.

The Honorable James Inhofe, Chairman,
Subcommittee on Clean Air, Wetlands, Private Property and Nuclear 
        Safety,
United States Senate,
Washington, DC 20510.

    Dear Chairman Inhofe: On behalf of the National Marine 
Manufacturers Association (NMMA), I would like to register the marine 
industry's opposition to the EPA's Risk Management Program Rules as it 
pertains to the regulation of propane gas. NMMA is the national trade 
association representing more than 1400 manufacturers of recreational 
boats, marine engines, boat trailers, and associated equipment in a $17 
billion per annum industry. Our members manufacture over 80 percent of 
these products in the United States. I respectfully request that you 
enter this letter into the record for the March 16, 1999, hearing on 
the EPA Risk Management Program.
    EPA's Risk Management Program (RMP) is authorized under section 
112(r) of the Clean Air Act Amendments of 1990. While Congress intended 
to reduce the risk associated with the accidental release of toxic 
chemicals, the EPA chose to expand the program to include flammables 
such as propane, a non-toxic Mel. The RMP rules require propane 
consumers with more than 2,381 gallons storage to complete costly risk-
management plans with EPA, including approximately 10 percent of our 
members. The minimal risk of holding this quantity of Mel is far 
exceeded by the complicated and expensive compliance scheme. The 
businesses that use propane to heat their plants are small in size and 
lack both the economic and staff resources to comply with this onerous 
regulation.
    NMMA applauds the leadership you have shown by hosting a hearing on 
this important issue. The recreational marine industry strongly urges 
Congress to preserve the original intent of the RMP rules and overturn 
this regulation.
            Sincerely,
   Betsy L. Oilman, Director, Federal Government Relations,
                         National Marine Manufacturers Association.
                               __________
                           National Restaurant Association,
                                    Washington, DC, March 15, 1999.

The Honorable Jim Inhofe, Chairman,
5Subcommittee on Clean Air, Wetlands, Private Property and Nuclear 
            Safety,
Senate Environment and Public Works Committee
Washington, DC 20510.

    Dear Mr. Chairman: On behalf of the National Restaurant Association 
and the 810,000 restaurants nationwide, we are concerned about the 
EPA's risk management regulations that include propane gas. This clean 
burning gas is used for cooking and heating by a number of restaurants 
in outlying areas that are not served by community gas lines.
    Implementation of these rules would mean that these restaurant 
operations would be faced with making a choice of abandoning a safe and 
useful onsite Mel source, and switching to electricity, with the 
concomitant costs of replacing equipment and upgrading electrical 
service, or hiring a consultant to prepare exhaustive studies, prepare 
a detailed hazard review, operating procedures, compliance audits, and 
employee training procedures. At a projected cost of unknown thousands 
of dollars to change to an alternate energy source versus a minimum 
$1,000 per affected site to comply with the regulatory requirements, 
the impact will be significant.
    Operators of some affected restaurants, whether single unit owner 
facilities or members of a multi-unit operation, may find that these 
unexpected additional costs force the decision to delay or abandon 
plans for enlargement or expansion of the business, or in the worst 
chase, to cease operation. This would cause economic stress in 
localities often dependent upon the local restaurant for employment.
    The storage of propane gas is already well-regulated, based on 
National Fire Protection Association (NFPA) standard 58, in all 50 
States. In addition, it is also subject to the Emergency Planning and 
Community Right-To-Know Act of 1986 (EPCRA), OSHA workplace rules and 
DOT hazardous materials regulations.
    Given the intent of these rules in protecting against the release 
of harmful chemicals, and given the safety of propane and its record as 
a useful and economical fuel in the restaurant industry, we ask that 
NFPA 58 be adopted as a compliance alternative to EPA's rules.
    We appreciate the opportunity to share our views. Please feel free 
to contact me at (202) 331-5911 if you have any questions or need 
additional information.
            Sincerely,
    Christina M. Howard, Senior Legislative Representative.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
